<html>
<title> - NASA'S EXPLORATION INITIATIVE: STATUS AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     NASA'S EXPLORATION INITIATIVE:
                           STATUS AND ISSUES
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2008

                               __________

                           Serial No. 110-90

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

41-417 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               MICHAEL T. MCCAUL, Texas
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             April 3, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    18
    Written Statement............................................    19

Statement by Representative Tom Feeney, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    20
    Written Statement............................................    22

                               Witnesses:

Dr. Richard J. Gilbrech, Associate Administrator, Exploration 
  Systems Mission Directorate, National Aeronautics and Space 
  Administration (NASA)
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    36

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    48

Dr. Noel W. Hinners, Independent Consultant
    Oral Statement...............................................    48
    Written Statement............................................    50

Dr. Kathryn C. Thornton, Professor and Associate Dean, School of 
  Engineering and Applied Sciences, University of Virginia
    Oral Statement...............................................    56
    Written Statement............................................    58
    Biography....................................................    67

Discussion.......................................................    67

              Appendix: Answers to Post-Hearing Questions

Dr. Richard J. Gilbrech, Associate Administrator, Exploration 
  Systems Mission Directorate, National Aeronautics and Space 
  Administration (NASA)..........................................    90

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   100

Dr. Noel W. Hinners, Independent Consultant......................   103

Dr. Kathryn C. Thornton, Professor and Associate Dean, School of 
  Engineering and Applied Sciences, University of Virginia.......   105


            NASA's EXPLORATION INITIATIVE: STATUS AND ISSUES

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     NASA's Exploration Initiative:

                           Status and Issues

                        thursday, april 3, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, April 3, 2008 at 10:00 a.m., the House Committee on 
Science and Technology's Subcommittee on Space and Aeronautics will 
hold a hearing to review the status of the National Aeronautics and 
Space Administration's Exploration Initiative and examine issues 
related to its implementation.

Witnesses

    Witnesses scheduled to testify at the hearing include the 
following:

Dr. Richard Gilbrech, Associate Administrator, Exploration Systems 
Mission Directorate, National Aeronautics and Space Administration

Ms. Cristina Chaplain, Director, Acquisition and Sourcing Management, 
Government Accountability Office

Dr. Noel Hinners, Independent Aerospace Consultant

Dr. Kathryn Thornton, Professor of Department of Science, Technology 
and Society; Associate Dean of the School of Engineering & Applied 
Science University of Virginia

Issues That May Be Raised at the Hearing

Implementing the Vision for Space Exploration:

        <bullet>  Does the exploration architecture, as laid out by 
        NASA, present a technically and programmatically viable 
        approach for executing exploration beyond low-Earth orbit under 
        a pay-as-you-go strategy?

        <bullet>  Is the United States on the right track to reach the 
        Moon by 2020, establish an outpost there, and eventually send 
        humans to Mars, or do any changes need to be made to the 
        architecture or implementation plan?

        <bullet>  How will progress in implementing the architecture be 
        measured?

        <bullet>  How sustainable will NASA's planned exploration 
        initiative be, given the assumed constrained budgetary outlook 
        as well as the cutbacks in funding for long-lead exploration 
        technology development?

        <bullet>  How has implementation of the VSE affected ``the 
        gap'' in U.S. crew access to the International Space Station?

Status of Exploration Initiatives:

        <bullet>  Is NASA's strategy in designing the Orion CEV to 
        first service the ISS and then upgrading it to enable lunar 
        missions the most cost-effective approach? That is, is the 
        upgrade approach, rather than designing a crewed vehicle 
        capable of both missions at the onset, the most cost-effective 
        approach?

        <bullet>  What is the status of NASA's Exploration Program and 
        associated projects?

                <bullet>  What would be the effect on the March 2015 
                Initial Operating Capability (IOC) date for Orion and 
                Ares I if NASA is funded at the FY08 level required by 
                a Continuing Resolution in FY09? Would this reduced 
                level for Constellation Systems exacerbate the ``gap'' 
                and if so, by how much?

                <bullet>  Is it technically and programmatically 
                possible to accelerate the Orion CEV's Initial 
                Operating Capability (IOC) to a date earlier than March 
                2015 and still maintain a confidence level of 65 
                percent? What funding beyond the President's request 
                would be needed in FY09, FY10 and the out years to 
                enable such acceleration? Would currently planned 
                reviews and testing be retained during the 
                acceleration?

        <bullet>  Will the March 2015 CEV IOC date slip if projected 
        Shuttle retirement transition costs starting in FY 2011 exceed 
        NASA's goal of less than $500 million?

        <bullet>  How close is NASA to resolving the Ares I thrust 
        oscillation issue and will this issue have any impact on 
        milestones leading up to the March 2015 IOC date?

        <bullet>  If additional resources are made available to NASA's 
        Exploration Program, what should they be used for?

Strategies for lunar exploration, science as part of a lunar 
exploration program, and international and commercial participation:

        <bullet>  What are the most important objectives to be 
        accomplished in returning humans to the Moon?

        <bullet>  To what extent are those objectives prerequisites for 
        exploration beyond the Moon?

        <bullet>  What is NASA's plan and notional timeline for lunar 
        exploration, and exploration beyond the Moon, once those 
        objectives have been achieved?

        <bullet>  Is the current lunar exploration program adaptable to 
        changes in national priorities and budgets?

        <bullet>  What are the decision points for further exploration 
        beyond the Moon and what factors will inform those decisions?

        <bullet>  How should Congress ensure that the establishment of 
        a lunar outpost does not divert attention and resources from 
        exploration beyond the Moon, as articulated in the Vision for 
        Space Exploration and the NASA Authorization Act of 2005? Does 
        a lunar outpost need to be permanently occupied, or would a 
        human-tended outpost be sufficient to meet exploration 
        objectives?

        <bullet>  What is NASA's approach to achieving synergy between 
        science and exploration, and is it effective?

                <bullet>  How can lunar missions be focused to enable a 
                high potential for scientific return?

                <bullet>  Are there organizational issues that can 
                impede this high potential for scientific return?

                <bullet>  How does lunar science fit within the context 
                of other planetary science priorities?

        <bullet>  What major issues need to be addressed before the 
        United States can move forward on arranging international 
        partnerships and commercial contributions to carry out the 
        exploration of the Moon and other destinations, and how should 
        those issues be addressed?

                <bullet>  How important are such international 
                partnerships and commercial contributions to the 
                success of the exploration initiative?

                <bullet>  How can international collaboration in NASA's 
                exploration plans be enhanced? Is there a greater role 
                the international community can play in lunar 
                exploration? What cost implications would such 
                international collaboration have on future NASA 
                budgets?

                <bullet>  What are the cost and programmatic 
                implications of the U.S.'s plan to build the lunar 
                transportation infrastructure, initial communication 
                and navigation infrastructure, and initial surface EVA 
                capability?

                <bullet>  What have we learned about maximizing the 
                effectiveness of international partnerships in the ISS 
                program that could help us better understand how to 
                carry out the exploration initiative?

BACKGROUND

Overview
    In January 2004, President Bush announced his Vision for Space 
Exploration (VSE), which called for NASA to safely return the Space 
Shuttle to flight; complete the International Space Station (ISS); 
return to the Moon to gain experience and knowledge for human missions 
beyond the Moon, beginning with Mars; and increase the use of robotic 
exploration to maximize our understanding of the solar system and pave 
the way for more ambitious human missions. Congressional support for a 
new direction in the Nation's human space flight program was clearly 
articulated in the 2005 NASA Authorization Act. Specifically, the Act 
directed the NASA Administrator ``to establish a program to develop a 
sustained human presence on the Moon, including a robust precursor 
program, to promote exploration, science, commerce, and United States 
preeminence in space, and as a stepping-stone to future exploration of 
Mars and other destinations. The Administrator was further authorized 
to develop and conduct appropriate international collaborations in 
pursuit of these goals.''
    With regards to milestones, the Act directed the Administrator to 
manage human space flight programs to strive to achieve the following 
milestones:

        <bullet>  ``Returning Americans to the Moon no later than 2020.

        <bullet>  Launching the Crew Exploration Vehicle as close to 
        2010 as possible.

        <bullet>  Increasing knowledge of the impacts of long duration 
        stays in space on the human body using the most appropriate 
        facilities available, including the ISS.

        <bullet>  Enabling humans to land on and return from Mars and 
        other destinations on a timetable that is technically and 
        fiscally possible.''

    In September 2005, NASA released the results of the Agency's 
exploration architecture study--ESAS--a framework for implementing the 
VSE and a blueprint for the next generation of spacecraft to take 
humans back to the Moon and on to Mars and other destinations. 
According to GAO, NASA plans to spend nearly $230 billion over the next 
two decades implementing the VSE plans. Because of the funding needs of 
other NASA priorities, the agency has proceeded on a ``pay as you go'' 
scenario in implementing the VSE. This situation has been further 
exacerbated by Presidentially-requested agency budgets that have been 
less than those authorized by the Congress and less than those assumed 
in the multi-year plan following release of the VSE. However, 
inadequate funding is not NASA's only challenge in implementing the 
VSE.
    NASA's plans to retire the Shuttle and complete the ISS by 2010 
make the task of developing new systems more difficult. The resumption 
of Space Shuttle flights after the tragic loss of Shuttle Columbia has 
enabled significant progress in the assembly of the ISS. However, the 
pace of ISS assembly activities is also a reminder that such Shuttle 
flights will cease in 2010 at which time the U.S. will need to rely on 
partners such as Russia to provide routine transportation and emergency 
crew return from the ISS until the new Orion Crew Exploration Vehicle 
(CEV) achieves operational status. The period of time during which the 
U.S. has no crew transportation capability is referred to as ``the 
gap.'' The European ATV supply vehicle recently flown to the ISS marks 
a significant new capability. Bringing propellant and supplies to the 
ISS, it is scheduled to dock on the date of this hearing. In addition, 
while NASA is encouraging the development of a commercial crew and 
cargo capability, the availability of such a capability is uncertain at 
this time. Thus, in addition to enabling future human lunar missions, 
the CEV has taken on a broader significance as the means of ensuring 
access by U.S. astronauts to low-Earth orbit once the Shuttle is 
retired.

Fiscal Year 2009 Budget Request

    The President's proposal for NASA's FY09 budget provides $3.50 
billion for the Exploration Systems Mission Directorate (ESMD). From a 
direct cost perspective,\1\ the proposed FY09 budget for ESMD is an 
increase of $357.4 million from that appropriated in FY08. The ESMD 
budget funds the following:
---------------------------------------------------------------------------
    \1\ As part of the budget restructuring undertaken in the FY09 
budget request, NASA shifted from a full-cost budget, in which each 
project budget included overhead costs, to a direct cost budget. All 
overhead budget estimates are now consolidated into the Cross Agency 
Support budget line. NASA has stated that maintaining a full cost 
budget with seven appropriations accounts would be overly complex and 
inefficient. The direct cost budget shows program budget estimates that 
are based entirely on program content. Individual project managers 
continue to operate in a full-cost environment, including management of 
overhead costs.

        <bullet>  Constellation Systems. This includes the development, 
        demonstration, and deployment of the Orion Crew Exploration 
        Vehicle (CEV) and the Ares I Crew Launch Vehicle (CLV) as well 
        as associated ground and in-orbit infrastructure. The proposed 
        direct funding for the Constellation Systems Program for FY09 
        is $2,875.1 million--an increase from the $2,341.4 million 
---------------------------------------------------------------------------
        enacted in FY08.

        <bullet>  Commercial Crew and Cargo. The proposed funding for 
        Commercial Crew and Cargo for FY09 is $173 million--an increase 
        of $42.5 million from that enacted in FY08. ESMD plans to 
        complete its demonstration of Commercial Orbital Transportation 
        Services (COTS) in FY10. The commercial procurement of low-
        Earth orbit transportation services (e.g., to the ISS) will be 
        executed by the Space Operations Mission Directorate.

        <bullet>  Advanced Capabilities. The proposed funding for 
        Advanced Capabilities for FY09 is $452.3 million, a decrease of 
        $218.8 million from the $671.1 million enacted in FY08. 
        Activities in Advanced capabilities include:

        <bullet>  Human research to support ISS and future exploration 
        by investigating and mitigating risks to astronaut health and 
        developing human space flight medical and human factors 
        standards;

        <bullet>  Exploration Technology Development to support Orion 
        and other exploration programs. Requested funding in FY09 for 
        Exploration Technology Development has been reduced. Despite 
        the critical role technology development plays in reducing the 
        risks of future space travel, funding for technology 
        development is $81.9 million less from that appropriated in 
        FY08. Exploration Technology Development Program investments 
        reduce the risk of infusing new technologies into flight 
        projects by maturing them to the level of demonstration in a 
        relevant environment; and

        <bullet>  A lunar precursor robotic program to provide 
        knowledge of lunar environment and reduce the risk of crewed 
        lunar landing.

Assumed Budget Growth for NASA Exploration FY 2009-FY 2013

    The President's budget request for NASA's Exploration Systems 
Mission Directorate is assumed to grow significantly after the Space 
Shuttle is retired in late 2010. In addition to completing development 
and testing of Orion and Ares I, design work will begin in earnest on 
the Ares V heavy lift launcher and Altair lunar lander that will be 
used to return U.S. astronauts to the Moon by the end of the decade, 
according to NASA's plans.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Exploration Systems Architecture Study

    Shortly after Dr. Griffin was named the new NASA Administrator in 
April 2005, he set out to restructure the Exploration Program by making 
its priority to accelerate the development of the CEV to reduce or 
eliminate the planned gap in U.S. human access to space. Specifically, 
he established a goal for the CEV to begin operation in 2011\2\ and to 
be capable of ferrying crew and cargo to and from the ISS; prior to his 
restructure, there were no plans for the CEV to service the ISS. He 
also decided to focus on existing technology and proven approaches for 
exploration systems development. In order to reduce the number of 
required launches and ease the transition after Space Shuttle 
retirement in 2010, the Administrator directed the Agency to examine 
the cost and benefits of developing a Shuttle-derived Heavy-Lift Launch 
Vehicle to be used in lunar and Mars exploration. As a result, the 
Exploration Systems Architecture Study (ESAS) team was established to 
determine the best exploration architecture and strategy to implement 
these changes.
---------------------------------------------------------------------------
    \2\ National Aeronautics and Space Administration (NASA), 2005, 
NASA's Exploration Systems Architecture Study, NASA-TM-2005-214062: 1-
28
---------------------------------------------------------------------------
    In November 2005, NASA released the results of the ESAS, an initial 
framework for implementing the VSE and a blueprint for the next 
generation of spacecraft to take humans back to the Moon and on to Mars 
and other destinations. ESAS made specific design recommendations for a 
vehicle to carry crews into space, a family of launch vehicles to take 
crews to the Moon and beyond, and a lunar mission ``architecture'' for 
human lunar exploration.
    ESAS presented a time-phased, evolutionary architectural approach 
to returning humans to the Moon, servicing the ISS after Space Shuttle 
retirement, and eventually transporting humans to Mars. Under the 2005 
ESAS plan, a Crew Exploration Vehicle (now called Orion) and Crew 
Launch Vehicle (now called Ares I) development activities would begin 
immediately, leading to the goal of a first crewed flight to the ISS in 
2011. Options for transporting cargo to and from the ISS would be 
pursued in cooperation with industry, with a goal of purchasing 
transportation services commercially. Lunar robotic precursor missions 
would begin immediately with the development and launch of the Lunar 
Reconnaissance Orbiter (LRO) mission and continue with a series of 
landing and orbiting probes to prepare for extended human lunar 
exploration. In 2011, the development of the major elements required to 
return humans to the Moon would begin--the lunar lander (now called 
Altair), heavy lift cargo launcher (now called Ares V), and an Earth 
Departure Stage vehicle. These elements would be developed and tested 
in an integrated fashion, leading to a human lunar landing in 2018. 
Starting in 2018, a series of short-duration lunar sortie missions 
would be accomplished, leading up to the deployment of a lunar outpost. 
The lunar surface systems (e.g., rovers, habitats, power systems) would 
be developed as required. Lunar missions would demonstrate the systems 
and technologies needed for eventual human missions to Mars.
    This past February, the VSE was re-examined at a workshop co-
sponsored by the Planetary Society and the Department of Aeronautics 
and Astronautics at Stanford University. The workshop brought together 
a group of space exploration experts, including scientists, former NASA 
officials, and some aerospace industry executives. While participants 
had differing views on the objectives of exploration, they concluded 
that:

        <bullet>  ``It is time to go beyond LEO with people as 
        explorers. The purpose of sustained human exploration is to go 
        to Mars and beyond. The significance of the Moon and other 
        intermediate destinations is to serve as stepping stones on the 
        path to that goal.

        <bullet>  Bringing together scientists, astronauts, engineers, 
        policy analysts, and industry executives in a single 
        conversation created an environment where insights across 
        traditional boundaries occurred.

        <bullet>  Human space exploration is undertaken to serve 
        national and international interests. It provides important 
        opportunities to advance science, but science is not the 
        primary motivation.

        <bullet>  Sustained human exploration requires enhanced 
        international collaboration and offers the United States an 
        opportunity for global leadership.

        <bullet>  NASA has not received the budget increases to support 
        the mandated human exploration program as well as other vital 
        parts of the NASA portfolio, including space science, 
        aeronautics, technology requirements, and especially Earth 
        observations, given the urgency of global climate change.''

Revisiting the Constellation Architecture

    Subsequent to the issuance of ESAS, proposals have been made in 
support of alternative launch vehicle designs to those chosen by NASA. 
These have included proposals for a ``Direct Derivative'' of the 
existing Shuttle Transportation System and modified versions of the 
Evolved Expendable Launch Vehicle (EELV).
    The Direct Derivative launch vehicle, publicized at the American 
Institute of Aeronautics and Astronautics' Space 2007 Conference and 
Exposition in September 2007, would make use of proven designs such as 
the main engines from the Delta-IV EELV and the solid rocket boosters 
used to launch the Shuttle. The proposed Direct Derivative would 
require two launches of the same launch vehicle; NASA's current 
architecture would require two launches using two different launch 
vehicles. In addressing the Space Transportation Association (STA) in 
January 2008, the NASA Administrator reviewed the architecture defined 
by ESAS and the reasons behind the choices made. After summarizing the 
requirements set forth by the President's Vision for Space Exploration 
and subsequent NASA Authorization Act of 2005, the Administrator stated 
that the requirement for a four-person sortie capability would require 
a vehicle with a trans-lunar injection (TLI) mass greater than that of 
the Saturn V and necessitate significant modifications to fabrication 
and launch infrastructure. The Administrator said that the projected 
NASA budget would not allow the development of extensive new ground 
infrastructure and after a detailed consideration of the single-launch 
option, the agency settled on a dual-launch Earth-orbit rendezvous 
(EOR) scheme. He then discussed several of the reasons that the ESAS 
team had for rejecting the Direct approach. The Administrator 
acknowledged that non-recurring costs would be lower because only one 
launch vehicle development is required. However, he said that the 
architectural approach of launching two identical vehicles carries 
significant liabilities when the broader requirements of NASA's policy 
framework are considered. In particular, he stated that a dual-launch 
EOR of identical vehicles is ``vastly over-designed for ISS 
logistics,'' leading NASA to conclude that ``dual-launch EOR with 
vehicles of similar payload class does not meet the requirement to 
support the ISS in any sort of cost-effective manner.''
    At that same speech, the Administrator acknowledged that the 
adoption of the Shuttle-derived approach of the Ares I CLV had been one 
of the more controversial decisions related to the exploration 
architecture. Among the reasons for NASA's developing the Ares I CLV 
instead of modifying existing EELVs, he identified insufficient lift 
capacity in existing EELVs, the absence of a growth path to heavy lift 
capability, and higher crew risk. In summary, he said that NASA's 
analysis showed ``EELV-derived solutions meeting the agency's 
performance requirements to be less safe, less reliable, and more 
costly than the Shuttle-derived Ares I and Ares V.''
    Administrator Griffin's STA speech is included as an attachment to 
this hearing charter.

Status of Key Exploration Systems Initiatives and the ``Gap''

    Under the aegis of its Constellation Systems Program, NASA has 
initiated development of new space transportation capabilities 
including the Orion CEV, the Ares I CLV, spacesuits and tools required 
by the flight crews, and associated ground and mission operations 
infrastructure to support initial low-Earth orbit missions. Orion and 
Ares I are currently targeted to begin operational missions by March 
2015.
    The President's Vision statement directed NASA to have the CEV 
operational no later than 2014. Initially, since no plans were made for 
the CEV to service the ISS, international partner assets would be 
required to ferry U.S. crew and cargo to the ISS after 2010--creating a 
significant gap in domestic space access for U.S. astronauts. In its FY 
2006 budget request, NASA said that its budget plan would deliver an 
operational CEV in 2014. The NASA Authorization Act of 2005 directed 
the NASA Administrator to ``manage human space flight programs to 
strive to achieve . . . launching the Crew Exploration Vehicle as close 
to 2010 as possible'' subject to the proviso that the Administrator 
shall ``construct an architecture and implementation plan for NASA's 
human exploration program that is not critically dependent on the 
achievement of milestones by fixed dates.'' Upon being named 
Administrator, Dr. Griffin restructured the Exploration Program by 
establishing a goal for the CEV to begin operation in 2011 by servicing 
the ISS. However, the FY 2007 budget request established a CEV initial 
operating date of no later than 2014. NASA subsequently concluded that 
``As a result of this analysis over the past two months, the FY 2008 
budget request does not support a 2014 initial operational capability, 
but March 2015, even before the FY07 CR impact . . .'' At last year's 
FY 2008 budget hearing before the Committee, the NASA Administrator 
said that while the reduction in funding caused by the 2007 Continuing 
Resolution extended the operational date to September of 2015, NASA 
terminated some lower priority activities to buy back some schedule for 
the CEV. This returned NASA to the March of 2015 date, four years later 
than the goal established in ESAS, thus leaving a ``gap'' of almost 
five years in U.S. space flight capability due to the retirement of the 
shuttle in 2010. The confidence level set by NASA of achieving the 
March 2015 date is 65 percent.
    The FY09 budget request funds activity levels that maintain NASA's 
commitment to reach initial operating capability (IOC) for both Orion 
and Ares I by March 2015, although NASA acknowledges that it is 
striving to bring the new system on line sooner. Nevertheless, the FY09 
budget request does not accelerate the initial operating capability 
date. This issue was brought up recently at the NASA FY09 budget 
hearing held before the Committee on February 13, 2008. At that time, 
Mr. Lampson asked whether a request had been made to OMB for additional 
funds to narrow the gap and if so, what happened. The NASA 
Administrator responded that ``we have many priorities, many funding 
priorities in the Nation, all of which clamor for first attention. And 
the funding, the priority of closing the gap between Shuttle retirement 
and deployment of new systems did not make it to the top.'' NASA had 
previously indicated that accelerating the IOC date to 2013 would 
require an additional $1 billion per year in the years FY09 and FY10.
    However, even meeting the target March 2015 date will require 
timely resolution of design issues that have surfaced, particularly in 
the Ares I program. An October 2007 GAO report on Ares I found that 
``requirements instability,'' ``technology and hardware development 
knowledge gaps,'' an ``aggressive schedule,'' and ``projected funding 
shortfalls'' represent significant challenges for the program. And 
recently, NASA has found that it needs to study the possibility of 
vibration in the Ares I launch vehicle. Depending on what changes might 
need to be made to mitigate this potential ``thrust oscillation'' 
issue, additional costs to both the Ares I launcher and Orion 
spacecraft may be needed to address this problem. According to NASA, 
the first test flight of the Ares launcher dubbed Ares I-Y is scheduled 
for the third quarter of FY09. At that time, a four-segment version of 
the final Ares I five-segmented launch vehicle will be tested while 
transporting a simulated payload.
    Although NASA states that threats to the Orion and Ares I projects 
are being addressed through a rigorous risk management process, an area 
of concern is the level of reserves in the Constellation program that 
are available through FY10 due to its potential impact on NASA's 
ability to maintain its scheduled March 2015 operational date. These 
reserve levels are characterized by NASA as minimal--less than eight 
percent. In discussions with NASA, officials indicated that the $2 
billion needed to accelerate the initial operational date would be 
primarily used to bolster reserves and thus allow the agency to address 
disruptive schedule problems as they occurred.
    Major contractors supporting NASA in the development of 
Constellation systems currently include:

        <bullet>  Lockheed Martin for Orion (Current total contract 
        value for Schedules A, B, and C: $8.55 billion)

        <bullet>  Pratt & Whitney Rocketdyne for Ares I upper stage 
        engine (Current contract value: $1.2 billion)

        <bullet>  ATK Thiokol for Ares I first stage (Current contract 
        value: $1.8 billion)

        <bullet>  Boeing for Ares I upper stage production (Current 
        contract value: $514.7 million)

        <bullet>  Boeing for Ares I upper stage avionics production 
        ($799.5 million)

Initial Lunar Exploration

    The Lunar Precursor Robotic Program is currently the most visible 
evidence of NASA's lunar exploration activities. The proposed funding 
for the Lunar Precursor Robotic Program (LPRP) for FY09 is $56.3 
million, a significant decrease from the $198.2 million enacted in 
FY08. The bulk of LPRP funding occurred in FY07 ($247.3 million). This 
program includes the Lunar Reconnaissance Orbiter (LRO), which will 
take high-resolution images of the Moon, map resources, and assess the 
lunar environment for future exploration, and the Lunar Crater 
Observation and Sensing Satellite (LCROSS), which will help confirm the 
presence or absence of water ice in a permanently shadowed crater at 
the Moon's South Pole. This is significant since such water, if 
discovered in sufficient quantities, potentially could be converted to 
rocket fuel and breathable oxygen facilitating the operation of a lunar 
base for astronauts. The combined LRO/LCROSS mission is scheduled to 
launch in late 2008 on an Atlas V. The spacecraft will be placed in low 
polar orbit for a one year mission managed by NASA's Exploration 
Systems Mission Directorate. Although the objectives of LRO are 
exploratory in nature, the payload includes instruments with heritage 
from previous planetary science missions, enabling transition, after 
one year, to a scientific phase under NASA's Science Mission 
Directorate.
    Planning for future sustained lunar exploration is also well 
underway. NASA's Lunar Architecture envisions the construction of an 
outpost initially at a polar site on the Moon. Infrastructure needs 
such as power generation, habitation, mobility, navigation and 
communications, and complementary robotic missions are being defined.

Future Human Exploration of the Moon

    The Exploration Systems Architecture provides the capability for up 
to four crew members to explore any site on the Moon for up to seven 
days. These missions, referred to as lunar sorties, are analogous to 
the Apollo surface missions and will demonstrate the capability to land 
humans on the Moon, have them operate for a limited period on the lunar 
surface, and safely return them to Earth.
    Scheduled for 2020, the elements needed to perform the mission 
include Ares I, Orion (possibly a modification of the version used to 
access the ISS), the Ares V Cargo Launch Vehicle, the Altair lunar 
lander, and an Earth Departure Stage vehicle. The lunar lander and 
Earth Departure Stage vehicle will be pre-deployed in low-Earth orbit 
using the Ares V vehicle. Ares I will deliver Orion and its crew to 
low-Earth orbit, where the two vehicles will rendezvous and dock. Upon 
reaching the Moon, the entire crew will then transfer to Altair, undock 
from Orion, and perform a descent to the lunar surface. After up to 
seven days on the lunar surface, the Altair ascent stage will return 
the crew to lunar orbit where they will dock with Orion. After 
transferring back to Orion, the crew will then return to Earth.
    NASA's Lunar Architecture envisions extended missions in the 
future. The agency recently updated its architecture. Human lunar 
missions will be used to build an outpost initially at a polar site. 
This will require the establishment of power generation, habitation, 
means for mobility such as rovers, and navigation and communication. 
NASA's intent is to develop the infrastructure while actively being 
engaged in science and exploration. Efforts are underway by NASA to 
take a leadership role in establishing an ``open architecture'' for 
lunar exploration, which it envisions as conducive to international 
cooperation.

International Collaboration in Space Exploration

    The U.S. and several other nations have sent or are planning to 
send robotic missions to the Moon. This has elevated the need for a 
globally coordinated strategy for exploration. In May 2007, 14 space 
agencies released the results of 12 months of discussion--The Framework 
for Coordination--as part of an overall Global Exploration Strategy. 
The Framework is a vision for robotic and human space exploration, 
focusing on destinations within the solar system where humans may one 
day live and work. The Framework does not propose a single global 
exploration program. Instead, it recommends a mechanism through which 
nations can collaborate to strengthen both individual projects and 
collective efforts. The Framework includes an action plan for 
coordinating strategies to help space-faring nations reach their 
exploration goals more effectively and safely. In addition, the 
Framework recognizes that a partnership between humans and robots is 
essential to the success of space exploration. The strength in robotic 
spacecraft lies in their ability to be scouts and venture into hostile 
environments. Humans, on the other hand, bring flexibility, experience, 
and problem-solving skills. In addition, NASA and the European Space 
Agency initiated an architecture assessment in January 2008 to outline 
potential collaborative scenarios using their respective human and 
robotic exploration capabilities. The goal is to identify by May 2008 
potential future collaborative scenarios utilizing respective human/
robotic exploration capabilities.

Attachment 1

                     The Constellation Architecture

                           Michael D. Griffin
                             Administrator
             National Aeronautics and Space Administration
                             Remarks to the
                    Space Transportation Association
                            22 January 2008
    As those who have attended any speech I've given know, I don't read 
well in public. Everyone seems to enjoy the interactive sessions that 
typically follow somewhat more. However, I wanted my thoughts on this 
topic to be available on the written record, so if my remarks this 
morning come across as an engineering lecture, then I have succeeded. I 
hope you all had a strong cup of coffee. Today's topic is motivated by 
the inquiries I've had lately, in one forum or another, concerning 
various aspects of NASA's post-Shuttle space flight architecture. None 
of the questions is new, and all of them were elucidated during our 
Exploration Systems Architecture Study (ESAS). The architecture is 
essentially as it was coming out of ESAS back in September 2005, and 
the architectural trades we made then when considering mission 
requirements, operations concepts, performance, risk, reliability, and 
cost hold true today. But more than two years have gone by, and the 
logic behind the choices we made has receded into the background. 
People come and go, new questioners lacking subject matter background 
appear, and the old questions must be answered again if there is to be 
general accord that NASA managers are allocating public funds in a 
responsible fashion. And so it seemed to me that the time was right to 
review, again, why we are developing the post-Shuttle space 
architecture in the way that we are.
    As many of you know, I used to teach space system engineering at 
George Washington University and the University of Maryland, and am 
more comfortable discussing engineering design than just about any 
other topic. But as NASA Administrator, I must first frame the 
Constellation architecture and design in the context of policy and law 
that dictate NASA's missions.
    Any system architecture must be evaluated first against the tasks 
which it is supposed to accomplish. Only afterwards can we consider 
whether it accomplishes them efficiently, or presents other advantages 
which distinguish it from competing choices. So to start, we need to 
review the requirements expressed in Presidential policy and, 
subsequently, Congressional direction, that were conveyed to NASA in 
2004 and 2005.
    The principal documents pertinent to our architecture are President 
Bush's January 14th, 2004 speech outlining the Vision for Space 
Exploration, and the NASA Authorization Act of 2005. Both documents are 
a direct result of the policy debate that followed in the wake of the 
Columbia tragedy five years ago, and the observation of the Columbia 
Accident Investigation Board (CAIB), ``The U.S. civilian space effort 
has moved forward for more than thirty years without a guiding 
vision.'' Several items of specific direction are captured in the 
President's speech: ``Our first goal is to complete the International 
Space Station by 2010. We will finish what we have started, we will 
meet our obligations to our 15 international partners on this 
project.'' ``Research on board the station and here on Earth will help 
us better understand and overcome the obstacles that limit exploration. 
Through these efforts we will develop the skills and techniques 
necessary to sustain further space exploration.'' ``Our second goal is 
to develop and test a new spacecraft, the Crew Exploration Vehicle, . . 
. and to conduct the first manned mission no later than 2014. The Crew 
Exploration Vehicle will be capable of ferrying astronauts and 
scientists to the Space Station after the shuttle is retired. But the 
main purpose of this spacecraft will be to carry astronauts beyond our 
orbit to other worlds.'' ``Our third goal is to return to the Moon by 
2020 . . .'' ``With the experience and knowledge gained on the Moon, we 
will then be ready to take the next steps of space exploration: human 
missions to Mars and to worlds beyond.'' After extensive debate, the 
Congress offered strong bipartisan approval of these goals, while 
adding considerable specificity. From the 2005 Authorization Act for 
NASA, ``The Administrator shall establish a program to develop a 
sustained human presence on the Moon, including a robust precursor 
program, to promote exploration, science, commerce, and United States 
preeminence in space, and as a stepping-stone to future exploration of 
Mars and other destinations.'' ``The Administrator shall manage human 
space flight programs to strive to achieve the following milestones, 
(A) Returning Americans to the Moon no later than 2020. (B) Launching 
the Crew Exploration Vehicle as close to 2010 as possible. (C) 
Increasing knowledge of the impacts of long duration stays in space on 
the human body using the most appropriate facilities available, 
including the ISS. (D) Enabling humans to land on and return from Mars 
and other destinations on a timetable that is technically and fiscally 
possible.'' The bill establishes specific requirements for the 
International Space Station, noting that it must ``have an ability to 
support a crew size of at least six persons,'' codifying a long-
promised design feature in law. It also details statutory requirements 
for Shuttle transition, including maximizing the use of Shuttle assets 
and infrastructure:

         ``The Administrator shall, to the fullest extent possible 
        consistent with a successful development program, use the 
        personnel, capabilities, assets, and infrastructure of the 
        Space Shuttle program in developing the Crew Exploration 
        Vehicle, Crew Launch Vehicle, and a heavy-lift launch 
        vehicle.''

    Collectively, these requirements outline the broad policy framework 
for the post-Shuttle U.S. human space flight architecture: We will 
manage the U.S. space program so as to complete the International Space 
Station by 2010, utilizing the Space Shuttle for that purpose, after 
which it will be retired. After completion, the ISS will be used to 
``better understand and overcome the obstacles that limit 
exploration.'' The Shuttle will be replaced as soon as possible, but 
not later than 2014, by a Crew Exploration Vehicle designed to take 
humans to the Moon and beyond, but which must also be capable of 
servicing the ISS and its crew of six. The architecture must support 
human lunar return not later than 2020 and, after that, development of 
a sustained human lunar presence, both for its intrinsic benefits and 
as a ``stepping stone'' to Mars and beyond. Finally, the new 
architecture must take advantage of existing Space Shuttle program 
assets ``to the fullest extent possible.'' Not that anyone asked, but I 
consider this to be the best civil space policy to be enunciated by a 
president, and the best Authorization Act to be approved by the 
Congress, since the 1960s. But no policy is perfect, and none will 
please everyone. In particular, many in the exploration community, as 
well as many of those who pursue space science, were disappointed by 
the reaffirmation of our nation's commitment to the ISS.
    But a plain reading of policy and law requires us to understand 
that, throughout four presidential administrations and twenty-plus 
Congressional votes authorizing tens of billions of dollars for its 
development, the ISS has remained an established feature of U.S. space 
policy. Its support and sustenance cannot be left to chance; the CEV 
must and will be capable of fulfilling this requirement, and the 
exploration architecture must and will take that into account. This is 
nothing more than common sense. The U.S. government will not abandon 
its commitment to the development and utilization of low-Earth orbit 
(LEO). There continue to be many questions about NASA's long-term 
commitment to ISS, so let me clarify. The Bush Administration has made 
no decision on the end date for ISS operations. We are, of course, 
concerned that Station operating costs after 2016 will detract from our 
next major milestone, returning to the Moon by 2020. But while the 
budget does not presently allocate funds for operating ISS beyond 2016, 
we are taking no action to preclude it. Decisions regarding U.S. 
participation in ISS operations after 2016 can only be made by a future 
Administration and a future Congress. I am sure these will be based on 
discussions with our international partners, progress toward our 
Exploration goals, utility of this national laboratory, and the 
affordability of projected ISS operations. Again, we plan to keep our 
commitments to our partners, utilizing ISS if it makes sense. Now, 
returning to our space architecture, note the order of primacy in 
requirements. We are not primarily building a system to replace the 
Shuttle for access to LEO, and upgrading it later for lunar return. 
Instead, we are directed to build a system to ``carry astronauts beyond 
our orbit to other worlds,'' but which can be put to the service of the 
ISS if needed. In brief, we are designing for the Moon and beyond. That 
too is only common sense. Once before, an earlier generation of U.S. 
policy-makers approved a space flight architecture intended to optimize 
access to LEO. It was expected--or maybe ``hoped'' is the better word--
that, with this capability in hand, the tools to resume deep space 
exploration would follow. It didn't happen, and with the funding which 
has been allocated to the U.S. civil space program since the late 
1960s, it cannot happen. Even though from an engineering perspective it 
would be highly desirable to have transportation systems separately 
optimized for LEO and deep space, NASA's budget will not support it. We 
get one system; it must be capable of serving in multiple roles, and it 
must be designed for the more difficult of those roles from the outset. 
There are other common-sense requirements which have not been written 
down. The most obvious of these, to me, is that the new system will and 
should be in use for many decades. Aerospace systems are expensive and 
difficult to develop; when such developments are judged successful, 
they tend to remain in use far longer than one might at first imagine. 
Those who doubt this should look around. The DC-3 and the B-52, to name 
only two landmark aircraft, remain in service today. The Boeing 747 has 
been around for thirty years, and who doubts that it will be going 
strong for another thirty? In space, derivatives of Atlas and Delta and 
Soyuz are flying a half-century and more after their initial 
development. Ariane and its derivatives have been around for three 
decades, with no end in sight. Even the Space Shuttle will have been in 
service for thirty years by the time it retires. Apart from Saturn/
Apollo, I am hard put to think of a successful aerospace system which 
was retired with less than several decades of use, and often more. The 
implications of this are profound. We are designing today the systems 
that our grandchildren will use as building blocks, not just for lunar 
return, but for missions to Mars, to the near-Earth asteroids, to 
service great observatories at SunEarth L1, and for other purposes we 
have not yet even considered. We need a system with inherent capability 
for growth. Elsewhere, I have written that a careful analysis of what 
we can do at NASA on constant-dollar budgets leads me to believe that 
we can realistically be on Mars by the mid-2030's. It is not credible 
to believe that we will return to the Moon and then start with a 
``clean sheet of paper'' to design a system for Mars. That's just not 
fiscally, technically or politically realistic. We'll be on Mars in 
thirty years, and when we go, we'll be using hardware that we're 
building today. So we need to keep Mars in mind as we work, even now. 
And that means we need to look at both ends of the requirements 
spectrum. Our new system needs to be designed for the Moon, but allow 
U.S. government access to LEO. Yet, in designing for the Moon, we need 
also to provide the maximum possible ``leave behind'' for Mars. If we 
don't, then a generation from now there will be a group in this room, 
listening to the Administrator of that time ask, about those of us here 
today, ``what were they thinking?'' Now, in mentioning ``Mars'' I must 
state for the record that I do realize that the $550 billion 
Consolidated Appropriations Act signed into law last month stipulated 
that no funds appropriated in 2008 ``shall be used for any research, 
development, or demonstration activities related exclusively to the 
human exploration of Mars.'' While I personally consider this to be 
shortsighted, and while NASA was in any case spending only a few 
million dollars on long-term research and study efforts, we will of 
course follow this legislative direction. And while this provision does 
not affect work on Ares V, it does call into question the fundamental 
rationale for our use of Space Station in long-duration human space 
flight research. I hope that this funding restriction can be abandoned 
in future years. Further application of common sense also requires us 
to acknowledge that now is the time, this is the juncture, and we are 
the people to make provisions for the contributions of the commercial 
space sector to our nation's overall space enterprise. The development 
and exploitation of space has, so far, been accomplished in a fashion 
that can be described as ``all government, all the time.'' That's not 
the way the American frontier was developed, it's not the way this 
nation developed aviation, it's not the way the rest of our economy 
works, and it ought not to be good enough for space, either. So, pro-
actively and as a matter of deliberate policy, we need to make 
provisions for the first step on the stairway to space to be occupied 
by commercial entrepreneurs--whether they reside in big companies or 
small ones. The policy decision that the CEV will be designed for the 
Moon, while not precluding its ability to provide access to LEO, 
strongly reinforces this common sense objective. If designed for the 
Moon, the use of the CEV in LEO will inevitably be more expensive than 
a system designed for the much easier requirement of LEO access and no 
more. This lesser requirement is one that, in my judgment, can be met 
today by a bold commercial developer, operating without the close 
oversight of the U.S. Government, with the goal of offering 
transportation for cargo and crew to LEO on a fee-for-service basis. 
This is a policy goal--enabling the development of commercial space 
transportation to LEO--that can be met if we in government are willing 
to create a protected niche for it. To provide that niche, we must set 
the requirements for the next-generation government space flight system 
at the lunar-transportation level, well above the LEO threshold. Now 
again, common sense dictates that we cannot hold the ISS hostage to 
fortune; we cannot gamble the fate of a multi-tens-of-billions-of-
dollar facility on the success of a commercial operation, so the CEV 
must be able to operate efficiently in LEO if necessary. But we can 
create a clear financial incentive for commercial success, based on the 
financial disincentive of using government transportation to LEO at 
what will be an inherently higher price. To this end, as I have noted 
many times, we must be willing to defer the use of government systems 
in favor of commercial services, as and when they reach maturity. When 
commercial capability comes on line, we will reduce the level of our 
own LEO operations with Ares/Orion to that which is minimally necessary 
to preserve capability, and to qualify the system for lunar flight. So 
how is all of this--law, policy, and common sense--realized in the 
architecture that came out of ESAS? As I have outlined above, policy 
and legislation are in some ways quite specific about the requirements 
for post-Shuttle U.S. space flight systems. They are less so where it 
concerns our lunar goals, beyond the clearly stated requirement to 
develop the capability to support a sustained human lunar presence, 
both for its intrinsic value and as a step toward Mars. This leaves 
considerably more discretion to NASA as the executive agency to set 
requirements, and with that considerably more responsibility to get it 
right. Again, I think common sense comes to our rescue. There is 
general agreement that our next steps to the Moon, toward a goal of 
sustained lunar presence, must offer something more than Apollo-class 
capability; e.g., sorties by two people for three days to the 
equatorial region. To return after fifty years with nothing more than 
the capability we once threw away, seems to me to fail whatever test of 
common sense might be applied to ourselves and our successors. 
Accordingly, then, in developing requirements for ESAS we specified 
that the lunar architecture should be capable of the following:

        -  Initial lunar sortie missions should be capable of 
        sustaining a crew of four on the lunar surface for a week.

        -  The architecture will allow missions to any location on the 
        Moon at any time, and will permit return to Earth at any time.

        -  The architecture will be designed to support the early 
        development of an ``outpost'' capability at a location yet to 
        be specified, with crew rotations planned for six-month 
        intervals.

    One could fill pages debating and justifying these requirements; 
mercifully, I will not do that. Perhaps another time. In any case, I 
think it is clear that these goals offer capability significantly 
beyond Apollo, yet can be achieved with the building blocks--ground 
facilities as well as space transportation elements--that we have or 
can reasonably envision, given the budgetary resources we might expect. 
It is worth noting that the decision to focus on early development of 
an outpost--while retaining the capability to conduct a dedicated 
sortie mission to any point on the lunar surface that might prove to be 
of interest for scientific or other reasons--supports additional key 
goals. The most obvious of these is that it provides a more direct 
``stepping stone'' to Mars, where even on the very first mission we 
will need to live for an extended period on another planetary surface. 
But further, even a basic human-tended outpost requires a variety of 
infrastructure that is neither necessary nor possible to include in a 
sortie mission. Such infrastructure development presents obvious 
possibilities for commercial and international partner involvement, 
both of which constitute important policy objectives. But if the 
capability we are striving for is greater than that of Apollo, so too 
is the difficulty. To achieve the basic four-person lunar sortie 
capability anytime, anywhere, requires a trans-lunar injection (TLI) 
mass of 70-75 metric tons (mT), including appropriate reserve. Saturn V 
TLI capability on Apollo 17 was 47 mT without the launch adaptor used 
to protect the lunar module. Thus, more than Saturn V capability is 
required if we are to go beyond Apollo. I think we should not be 
surprised to find that the Apollo engineers got just about as much out 
of a single launch of the Saturn V as it was possible to do. If we need 
more capability to TLI than can be provided by a single launch of a 
Saturn-class vehicle, we can reduce our objectives, build a bigger 
rocket, or attain the desired capability by launching more than one 
rocket. Setting a lesser objective seems inconsistent with our goal of 
developing the capability for a sustained lunar presence, and, as noted 
earlier, merely replicating Apollo-era capability is politically 
untenable. Building a larger rocket is certainly an attractive option, 
at least to me, but to reach the capability needed for a single launch 
brings with it the need for significant modifications to fabrication 
and launch infrastructure. The Michoud Assembly Facility and the 
Vertical Assembly Building were designed for the Saturn V, and have 
some growth margin above that. But they will not accommodate a vehicle 
that can support our goals for lunar return with a single launch, and 
the projected NASA budget does not allow the development of extensive 
new ground infrastructure. Further, and crucially, a single-launch 
architecture fails to address the requirement for ISS logistics 
support. Thus, after detailed consideration of the single-launch 
option, we settled on a dual-launch Earth-orbit rendezvous (EOR) scheme 
as the means by which a TLI payload of the necessary size would be 
assembled. However, the decision to employ EOR in the lunar 
transportation architecture implies nothing about how the payload 
should be split. Indeed, the most obvious split involves launching two 
identical vehicles with approximately equal payloads, mating them in 
orbit, and proceeding to the Moon. When EOR was considered for Apollo, 
it was this method that was to be employed, and it offers several 
advantages. Non-recurring costs are lower because only one launch 
vehicle development is required, recurring costs are amortized over a 
larger number of flights of a single vehicle, and the knowledge of 
system reliability is enhanced by the more rapid accumulation of flight 
experience. However, this architectural approach carries significant 
liabilities when we consider the broader requirements of the policy 
framework discussed earlier. As with the single-launch architecture, 
dual-launch EOR of identical vehicles is vastly over-designed for ISS 
logistics. It is one thing to design a lunar transportation system and, 
if necessary, use it to service ISS while accepting some reduction in 
cost-effectiveness relative to a system optimized for LEO access. As 
noted earlier, such a plan backstops the requirement to sustain ISS 
without offering government competition in what we hope will prove to 
be a commercial market niche. But it is quite another thing to render 
government logistics support to ISS so expensive that the Station is 
immediately judged to be not worth the cost of its support. Dual-launch 
EOR with vehicles of similar payload class does not meet the 
requirement to support the ISS in any sort of cost-effective manner. On 
the other end of the scale, we must judge any proposed architecture 
against the requirements for Mars. We aren't going there now, but one 
day we will, and it will be within the expected operating lifetime of 
the system we are designing today. We know already that, when we go, we 
are going to need a Mars ship with a LEO mass equivalent of about a 
million pounds, give or take a bit. I'm trying for one-significant-
digit accuracy here, but think ``Space Station,'' in terms of mass. I 
hope we're smart enough that we never again try to place such a large 
system in orbit by doing it in twenty-ton chunks. I think we all 
understand that fewer launches of larger payloads requiring less on-
orbit integration are to be preferred. Thus, a vehicle in the Saturn V 
class--some 300,000 lbs in LEO--allows us to envision a Mars mission 
assembly sequence requiring some four to six launches, depending on the 
packaging efficiency we can attain. This is something we did once and 
can do again over the course of a few months, rather than many years, 
with the two heavy-lift pads available at KSC Complex 39. But if we 
split the EOR lunar architecture into two equal but smaller vehicles, 
we will need ten or more launches to obtain the same Mars-bound payload 
in LEO, and that is without assuming any loss of packaging efficiency 
for the launch of smaller payloads. When we consider that maybe half 
the Mars mission mass in LEO is liquid hydrogen, and if we understand 
that the control of hydrogen boil-off in space is one of the key 
limiting technologies for deep space exploration, the need to conduct 
fewer rather than more launches to LEO for early Mars missions becomes 
glaringly apparent. So if we want a lunar transportation architecture 
that looks back to the ISS LEO logistics requirement, and forward to 
the first Mars missions, it becomes apparent that the best approach is 
a dual-launch EOR mission, but with the total payload split unequally. 
The smaller launch vehicle puts a crew in LEO every time it flies, 
whether they are going to the ISS or to the Moon. The larger launch 
vehicle puts the lunar (or, later, Mars) cargo in orbit. After 
rendezvous and docking, they are off to their final destination. Once 
the rationale for this particular dual-launch EOR scenario is 
understood, the next question is, logically, ``why don't we use the 
existing EELV fleet for the smaller launch?'' I'm sure you will 
understand when I tell you that I get this question all the time. And 
frankly, it's a logical question. I started with that premise myself, 
some years back. To cut to the chase, it will work--as long as you are 
willing to define ``Orion'' as that vehicle which can fit on top of an 
EELV. Unfortunately, we can't do that. The adoption of the Shuttle-
derived approach of Ares I, with a new lox/hydrogen upper stage on a 
reusable solid rocket booster (RSRB) first stage, has been one of our 
more controversial decisions. The Ares V heavy-lift design, with its 
external-tank-derived core stage augmented by two RSRBs and a new Earth 
departure stage (EDS), has been less controversial, but still not 
without its detractors. So let me go into a bit of detail concerning 
our rationale for the Shuttle-derived approach. The principal factors 
we considered were the desired lift capacity, the comparative 
reliability, and the development and life cycle costs of competing 
approaches. Performance, risk, and cost--I'm sure you are shocked. The 
Ares I lift requirement is 20.3 mT for the ISS mission and 23.3 mT for 
the lunar mission. EELV lift capacity for both the Delta IV and Atlas V 
are insufficient, so a new RL-10 powered upper stage would be required, 
similar to the J-2X based upper stage for Ares I. We considered using 
additional strap-on solid rocket boosters to increase EELV performance, 
but such clustering lowers overall reliability. It is also important to 
consider the growth path to heavy lift capability which results from 
the choice of a particular launch vehicle family. Again, we are 
designing an architecture, not a point solution for access to LEO. To 
grow significantly beyond today's EELV family for lunar missions 
requires essentially a ``clean sheet of paper'' design, whereas the 
Ares V design makes extensive use of existing elements, or 
straightforward modifications of existing elements, which are also 
common to Ares I. Next up for consideration are mission reliability and 
crew risk. EELVs were not originally designed to carry astronauts, and 
various human-rating improvements are required to do so. Significant 
upgrades to the Atlas V core stage are necessary, and abort from the 
Delta IV exceeds allowable g-loads. In the end, the probabilistic risk 
assessment (PRA) derived during ESAS indicated that the Shuttle-derived 
Ares I was almost twice as safe as that of a human-rated EELV. Finally, 
we considered both development and full life cycle costs. I cannot go 
into the details of this analysis in a speech, and in any case much of 
it involves proprietary data. We have shared the complete analysis with 
the DOD, various White House staff offices, CBO, GAO, and our 
Congressional oversight committees. Our analysis showed that for the 
combined crew and heavy-lift launch vehicles, the development cost of 
an EELV-derived architecture is almost 25 percent higher than that of 
the Shuttle-derived approach. The recurring cost of the heavy-lift Ares 
V is substantially less than competing approaches, and the recurring 
cost of an EELV upgraded to meet CEV requirements is, at best, 
comparable to that for Ares I. All independent cost analyses have been 
in agreement with these conclusions. So, while we might wish that ``off 
the shelf'' EELVs could be easily and cheaply modified to meet NASA's 
human space flight requirements, the data say otherwise. Careful 
analysis showed EELV-derived solutions meeting our performance 
requirements to be less safe, less reliable, and more costly than the 
Shuttle-derived Ares I and Ares V.
    Now is a good time to recall that all of the trades discussed above 
assumed the use of a production version of the Space Shuttle Main 
Engine (SSME). But, returning to a point I made earlier, we continued 
our system analysis following the architecture definition of ESAS, 
looking for refinements to enhance performance and reduce risk and 
cost. We decided for Ares I to make an early transition to the five-
segment RSRB, and to eliminate the SSME in favor of the J-2X on the 
upper stage. Similarly, elimination of the SSME in favor of an upgraded 
version of the USAF-developed RS-68 engine for the Ares V core stage, 
with the EDS powered by the J-2X, offered numerous benefits. These 
changes yielded several billion dollars in life cycle cost savings over 
our earlier estimates, and foster the use of a common RS-68 core engine 
line for DOD, civil, and commercial users. Praise is tough to come by 
in Washington, so I was particularly pleased with the comment about our 
decision on the five-segment RSRB and J-2X engine in the recent GAO 
review: ``NASA has taken steps toward making sound investment decisions 
for Ares I.'' Just for balance, of course, the GAO also provided some 
other comments. So, for the record, let me acknowledge on behalf of the 
entire Constellation team that, yes, we do realize that there remain 
``challenging knowledge gaps,'' as the GAO so quaintly phrased it, 
between system concepts today and hardware on the pad tomorrow. Really. 
We do.
    It's time now for a little perspective. We are developing a new 
system to bring new capabilities to the U.S. space program, 
capabilities lost to us since the early 1970s. It isn't going to be 
easy. Let me pause for a moment and repeat that. It isn't going to be 
easy. Did any of you here today think it was going to be easy? May I 
see a show of hands? How many of you thought we were going to re-create 
a capability for the United States to go to the Moon, a capability well 
beyond Apollo, and do it without any development problems? Anyone? So, 
no, we don't yet have all the answers to the engineering questions we 
will face, and in some cases we don't even know what those questions 
will be. That is the nature of engineering development. But we are 
going to continue to follow the data in our decision-making, continue 
to test our theories, and continue to make changes if necessary.
    We have been, I think, extraordinarily open about all of this. 
Following the practice I enunciated in my first all-hands on my first 
day as Administrator, in connection with the then-pressing concerns 
about Shuttle return-to-flight, we are resolved to listen carefully and 
respectfully to any technical concern or suggestion which is 
respectfully expressed, and to evaluate on their merits any new ideas 
brought to us. We are doing that, every day. We will continue to do it. 
So, in conclusion, this is the architecture which I think best meets 
all of the requirements of law, policy, budget, and common sense that 
constrain us the post-Shuttle era. It certainly does not satisfy 
everyone, not that I believe that goal to be achievable. To that point, 
one of the more common criticisms I receive is that it ``looks too much 
like Apollo.'' I'm still struggling to figure out why, if indeed that 
is so, it is bad. My considered assessment of the Constellation 
Architecture is that while we will encounter a number of engineering 
design problems as we move forward, we are not facing any showstoppers. 
Constellation is primarily a systems engineering and integration 
effort, based on the use of as many flight-proven concepts and hardware 
as possible, including the capsule design of Orion, the Shuttle RSRBs 
and External Tank, the Apollo-era J-2X upper stage engine, and the RS-
68 core engine. We're capitalizing on the Nation's prior investments in 
space technology wherever possible. I am really quite proud of the 
progress this multi-disciplinary, geographically dispersed, NASA/
industry engineering team has made thus far. But even so, the 
development of new systems remains hard work. It is not for the faint 
of heart, or those who are easily distracted. We can do it if, but only 
if, we retain our sense of purpose. In this regard, I'm reminded of two 
sobering quotes from the CAIB report. First, ``the previous attempts to 
develop a replacement vehicle for the aging Shuttle represent a failure 
of national leadership.'' Also, the Board noted that such leadership 
can only be successful ``if it is sustained over the decade; if by the 
time a decision to develop a new vehicle is made there is a clearer 
idea of how the new transportation system fits into the Nation's 
overall plans for space; and if the U.S. Government is willing at the 
time a development decision is made to commit the substantial resources 
required to implement it.'' That sort of commitment is what the mantle 
of leadership in space exploration means, and the engineers working to 
build Constellation know it every day. Thus, I can only hope to inspire 
them, and you, with the immortal words of that great engineer, 
Montgomery Scott, of the USS Enterprise: ``I'm givin' 'er all she's 
got, Captain.''
    Thank you.
    Chairman Udall. Good morning. This hearing will come to 
order. And good morning. I want to welcome our witnesses, and I 
look forward to your testimony.
    Today's hearing continues the Subcommittee's oversight of 
NASA's major program areas and will focus on the Agency's 
exploration initiative.
    In many ways, NASA's Exploration Initiative exemplifies 
both the strengths and weaknesses of the Agency at this point 
in its history.
    Begun in 2004 to implement the President's Vision for Space 
Exploration, NASA's initiative was conceived to be a broad and 
sustained program of human and robotic exploration of the solar 
system.
    It was to be a step-by-step approach to exploration, 
starting with the completion of the International Space Station 
and subsequent retirement of the Space Shuttle, development of 
a new human space transportation system, and a return to the 
Moon as an initial step in a long-term journey to explore the 
solar system. It was also to include an ambitious set of 
robotic exploration activities and scientific investigations.
    Yet from its beginning, NASA's Exploration Initiative has 
suffered from chronic under-funding, with a once-in-a-
generation project to develop a new space transportation system 
shoe-horned into a NASA budget that in some years hasn't even 
kept pace with inflation.
    That same under-funding has led to cutbacks in the Space 
Station research and critical exploration technology 
investments that will be needed if NASA's initiative is to go 
beyond simply being simply a repeat of the 1960's era Apollo 
project, albeit on a somewhat larger scale.
    This is in no way a criticism of the dedicated NASA team 
that is developing the systems needed to take America's 
astronauts beyond low-Earth orbit.
    They are working hard to make the best of a tough 
situation, and we want them to succeed. To that end, today we 
will hear from NASA about what has been accomplished to date, 
and we will examine what NASA is going to have to do to bring 
those new systems into operation.
    Yet we also have to take a hard look at what it is going to 
take to make the initiative both sustainable and worth the 
money.
    A good number of my colleagues agree with me that we should 
be investing more in NASA, but there isn't necessarily a 
consensus on what those funds should be used to accomplish.
    For example, I think exploration is a worthwhile endeavor, 
and I do support it. However, it is also clear to me that 
NASA's core missions in aeronautics and science, especially 
Earth science and climate research, are highly relevant to 
addressing the Nation's needs and must be better supported than 
they have been.
    Thus, if the next Administration keeps NASA's budget as 
constrained as it has been under this Administration, and I 
certainly hope it doesn't, then the pace of exploration is 
going to have to be adjusted to ensure that NASA's other 
important activities do not wind up being cannibalized.
    Yet, whether or not NASA gets more money, we also need to 
ensure that the money NASA does get is spent as effectively as 
possible. Thus, at a minimum, NASA needs to follow good program 
management practices and do its best to control costs, 
something the GAO witness will discuss.
    NASA also needs to do a better job of keeping Congress 
informed of its progress on critical initiatives so we can 
determine if they are proceeding in the right way and on 
budget.
    In addition, it means that we need to make sure that NASA's 
program is structured in a way that ensures that the critical 
long-term exploration research and technology investments will 
be made.
    It also means that we need to ensure that the activities we 
carry out on the Moon don't become a counterproductive drain on 
NASA's and the Nation's resources but instead help further our 
long-term exploration goals.
    Finally, it means we need to ensure that we don't succumb 
to a temptation to rerun a space race that we already won 
nearly 40 years ago. Instead I think we need to be reaching out 
to fashion a new, internationally cooperative approach to 
exploration.
    That, more than any nationalistically driven competition, 
will ensure that U.S. leadership in space is maintained in a 
way that will deliver the maximum benefits to our citizens for 
decades to come.
    We have got a great deal to discuss today, and we have an 
expert panel to help us sort through all of these issues.
    I again want to welcome you, and we appreciate your 
willingness to testify before us today.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning. I want to welcome our witnesses, and I look forward 
to your testimony.
    Today's hearing continues the Subcommittee's oversight of NASA's 
major program areas and will focus on the Agency's Exploration 
initiative.
    In many ways, NASA's Exploration initiative exemplifies both the 
strengths and weaknesses of the agency at this point in its history.
    Begun in 2004 to implement the President's Vision for Space 
Exploration, NASA's Exploration initiative was conceived to be a broad 
and sustained program of human and robotic exploration of the solar 
system.
    It was to be a step-by-step approach to exploration, starting with 
the completion of the International Space Station and subsequent 
retirement of the Space Shuttle, development of a new human space 
transportation system, and a return to the Moon as an initial step in a 
long-term journey to explore the solar system. It was also to include 
an ambitious set of robotic exploration activities and scientific 
investigations.
    Yet from its beginning, NASA's Exploration initiative has suffered 
from chronic underfunding, with a ``once-in-a-generation'' project to 
develop a new space transportation system ``shoe-horned'' into a NASA 
budget that in some years hasn't even kept pace with inflation.
    That same underfunding has led to cutbacks in the Space Station 
research and critical exploration technology investments that will be 
needed if NASA's Exploration initiative is to go beyond simply being 
simply a repeat of the 1960's era Apollo project, albeit on a somewhat 
larger scale.
    This is in no way a criticism of the dedicated NASA team that is 
developing the systems needed to take American astronauts beyond low-
Earth orbit.
    They are working hard to make the best of a tough situation, and we 
want them to succeed.
    To that end, today we will hear from NASA about what has been 
accomplished to date, and we will examine what NASA is going to have to 
do to bring those new systems into operation.
    Yet we also have to take a hard look at what it's going to take to 
make the Exploration initiative both sustainable and worth the money.
    A good number of my colleagues agree with me that we should be 
investing more in NASA--but there isn't necessarily a consensus on what 
those funds should be used to accomplish.
    For example, I think exploration is a worthwhile endeavor, and I 
support it.
    However, it is also clear to me that NASA's core missions in 
aeronautics and science--and especially Earth science and climate 
research--are highly relevant to addressing the Nation's needs and must 
be better supported than they have been.
    Thus, if the next Administration keeps NASA's budget as constrained 
as it has been under this Administration--and I hope it doesn't--then 
the pace of Exploration is going to have to be adjusted to ensure that 
NASA's other important activities do not wind up being cannibalized.
    Yet, whether or not NASA gets more money, we also need to ensure 
that the money NASA does get is spent as effectively as possible.
    Thus, at a minimum, NASA needs to follow good program management 
practices and do its best to control costs, something the GAO witness 
will discuss.
    NASA also needs to do a better job of keeping Congress informed of 
its progress on critical initiatives, so we can determine if they are 
proceeding in the right way and on budget.
    In addition, it means that we need to make sure that NASA's 
Exploration Program is structured in a way that ensures that the 
critical long-term exploration research and technology investments will 
be made.
    It also means that we need to ensure that the activities we carry 
out on the Moon don't become a counterproductive drain on NASA's--and 
the Nation's--resources but instead help further our long-term 
exploration goals.
    Finally, it means we need to ensure that we don't succumb to the 
temptation to rerun a ``space race'' that we won nearly forty years 
ago. Instead I think we need to be reaching out to fashion a new, 
internationally cooperative approach to exploration.
    That, more than any nationalistically driven competition, will 
ensure that U.S. leadership in space is maintained in a way that will 
deliver the maximum benefits to our citizens for decades to come.
    Well, we have a great deal to discuss today, and we have an expert 
panel to help us sort through all of these issues.
    I again want to welcome you, and we appreciate your willingness to 
testify before us today.

    Chairman Udall. The Chair now recognizes Mr. Feeney for an 
opening statement, the Ranking Member.
    Mr. Feeney. Thank you, Mr. Chairman. I am grateful for your 
holding today's important hearing on NASA's Exploration 
Initiative. I also want to thank all of our witnesses for 
coming, one of whom is wearing a proud Florida Gators cap, and 
we are always glad to see Florida Gators here in our presence.
    Your perspectives and expertise are immensely valuable as 
we carry our oversight responsibilities and prepare legislation 
to reauthorize NASA.
    Human space exploration defines America as the world's 
preeminent space-faring Nation. Images of Shuttle and Apollo 
are deeply engrained in American culture, both our domestic 
version and the version exported to the rest of the world. 
Thousands, sometimes hundreds of thousands, of Americans and 
foreigners come to Florida's Space Coast to witness a Shuttle 
launch. And for the latest launch held at 2:28 a.m., a sizable 
Congressional delegation flew down after final votes in order 
to watch the night turn into day in front of their very eyes. 
For all the respect and support I have for NASA's satellite 
missions, those launches simply don't draw those crowds.
    NASA's human space flight program is in the midst of a one-
in-a-generation transformation brought about by the Columbia 
accident. We are excited by the promise of human exploration 
beyond low-Earth orbit for the first time in over 35 years. 
NASA's Constellation Program is developing the Orion crew 
exploration vehicle and the Ares I and the Ares V launch 
vehicles. This architecture will give NASA the ability to 
return Americans to the Moon by 2019 and to establish a 
scientific outpost so we can gain the expertise to advance 
human exploration beyond the Moon.
    But these changes come with significant costs. Earlier this 
week, NASA released preliminary estimates of the impact to the 
human space flight workforce from this transition to a new 
generation of space flight vehicles. I know this hearing is not 
intended to focus on transition issues, but I do want to 
reiterate my concern about the length of this gap and the 
potential loss of the skilled workforce needed to continue 
human space flight under the Constellation program.
    Mr. Chairman, I understand that you intend to hold a 
hearing later this year to examine NASA's Shuttle transition 
planning, and I am very grateful for that proposed hearing. I 
look forward to working with you on that hearing because it is 
of utmost importance of Florida's Space Coast and I believe the 
Nation as well.
    In the wake of the Columbia accident, the Columbia Accident 
Investigation Board correctly observed that America's human 
space flight program lacked a strategy and a direction. We have 
halted that drift. America has established a strategy and an 
architecture of how to achieve our goals. Now we need 
stability. We have had enough turmoil and change. If we change 
the strategy and architecture every few years, we will revert 
to pre-Columbia behavior, and we will have similar results 
including the very real prospect of being grounded for several 
years while other nations, especially China, strive for space 
preeminence.
    And I am grateful for the Chairman's remarks about avoiding 
an unnecessary space race. I intend to go to China the third 
week of April for the first Global Space Summit. I am adding 
this off the script. I think it is certainly very aggressive of 
the Chinese to host the first Global Space Summit but not very 
surprising, given their announced intentions to be very 
aggressively pursuing space capabilities.
    The Columbia Accident Investigation Board correctly noted, 
``It is the view of the Board that the previous attempts to 
develop a replacement vehicle for the aging Shuttle represented 
a failure of national leadership.'' Since Columbia, we 
collectively, the President, Congress, and the space community, 
have demonstrated the necessary leadership. The Chairman is 
right. We haven't funded adequately all of the things we ask 
NASA to do, but in terms of establishing a vision that is very 
doable that will lead us into the next age of space 
exploration, I think that all of us have done our parts in a 
relatively responsible way.
    In over five years, we have come a long way since those 
terrible dark days in February of 2003. Let us keep that 
progress in mind as we look forward to the challenges ahead. I 
look forward from hearing from our witnesses.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Feeney follows:]
            Prepared Statement of Representative Tom Feeney
    Thank you, Mr. Chairman, for holding today's important hearing on 
NASA's Exploration Initiative. I also want to thank our witnesses for 
appearing. Your perspectives and expertise are immensely valuable as we 
carry out our oversight responsibilities and prepare legislation to 
reauthorize NASA.
    Human space exploration defines America as the world's preeminent 
space-faring Nation. Images of Shuttle and Apollo are deeply ingrained 
in American culture--both our domestic version and the version exported 
to the rest of the world. Thousands--sometimes hundreds of thousands--
of Americans and foreigners come to Florida's Space Coast to witness a 
Shuttle launch. And for the latest launch held at 2:28 AM, a sizable 
Congressional delegation flew down after final votes in order to watch 
night turn into day. For all the respect and support I have for NASA's 
satellite missions, those launches don't draw these crowds.
    NASA's human space flight program is in the midst of a once in a 
generation transformation brought about by the Columbia accident. We 
are excited by the promise of human exploration beyond low-Earth orbit 
for the first time in over 35 years. NASA's Constellation Program is 
developing the Orion crew exploration vehicle and the Ares I and Ares V 
launch vehicles. This architecture will give NASA the ability to return 
Americans to the Moon by 2019 and establish a scientific outpost so we 
can gain the expertise to advance human exploration beyond the Moon.
    But these changes come with significant costs. Earlier this week 
NASA released preliminary estimates of the impact to the human space 
flight workforce from this transition to a new generation of space 
flight vehicles. I know this hearing is not intended to focus on 
transition issues. But I want to reiterate my concern about the length 
of this gap and the potential loss of the skilled workforce needed to 
continue human space flight under the Constellation program. Mr. 
Chairman, I understand that you intend to hold a hearing later this 
year to examine NASA's Shuttle transition planning. I look forward to 
working with you on that hearing because of its utmost importance to 
Florida's Space Coast.
    In the wake of the Columbia accident, the Columbia Accident 
Investigation Board correctly observed that America's human space 
flight program lacked a strategy and direction. We have halted that 
drift. America has established a strategy and an architecture of how to 
achieve our goals.
    We now need stability. We have had enough turmoil and change. If we 
change the strategy and architecture every few years, we will revert to 
pre-Columbia behavior. And we will have similar results including the 
very real prospect of being grounded for several years while other 
nations - especially China--strive for space preeminence.
    As the Columbia Accident Investigation Board correctly noted:

         It is the view of the Board that the previous attempts to 
        develop a replacement vehicle for the aging Shuttle represented 
        a failure of national leadership.

    Since Columbia, we--the President, Congress, and the space 
community--have demonstrated the needed leadership. In over five years, 
we have come a long way since those terrible dark days in February 
2003. Let's keep that progress in mind as we look forward to the 
challenges ahead.

    Chairman Udall. Thank you, Mr. Feeney. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record. Without objection, so 
ordered.
    Let me turn now to our excellent panel of witnesses. I 
would like to introduce each one of you in turn, and then we 
will turn to our first witness and he can begin the testimony 
this morning. First, we do have Dr. Richard Gilbrech who is 
NASA's Associate Administrator for the Exploration Systems 
Mission Directorate. Next to him, Ms. Cristina Chaplain who is 
the Director of Acquisition and Sourcing Management at the 
Government Accountability Office. Third on the panel, Dr. Noel 
Hinners who is a former Lockheed-Martin executive and worked on 
the Apollo program during his tenure at NASA, and finally, we 
have Dr. Kathryn Thornton who is a veteran of four Shuttle 
missions and is currently a Professor, Associate Dean for the 
School of Engineering and Applied Sciences at the University of 
Virginia. Welcome again to all of you.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the 
Subcommittee will have five minutes each to ask questions. We 
will start with Dr. Gilbrech.

STATEMENT OF DR. RICHARD J. GILBRECH, ASSOCIATE ADMINISTRATOR, 
 EXPLORATION SYSTEMS MISSION DIRECTORATE, NATIONAL AERONAUTICS 
                AND SPACE ADMINISTRATION (NASA)

    Dr. Gilbrech. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today as NASA's Associate Administrator for 
the Exploration Systems Mission Directorate. When I joined 
NASA, I had two dreams. One was to be an astronaut and the 
other was to be part of the next Moon landing. A heart murmur 
dashed my first dream but here I am today thrilled to be 
leading the effort to achieve my second dream.
    Much has happened since Americans first landed on the Moon. 
Today space affects everything we do in more ways than I count 
here today. The global space economy receives more than $220 
billion annually, and NASA is just a small but integral 
component of that critical global economic engine. Fiscal year 
2009, NASA has requested $3.5 billion for our exploration 
systems programs and projects. This budget request fully 
reinstates our $500 million commitment to the Commercial 
Orbital Transportation Services Program. It also demonstrates 
the President's continued commitment to our nation's leadership 
in space, especially during a time when there are other 
competing demands for our nation's financial resources. Budget 
stability is critical to maintaining the March 2015 initial 
operating capability for the Orion crew exploration vehicle and 
the Ares I crew launch vehicles.
    Therefore, I ask for Congress' support for this budget 
request as well as your continued support for NASA's efforts to 
successfully transition its workforce and infrastructure from 
Shuttle to Constellation.
    NASA's 2009 budget request also continues our efforts to 
return Americans to the Moon by 2020. On the Moon, astronauts 
plan to build an outpost to support a long-term human presence 
there, and in doing so, the Moon will become a proving ground 
for technologies needed for future human missions to Mars and 
other destinations. NASA has put together a team of some of its 
best scientists and engineers to work on the lunar program, and 
we also are working with 13 other international space agencies 
in the commercial sector on this important endeavor.
    Today, Constellation is making real progress. We are 
testing real hardware. We have tested landing systems, we have 
logged thousands of hours in wind tunnels to simulate how the 
current Ares I vehicle designs perform in flight. By the end of 
the year, Exploration Systems will launch its first lunar 
spacecraft from the NASA Kennedy Space Center in Florida. 
Together, the lunar reconnaissance orbiter and the lunar crater 
observation and sensing satellite above this spacecraft will 
help NASA scout for potential lunar landing sites and outposts.
    For someone like me who started my career in propulsion 
technology, this is an exciting time to be leading the team 
that is building our nation's next generation of human space 
flight vehicles. Future astronauts will ride to orbit in the 
Orion crew capsule on top of the Ares I. The Ares I first stage 
uses a five-segment solid rocket booster derived from the 
Shuttle's four-segment booster. In the second stage, we use a 
J-2X engine and will provide the navigation, guidance, control, 
and propulsion for the rocket's continued assent. Although the 
J-2X has heritage parts, the J-2X is essentially a new engine 
because of the significant redesign required for the Ares I 
propulsion. Having grown up around rocket engine stands, I am 
very confident that NASA will be successful in developing this 
new engine to support both the upper stage and the eventual 
Earth departure stage that will return humans to the Moon.
    However, with any new rocket development program, there 
will be some technical challenges. One of the most recently 
discovered issues is a problem with thrust oscillation produced 
by the five-segment first stage booster. Thrust oscillation is 
caused by vortex shedding inside the solid rocket motor, 
similar to the wake that follows a fast-moving boat. It is a 
problem that is common to all solid-rocket motors and one we 
take seriously. When early analysis indicated there would be 
high levels of vibration throughout the entire vehicle, NASA 
assigned our best talent to attack the problem. I am pleased to 
report today that NASA has made great progress in better 
understanding the issue and identifying numerous mitigations 
for thrust oscillation.
    Last year the U.S. Government Accountability Office 
acknowledged that NASA has taken steps toward making sound 
investment decisions for the Ares I project. Let me assure that 
NASA fully intends to make sure that all of our projects, not 
just the Ares I, reach the appropriate level of maturity at 
each milestone before proceeding further.
    Mr. Chairman and Members of the Committee, NASA looks 
forward to continuing with you on this exciting journey of 
exploration, a journey that will drive new technologies, enable 
new economic activity, and engage and inspire our technical and 
engineering workforce. We do not live in a static world. Other 
countries will explore the cosmos, whether the United States 
does or not, and these will be the Earth's great nations in the 
years and centuries to come. Bold plans and strategies require 
bold leadership and robust follow-through, and together we can 
create a legacy for generations to come. I thank you for the 
opportunity to appear before you today, and I would be pleased 
to answer any questions you might have.
    Chairman Udall. Thank you, Dr. Gilbrech. Before I recognize 
Ms. Chaplain, I notice you have some models here, and maybe for 
the viewers and citizens in attendance you might just take 
another minute and identify these models to your right for us.
    Mr. Gilbrech. Yes, sir, I would be glad to. Show and tell 
always helps. What we have here on the far end of the table is 
the Ares I crew exploration crew launch vehicle rocket. We are 
using the five-segment solid rocket booster that is derived 
from the Space Shuttle Program as the first stage. The orange 
section up at the top is the new upper stage that will house 
the J-2X engine that we are developing, and then the white 
portion at the very tip is the service module and the Orion 
crew exploration vehicle, and the little pointy stick at the 
top is the actual launch abort system which gives us 
reliability and the ability to save the crew in the event there 
is a mishap on our way uphill.
    The large rocket to the left is the Ares V which uses a lot 
of the common hardware that we are using with the Ares I. We 
again have the two, five-segment solid rocket boosters on each 
side. We are using a core stage which has five RS-68 engines 
which are the engines that power the Delta IV rockets today. We 
have the departure stage at the top here which is actually we 
use the same, common J-2X engine. And then we also have up top 
the faring that houses the lunar surface access module. We 
actually have the Orion, a little bit bigger picture here but 
the idea is the larger rocket will put the lunar surface access 
module in orbit. The crew will be put up on the Orion capsule. 
They will mate in Earth orbit rendezvous and then go on their 
way to the
          oon, and we will send all four astronauts down to the 
        lunar surface for seven day sorties in the beginning.
    So that is the baseline of the architecture.
    Chairman Udall. But what are the blue arrays that----
    Mr. Gilbrech. Those are the solar arrays for powering the 
Orion capsule since it is much more efficient with the lunar 
program to use the solar arrays to maximize the energy and 
minimize the amount of batteries and other types of things we 
have to have.
    [The prepared statement of Dr. Gilbrech follows:]
               Prepared Statement of Richard J. Gilbrech
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to make my first appearance before you today as the 
Associate Administrator for the Exploration Systems Mission Directorate 
(ESMD) to discuss NASA's Exploration Program.
    In 2007, ESMD delivered on its promises, and we will continue to do 
so in 2008. Major development work is underway; contracts are in place, 
and our future Exploration plan is executable. By the end of 2008, NASA 
will see its first lunar spacecraft launched from the Agency's Kennedy 
Space Center (KSC) in Florida. This Lunar Reconnaissance Orbiter (LRO) 
and the Lunar Crater Observation Sensing Satellite (LCROSS) will help 
NASA scout for potential lunar landing and outpost sites. Additionally, 
in 2008, NASA will continue to plan how best to transition any needed 
Shuttle workforce and infrastructure to the Constellation program.
    The FY 2009 budget request of $3.5 billion for ESMD will support 
continued development of new U.S. human space flight capabilities and 
will enable sustained and affordable human space exploration after the 
Space Shuttle is retired at the end of FY 2010. The budget request 
provides stable funding to allow NASA to continue developing our next-
generation U.S. human space flight vehicles while also providing 
research and developing technologies for the longer-term development of 
a sustained human Exploration of the Moon and other destinations. 
Budget stability in FY 2009 is crucial to maintaining a March 2015 
Initial Operational Capability (IOC) for the Orion Crew Exploration 
Vehicle and Ares I Crew Launch Vehicle. There is minimum flexibility 
through 2010, so Congressional support for the full FY 2009 budget 
request is critical. In addition, NASA will continue to work with other 
nations and the commercial sector to coordinate planning, leverage 
investment, and identify opportunities for specific collaboration on 
lunar data collection and lunar surface activities.
    The FY 2009 budget request continues our national momentum toward 
returning American astronauts to the Moon by 2020. NASA plans to build 
an outpost on the Moon to advance U.S. scientific, security, and 
economic interests as part of a sustained and affordable human and 
robotic program of solar system Exploration. Astronauts will learn to 
use resources already on the Moon, preparing for possible future 
journeys to Mars or other destinations in the solar system. Successful 
lunar exploration is not just about developing a lander or a habitat. 
It will require development of a system of Exploration elements, 
including a transportation system, habitation, rovers, space walking 
systems, surface power, and communication. NASA has put together a team 
of some of its best scientists and engineers to work on these projects. 
We also are working with 13 international partners and the commercial 
sector to coordinate planning, leverage investment, and identify 
opportunities for specific collaboration on lunar data collection and 
lunar surface activities.
    Much has happened since Americans first landed on the Moon, but in 
particular the scope, breadth and importance of space activity has 
grown significantly. Today, the global space economy exceeds more than 
$220 billion annually, and that figure is growing rapidly each year. 
NASA is a small, but integral component of this critical global 
economic engine. Today, we live in a time when space has become a 
globally utilized resource and when other nations have the ability to 
launch humans into space. Today, the skies are filled with satellites 
that impact the lives of billions of people on planet Earth. Today, 
American astronauts are living in space with international colleagues 
aboard the International Space Station (ISS), and scientists worldwide 
are studying our solar system via robotic missions. Simply put, space 
affects everything we do.
    Thanks to the support of the President and Congress, our nation 
once again has a vision for the future that addresses space Exploration 
on all fronts. It is therefore only fitting that we have begun on an 
adventure to return Americans to the Moon as part of that broader 
policy and vision. This adventure will drive us toward new 
technologies; will enable a new area of economic activity; will 
strengthen our national security; will engage our technical and 
engineering workforce; will provide an opportunity to collaborate on 
important missions with our international partners; and, will inspire a 
new generation of scientists and engineers to participate in America's 
space program. NASA's Exploration program will also ensure that our 
nation's space program continues to organize and inspire the best of 
our energies and skills for generations to come.
    NASA is committed to carrying out our nation's civil space program, 
and we pledge to keep the Congress fully informed about our efforts and 
achievements. As requested in the invitation to testify today, the 
remainder of my testimony outlines NASA's progress, and some of the 
Agency's challenges, in implementing the Orion and Ares projects. My 
testimony also addresses NASA's evolving lunar architecture, which will 
return Americans to the Moon by 2020 in preparation for human 
Exploration of Mars and other destinations.

Constellation Program Status

    The FY 2009 budget request for Constellation Systems is 
approximately $3.0 billion. The Constellation program includes funding 
for the Orion and Ares projects, as well as for ground operations, 
mission operations, and extra vehicular activity projects and a 
dedicated in-house effort for systems engineering and integration. NASA 
recognizes that challenges lay ahead for the Agency, and we are making 
progress in managing these challenges. Our greatest challenge is safely 
flying the Space Shuttle to complete assembly of the ISS prior to 
retiring the Shuttle in 2010, while at the same time, developing new 
U.S. human space flight capabilities of the Constellation program and 
successfully transitioning our workforce between Shuttle and 
Constellation activities. Full funding of NASA's FY 2009 budget request 
for Constellation is needed so that we can continue successful 
transition between the Shuttle and the Orion and Ares I. The FY 2009 
budget request maintains Orion IOC in March 2015 at a 65 percent 
confidence level and full operational capability (FOC) in FY 2016, 
though NASA is striving to bring this new vehicle online sooner.
    The FY 2009 budget request for Constellation will support a total 
of three uncrewed test flights prior to IOC in FY 2015. The IOC is 
defined as the first crewed flight of Orion to the ISS, enabling fight 
test astronauts to fly the Orion on its maiden voyage. Following IOC, 
there will be one additional crewed test flight of Ares I and Orion to 
the ISS before NASA declares FOC. The FOC milestone is defined as the 
date when Orion transports crew to the ISS; remains at the ISS for up 
to 180 days; and then safely returns the crew to Earth.
    NASA has planned and paced the multi-decade Constellation program 
to live within its means, while carefully identifying and mitigating 
the threats to mission success. Within the Constellation program, NASA 
is making important decisions to stay within budget and on schedule by 
striving for the lowest life-cycle costs possible. NASA has established 
an initial plan for Constellation's designs and integrated flight tests 
to ensure that the Agency adequately tests systems prior to their 
operational use and allows appropriate time to implement critical 
lessons learned from these tests.
    NASA's Constellation program has moved beyond being just a mere 
concept on paper; we are making real progress. We have tested hardware; 
we have tested landing systems; and we have logged thousands of hours 
in wind tunnels. So far, the Ares I project has conducted more than 
4,000 hours of wind tunnel testing on sub-scale models of the Ares I to 
simulate how the current vehicle design performs in flight. These tests 
support development of the J-2X engine for the Ares I and the Earth 
Departure Stage of the Ares V. By December 2007, all major elements of 
the Orion and Ares vehicles were placed under contract. This year, 
Constellation will be busy with hardware activities which include 
fabrication of the First Stage Development Motors 1 and 2 for Ares I; 
complete construction of the Upper Stage Common Bulkhead Demonstration 
article and also deliver the first Ares I-X demonstration test flight 
hardware to KSC in October 2008. Orion will be just as busy, 
culminating the year with a test of its launch abort system at the U.S. 
Army's White Sands Missile Range (WSRM) in New Mexico.
    NASA has a dedicated group of civil servants and contractors who 
work together to check and crosscheck the multiple variables that go 
into designing and eventually operating these future Exploration 
vehicles. Constellation also has an integrated schedule and we are 
meeting our early milestones. In 2007, Constellation completed a 
``Season of System Requirements Reviews'' for the program and its 
projects. Design reviews are essential to good engineering practice. 
The year culminated with an Orion Point of Departure (POD) design and a 
green light to move forward to the Preliminary Design Review (PDR). An 
Integrated Stack Technical Interchange Meeting also was a great success 
with all top issues being resolved. Thus, the Constellation program was 
able to strike a technical baseline from which integrated assessments 
can be formed. The program closed the architecture for going back to 
ISS; has identified the areas necessary to do the same for lunar; and 
now has a clearer understanding of its growth path toward that goal. 
Constellation also has the green light to move forward in developing 
systems for a lunar capable vehicle that meets our budgets and schedule 
needs. Agency leadership has embraced the results of this season of 
reviews and has approved the Constellation program to move forward to 
PDR for both Orion and Ares I by this fall.
    For background, a PDR is a crucial milestone because it is the 
first major review of the detailed design and is normally held prior to 
the preparation of formal design drawings. During a PDR, the program 
verifies that the preliminary design meets all requirements within 
acceptable risk limits and within the cost and schedule constraints. 
The completion of the PDR and the closure of any actions generated by 
the review become the basis for the start of the detailed drafting and 
design effort and the purchase of parts, materials, and equipment 
needed.
    Currently, NASA has civil servants and contractors on board for the 
Constellation program serving at all ten field Centers. Last fall, the 
Agency assigned new leadership roles and responsibilities for 
Exploration and Science missions to NASA's ten field Centers in order 
to help restore the core technical capabilities across the Agency as we 
transition from the Space Shuttle to new capabilities. This action 
included assigning preliminary work assignments covering elements of 
the Altair human lunar lander and lunar surface operations, as well as 
the Ares V and Earth Departure Stage necessary for lunar Exploration. 
This year, NASA will continue efforts to define the specific work the 
field Centers will perform in order to enable astronauts to again 
explore the Moon, while paving the way for human Exploration of Mars 
and other destinations. It is also important to note that NASA's 
Constellation program involves industry partners from more than 20 
states across the country, which makes Constellation a truly Nationwide 
effort.
    In addition, NASA is making infrastructure improvements at many of 
our Centers including:

        <bullet>  Modifications to the Space Power Facility (SPF) at 
        Glenn Research Center's Plum Brook Station (Ohio) in support of 
        Orion environmental testing, enabling the SPF to perform 
        vibration and vibro-acoustic testing;

        <bullet>  Construction of a new high-altitude test stand at 
        Stennis Space Center (SSC) in Mississippi for testing the J-2X 
        Upper State engine under simulated high-altitude conditions;

        <bullet>  Construction of Orion abort system testing facilities 
        at WSMR;

        <bullet>  Major refurbishment of the Operations and Check-out 
        Building at KSC in support of Orion final assembly and test;

        <bullet>  Major refurbishment of building 29 at Johnson Space 
        Center (JSC) in Texas to support a Constellation Avionics 
        Integration Lab in support of Orion; and,

        <bullet>  Minor and major modifications to Arc Jet Heaters 
        located at JSC and Ames Research Center in California in 
        support of Orion heat shield development and qualification.

Status of the Orion Crew Exploration Vehicle

    By 2020, America will send a new generation of explorers to the 
Moon aboard the Orion crew module, thereby enabling a sustained human 
presence beyond low-Earth Orbit (LEO). With its IOC of March 2015, 
Orion is a critical capability for the Nation to support Exploration 
and to ensure U.S. access by American astronauts to all regions of LEO 
and the Moon. The Orion also opens the door to Mars and other 
destinations.
    NASA is continuing the design process for the Orion and is pleased 
with the progress made so far. The current design configuration 
establishes a robust vehicle and meets the weight requirements, 
including meeting the more demanding lunar configurations. Orion's 
design borrows its shape from the capsules of the past, but takes 
advantage of 21st century technology in computers, electronics, life 
support, propulsion, and heat protection systems. Orion will carry up 
to four crew members on lunar missions and up to six crew members to 
and from the ISS. By 2020, the new capsule will be able to rendezvous 
with a lunar landing module, which will carry astronauts to the Moon's 
surface. Orion also will be the vehicle that returns our astronauts 
safely to Earth.
    During 2007, the Orion project tested numerous options for landing 
systems, including air bag systems of varying configurations, and the 
project began fabrication of a flight test article for Pad Abort Test-
1. Both the Orion and Ares projects also conducted numerous recovery 
parachute drop tests in Yuma, Arizona to better understand the reefing 
performance of the drogue, pilot and main chutes. Last year also 
included a season of design reviews for the Orion project. After 
completing a System Definition Review (SDR) in August, the Orion team 
realized that the Orion configuration was too heavy, so NASA began an 
effort to establish a POD configuration for the Orion spacecraft that 
would meet requirements for mass, power and cost. In November 2007, 
NASA senior leaders, including Administrator Michael Griffin, approved 
the POD and approved Orion to move forward into the PDR design cycle, 
which is scheduled to conclude this fall.
    As approved in November, the POD configuration:

        <bullet>  Establishes a robust vehicle;

        <bullet>  Meets weight requirements for lunar and ISS missions; 
        and

        <bullet>  Meets the more demanding lunar configuration with 
        2,000 lb of Manager's Reserve (MR) and 15 percent average 
        Weight Growth Allowance; This MR covers the 90th percentile of 
        mass threats and opportunities identified.

    Between now and the conclusion of PDR this fall, NASA will continue 
to work these issues:

        <bullet>  Crew support for safety;

        <bullet>  Ensuring the vehicle adequately supports the crew in 
        the event of contingency landings when the crew may have to 
        spend an extended period of time in the vehicle prior to 
        recovery by ground support teams;

        <bullet>  Assessing landing scenarios, leading to a final 
        decision about whether Orion will land on land or water during 
        nominal landings;

        <bullet>  Assessing mass threats and opportunities against the 
        Orion PDR POD configuration; and

        <bullet>  Understanding the vulnerabilities of the POD vehicle 
        and understand the Loss of Crew and Loss of Mission 
        probabilities.

    Another integral part of the Orion project is a Launch Abort System 
(LAS), which will offer a safe, reliable method of moving the entire 
crew out of danger in the event of an emergency on the launch pad or 
during the climb to Earth orbit. Mounted at the top of the Orion and 
Ares I launch vehicle stack, the abort system will be capable of 
automatically separating the Orion from the rocket and positioning the 
Orion for a safe landing. The planned LAS implementation uses a solid 
rocket motor that is positioned on a tower atop the crew module that 
will pull the Orion and its crew to safety. NASA plans a series of 
tests to characterize the LAS. Pad Abort (PA)-1 is the first of these 
tests and will address what happens if an emergency occurs while the 
Orion and the launch vehicle are still on the launch pad. This test is 
scheduled for December 2008 at WSMR. The Orion crew module test article 
was shipped to Dryden Flight Research Center, California, on March 27 
for outfitting. It will then be shipped to White Sands for integration 
with the launch vehicle and LAS for the December 2008 PA-1 test.

Status of the Ares I Crew Launch Vehicle

    Ares I is an in-line, two-stage rocket that will carry Orion to LEO 
and will becomes NASA's primary vehicle for human exploration in the 
next decade. Ares I will be able to lift more than 25 metric tons 
(55,600 pounds) to LEO. Its First Stage will use a single five-segment 
solid rocket booster--a derivative of the Space Shuttle's solid rocket 
booster, which also will be a critical element of the Ares V heavy lift 
launch vehicle. The Ares V will consist of two five segment strap-on 
boosters, which will enable the Ares V to carry up to 65 metric tons 
(143,299 pounds) of payload to trans-lunar injection orbit or 135 
metric tons (297,624 pounds) to LEO. The Ares V represents a capability 
far beyond that of today's global launch systems, opening the door to 
exploration and to a range of national and scientific applications in 
all regions of space. The Second Stage of the Ares I, also known as the 
Upper Stage, will provide the navigation, guidance, control and 
propulsion required for the Second Stage of the rocket's ascent. It 
will consist of a J-2X engine, a fuel tank for liquid oxygen and liquid 
hydrogen propellants and associated avionics. Like the solid rocket 
booster, the J-2X will contribute to our plans for human lunar 
exploration by powering the Earth Departure Stage (the vehicle carrying 
the Orion and a human lunar lander) to the Moon.
    The J-2X is an evolved version of two historic predecessors: the 
powerful J-2 engine that propelled the Apollo-era Saturn I-B and Saturn 
V rockets, and the J-2S, a simplified version of the J-2 that was 
developed and tested in the early 1970s. By utilizing the J-2X, NASA 
eliminates the need to develop, modify, and certify an expendable Space 
Shuttle engine for the Ares I. NASA expects the J-2X to be less 
expensive and easier to manufacture than the Space Shuttle main engine. 
Changing from the four-segment First Stage solid rocket motor to the 
five-stage segment for the Ares I also represents a significant and 
direct down payment on the Ares V, enabling an earlier delivery date 
for Ares V.
    Although the J-2X is based on the J-2 and J-2S engines used on the 
Saturn V, it also leverages knowledge from the X-33 and RS-68. NASA 
also is planning significant upgrades to the engine, which essentially 
makes the J-2X a new engine development program. Therefore, NASA has 
taken steps to mitigate J-2X risks by increasing the amount of 
component-level testing; procuring additional development hardware; and 
working to make a third test stand available to the contractor earlier 
than originally planned. On August 23, 2007, NASA broke ground on a new 
rocket engine test stand at Stennis Space Center in Mississippi. The 
test stand will provide altitude testing for the J-2X engine and will 
allow engineers to simulate flight conditions at different altitudes. 
Testing on the A-3 stand is scheduled to begin in late 2010.
    Last year, the Ares project office conducted a season of SDRs for 
its major elements: First Stage, Upper State and Upper Stage engine. 
These activities concluded with the integrated Ares I SDR in October 
2007. In support of Orion and Ares I SDRs, a series of integrated 
vehicle analyses were conducted to characterize performance of the 
Orion/Ares I stack. During these reviews, NASA discussed a thrust 
oscillation issue during First Stage operation. Thrust oscillation is 
not an uncommon risk in solid rocket motors because thrust oscillation 
or resonant burning is a characteristic of all solid rocket motors, 
like the First Stage of the Ares I launch vehicle. It is caused by 
vortex shedding inside the solid rocket motor, similar to the wake that 
follows a fast moving boat. When the vortex shedding coincides with the 
acoustic modes of the motor combustion chamber, pressure oscillations 
generate longitudinal forces that may impact the loads experienced by 
the Ares I during flight, and may exceed allowable loads on various 
portions of the vehicle and allowable forces on the astronaut crew.
    In November 2007, NASA chartered the Thrust Oscillation Focus Team 
to precisely define the frequency spectrum and oscillation amplitudes 
that the five segment motor is expected to produce. These analyses are 
being accomplished using a combination of available ground test motor 
data as well as early Shuttle solid rocket motor flight data. Efforts 
are underway to update the existing data set by adding instrumentation 
on several upcoming Shuttle flights. In parallel, the team is 
evaluating vehicle structural assessments in order to provide 
additional vibration isolation to critical launch vehicle systems and 
uncouple the vehicle's natural frequency from motor induced loads. 
Since upper stage elements and the command/service module are not yet 
fully designed, this is an excellent time to factor in thrust 
oscillation load mitigation should that be required. The team's 
analysis has already led to several mitigation strategies, including 
the removal of a significant amount of conservatism from within 
existing models, correlating to significantly lower loads by a factor 
of almost two. Additionally the team was able to remove the first 
longitudinal mode as an issue--the remaining effects are now in a 
narrow, manageable region in the 12Hz frequency range. NASA will 
conduct additional analysis coupled with upcoming flight test on the 
Shuttle (STS 125, planned for August 2008) and Ares I-X (planned for 
April 2009) to better characterize this phenomenon, which may further 
reduce loads. In summary, NASA is confident in its ability to mitigate 
the risks associated with thrust oscillation, and we will keep the 
Congress and this subcommittee informed of our progress.
    Last year, the U.S. Government Accountability Office (GAO) 
acknowledged that NASA has taken steps toward making sound investment 
decisions for the Ares I launch vehicle. GAO reported that NASA is 
relying on established technology to support the project and is 
adopting an acquisition strategy that emphasizes attaining knowledge on 
cost, schedule and technical and development feasibility before 
commitments are made to long-term investments. The GAO also rightly 
identified many of the challenges that still remain for the Ares I 
project--requirements complexities, design details, and a challenging 
schedule are particularly highlighted, among others. NASA has made a 
great deal of progress to date on Ares I; we have accomplished much in 
a short period. However, I am well aware that there is still much to be 
done. The GAO recommends that NASA develop firm requirements, a 
preliminary design, and realistic cost estimates in time for the Ares I 
PDR late this summer. This is exactly our intent--to make sure that all 
of our projects, not just Ares I, reach the appropriate level of 
maturity at each milestone before they proceed further. I have every 
confidence that our team will build on our recent progress, overcome 
the challenges immediately before us, and successfully reach our next 
goal.
    In December 2008, NASA will complete the integrated stack sync 
point for Orion and Ares I, which is a key milestone in the development 
progress of these projects. The integrated stack sync point will 
demonstrate that Ares I and Orion preliminary designs, as well as the 
integrated stack analyses, have met all system requirements within 
acceptable risk and within the cost and schedule constraints. The sync 
point establishes the basis for proceeding to the Constellation 
Program-level PDR. The integrated sync point also will show that the 
correct design options have been selected; interfaces have been 
identified; and verification methods have been described. The Orion and 
Ares I project offices are currently finalizing data products required 
to meet their individual project-level PDRs. Should key information not 
be available by December 2008, the program will evaluate delinquent 
data product status and provide a strategy to ensure products are 
available to support the program PDR. The program office would then 
apply appropriate resources to mitigate delinquent product risks.
    Let me re-emphasize that the Constellation program has moved beyond 
just drawings and into real hardware fabrication and testing. For 
example, beginning in late 2006 and continuing into 2008, sub-scale 
main injector hardware underwent hot-fire testing to support 
development of the Upper Stage engine for NASA's Ares I crew launch 
vehicle and Earth Departure Stage of the Ares V cargo launch vehicle. 
The hot-fire tests are part of efforts to investigate design options 
for, and maximize performance of, the J-2X Upper Stage engine. NASA 
engineers also have conducted more than 4,000 hours of wind tunnel 
testing on sub-scale models of the Ares I to simulate how the current 
vehicle design performs in flight. These tests will lay the ground work 
for NASA's first scheduled demonstration test flight for Ares I, called 
Ares I-X, scheduled for April 2009. That is just a mere 12 months from 
now.
    Ares I-X will be the first demonstration flight of the technologies 
for and components of the new U.S. Exploration launch vehicle system. 
Important technical highlights of the Ares I-X test flight are: 
demonstration of First Stage separation sequencing; an assessment of 
First Stage atmospheric reentry characteristics; an assessment of 
vehicle roll torque while in flight; and a demonstration of assembly 
and recovery activities for a new launch vehicle at KSC. NASA 
recognizes that there are technical challenges related to parachute 
testing, modal testing and loads and environments, and we are working 
to mitigate those risks.

The Commercial Crew and Cargo Program

    In FY 2009, NASA is requesting $173 million for the Commercial Crew 
and Cargo Program and its associated Commercial Orbital Transportation 
Services (COTS) projects. Full funding is essential to maintaining 
NASA's promised $500 million investment in this program to spur the 
development of U.S. commercial space transportation services to and 
from low-Earth orbit (LEO) while also providing substantial savings to 
the taxpayer compared to NASA Government-owned and operated 
capabilities.
    The objectives of this program are to: 1) implement U.S. Space 
Exploration policy with an investment to stimulate commercial 
enterprises in space; 2) spur the development of U.S. commercial space 
transportation services to and from LEO; and, 3) enhance U.S. access to 
LEO and the ISS while also providing substantial savings to the 
taxpayer compared to NASA Government-owned and operated capabilities. 
The availability of safe, reliable and economical service to LEO will 
help NASA achieve the Nation's goals of retiring the Space Shuttle, 
servicing the ISS (designated as a National Lab pursuant to the NASA 
Authorization Act of 2005, 109-155), and building a new transportation 
system that expands our nation's sphere of economic and scientific 
influence on the Moon and beyond.
    COTS is envisioned for execution in two phases. Phase 1 is a period 
of development and demonstration by private industry, in coordination 
with NASA via funded and unfunded Space Act Agreements (SAAs), of 
various space transportation capabilities to and from low-Earth orbit 
determined to be most desirable for the government and other customers. 
Once a capability is demonstrated, NASA will enter into the second 
phase, which will be a competitive procurement of orbital 
transportation services to supply the ISS. A commercial services 
resupply contract will be managed by NASA's Space Operations Mission 
Directorate. A draft Request for Proposals for this contract was issued 
on February 28, 2008, and a final RFP is on track to be issued later 
this month.
    As part of Phase I, NASA has negotiated funded SAAs with two 
partners. Each SAA has individualized milestones and objective criteria 
that spell out in detail a schedule of performance milestones that each 
participant is expected to achieve along with a fixed payment to be 
made upon completion. These milestones culminate in a flight 
demonstration where the participant's vehicle will launch, rendezvous 
and berth with the ISS, and in the case of one partner's demonstration, 
return safely to Earth. The funded partners are paid a pre-negotiated 
fixed amount only if they successfully complete a milestone. If they do 
not complete the milestone to NASA's satisfaction, they are not paid. 
These milestones can be technical (for example, a successful design 
review or hardware test) or financial (i.e., raising a certain amount 
of private funding).
    Altogether, NASA is providing about $500 million over five years to 
stimulate the commercial space transportation market to help develop 
safe, reliable and cost-effective access to and from LEO:

        <bullet>  In August 2006, NASA signed a funded SAA with Space 
        Exploration Technologies Corp. of El Segundo, Calif., also 
        known as SpaceX. The company is scheduled to receive $278 
        million to supplement its privately funded efforts and is 
        planning to conduct a demonstration flight to the ISS in March 
        2010. In early February, SpaceX formally notified NASA that it 
        was projecting a six to nine month delay in the launch of the 
        Falcon 9 launch vehicle and Dragon spacecraft demonstration 
        missions. On Feb. 28, 2008, NASA executed an amendment to the 
        SpaceX SAA, renegotiating milestones to align the current 
        development and demonstration schedule with ISS integration 
        activities. Also, several milestones were added and others 
        modified to allow additional insight and clarification of 
        objective measures of progress of the demonstration program. 
        SpaceX has met all milestones to date and continues to make 
        excellent progress in the development of its launch vehicle and 
        cargo capsule. The total NASA investment in this agreement of 
        up to $278 million remains unchanged, although individual 
        performance payments for some milestones have been adjusted. 
        SpaceX has received a total of $139 million for successfully 
        completing the first eight milestones.

        <bullet>  On Feb. 19, 2008, NASA announced the selection of 
        Orbital Sciences Corporation of Dulles, Va., for a second 
        funded SAA to replace the Space Act agreement that NASA 
        terminated with Rocketplane-Kistler (RpK) in October 2007 for 
        RpK's failure to perform under the terms of the agreement. 
        Orbital will receive approximately $170 million to supplement 
        its privately funded efforts and is planning to conduct a 
        demonstration flight to ISS in December 2010. The funds made 
        available for Orbital's award were funds not previously used by 
        RpK.

        <bullet>  NASA also has entered into unfunded SAAs with five 
        other companies--Constellation Services International, 
        PlanetSpace, SpaceDev, SpaceHab, and Transformational Space 
        Corp (t/Space).

Lunar Implementation

    A human space flight program with no plan to send people beyond the 
orbiting ISS certainly is not in our nation's best economic or 
strategic interest. The Columbia Accident Investigation Board (CAIB), 
which examined the 2003 loss of the Shuttle and its crew, acknowledged 
that for the foreseeable future, space travel is going to be expensive, 
difficult and dangerous, but emphasized that U.S. human space flight is 
not only strategic, but also what makes us a great nation. The report 
noted that not developing a replacement vehicle for the Space Shuttle 
demonstrated a failure of National leadership and also declared that if 
we are going to send humans into space, the goals ought to be worthy of 
the cost, the risk and the difficulty.
    President Bush responded to the CAIB report. The Administration 
looked at where we had been in space and concluded that we needed to do 
more, to go further. The result was the Vision for Space Exploration, 
announced nearly four years ago, which commits the United States to 
using the Shuttle to complete the ISS, then retiring the Shuttle and 
building a new generation of spacecraft to venture out into the solar 
system. Congress ratified that position with an overwhelming bipartisan 
majority, making the Vision the law of the land in 2005 upon the 
adoption of the NASA Authorization Act of 2005. Congress specifically 
directed NASA ``to establish a program to develop a sustained human 
presence on the Moon, including a robust precursor program to promote 
exploration, science, commerce and U.S. preeminence in space, and as a 
stepping stone to future exploration of Mars and other destinations.''
    As NASA Administrator Michael Griffin eloquently outlined in a 2007 
speech, NASA is moving forward with a new focus for its human space 
program--to go out beyond LEO for purposes of human Exploration and 
scientific discovery. If humans are indeed going to travel to Mars, if 
we're going to go beyond, we have to learn how to live on other 
planetary surfaces, to use what we find there and bend it to our will. 
If we are to maintain our global leadership as a space-faring nation, 
we have to survive in other forbidding, faraway places across the 
vastness of space. The Moon is a crucially important stepping stone 
along that path; it is an alien world, yet one that is only a three-day 
journey from Earth.
    In 2006, NASA and 12 international partners established the Global 
Exploration Strategy (GES) team to identify primary themes and 
objectives for lunar Exploration. These objectives were grouped into 
six themes: 1) human civilization; 2) scientific knowledge; 3) 
Exploration preparation; 4) global partnerships; 5) economic expansion; 
and 6) public outreach. These themes and objectives serve as the 
foundation for the development of the lunar architecture currently 
under development. More specifically, NASA identified several guiding 
principles for the lunar architecture which include:

        <bullet>  Human lunar missions will be used to build an outpost 
        initially at a polar site;

        <bullet>  Preserve the option for an outpost at other lunar 
        locations;

        <bullet>  Preserve the ability to fly human sorties and cargo 
        missions with the human lander;

        <bullet>  Initial power architecture will be solar with the 
        potential for augmentation with nuclear power later;

        <bullet>  The United States will build the transportation 
        infrastructure, initial communication and navigation 
        infrastructure, and initial surface extra vehicular activity 
        (EVA) capability (i.e., Moon walk);

        <bullet>  Open Architecture: NASA will welcome parallel 
        development and development of lunar surface infrastructure by 
        international and commercial interests;

        <bullet>  Early exploration: Reduced assembly through pre-
        integrated habitats;

        <bullet>  Modular mobile habitation:

                  Facilitates ``super sortie'' mobility for 100's km 
                distances from the outpost

                  Facilitates greater lunar access to capture 
                exploration and science objectives beyond LAT1 results; 
                and,

        <bullet>  Early small pressurized rover

                  Augments EVA operations by allowing astronauts to 
                explore in shirt sleeve environment using EVA 
                judiciously.

    Utilizing these guiding principles, NASA is conducting early 
concept studies for an outpost on the Moon. An Agency-wide team has 
been hard at work, looking at concepts for habitation, rovers and space 
suits. When NASA returns Americans to the Moon in 2020, astronauts will 
set up a lunar outpost, possibly at the south pole, possibly at a site 
called the Shackleton Crater, where they will conduct scientific 
research, as well as test technologies and techniques for Exploration 
of Mars and other destinations. The architecture concept utilizes a 
building block approach to maintain the maximum amount of flexibility 
should NASA want to be able to land at varying locations on the lunar 
surface.
    Data from the LRO and LCROSS missions will enable future outpost 
site selection and new information about resources within the 
permanently shadowed craters at the lunar poles. The LRO/LCROSS 
missions also represent NASA's first steps in returning to the Moon. 
More specifically, the LRO will develop a highly detailed, topographic 
map of the lunar surface to help prepare the way for humans to return 
in the next decade. Information from the robotic spacecraft will be 
used to select safe landing sites for the next generation of lunar 
explorers. LRO also will provide valuable information about the 
environment and resource availability on the lunar surface. While the 
Apollo missions focused on gaining Science from the area around the 
Moon's equator, the LRO will circle the poles. It will spend at least 
one year in low, polar orbit, with instruments working simultaneously 
to collect detailed information about the lunar environment. The 
mission objective is to collect the highest resolution and most 
comprehensive data set ever returned from the Moon. The LRO, which is 
being built at NASA's Goddard Space Flight Center in Maryland, will 
carry six instruments and a technology demonstration payload. The LRO 
is scheduled to be launched atop an Atlas 5 rocket from KSC by the end 
of the year. The same rocket also is scheduled to loft the LCROSS 
spacecraft, which is designed to detect water in a permanently-shadowed 
crater at the lunar south pole.
    In response to Congressional direction contained in the Explanatory 
Statement accompanying the Consolidated Appropriations Act, 2008 (P.L. 
110-161), NASA will fund a robotic lander project managed by the 
Agency's Marshall Space Flight Center in Alabama as a pathfinder for an 
anticipated network of small science robotic landers based on 
requirements for NASA's expanded lunar Science program. The first 
robotic lander mission is planned to fly in 2013-2014. NASA's 
Exploration and Science Mission Directorates will continue to work 
together, as they do on numerous projects, to combine resources to 
ensure that the goals of the Science robotic lander are achieved.
    Work on the human lunar lander also is progressing. On March 17, 
2008, NASA's Constellation Program awarded a 210-day study contract to 
five space-related companies to independently evaluate NASA's in-house 
design concept for the lunar lander that will deliver four astronauts 
to the surface of the Moon by 2020. The awards total approximately $1.5 
million, with a maximum individual award of $350,000. The study 
recommendations will be used to increase the technical maturity of the 
existing design, in preparation for the development of vehicle 
requirements. These studies will provide valuable input for developing 
a sound set of requirement for the Altair lunar lander.
    Once astronauts set foot on the Moon, they will need some place to 
live. NASA had been considering integrated habitation units emplaced by 
a cargo lander. The team is also discussing the possibility of a mobile 
habitat module that would allow one module of the outpost to relocate 
to other lunar destinations as mission needs dictate. The outpost 
approach provides the flexibility needed to incorporate international 
and commercial contributions to the lunar outpost architecture. 
International collaboration can help achieve global exploration 
objectives faster than if NASA attempted to deploy the entire lunar 
Exploration architectural elements alone.
    As part of the lunar architecture, NASA is considering utilizing 
small, pressurized rovers that would be key to productive operations on 
the Moon's surface. Engineers envision rovers that could travel in 
pairs--two astronauts in each rover--and could be driven nearly 100 
kilometers away from the outpost to conduct Science and other 
activities. Astronauts inside the rovers wouldn't need special clothing 
because the pressurized rovers would have what's called a ``shirt-
sleeve environment.'' It is envisioned that the spacesuits would be 
attached to the exterior of the rover. Astronauts could crawl directly 
from the rovers into the suits to begin a Moon walk.
    NASA has been engaged with its international partners since 2005, 
particularly following the GES team's establishment in 2006. Since 
then, NASA has worked hard to effectively communicate our plans to our 
international partners about our efforts to develop the transportation 
systems required to travel between the Earth surface and the lunar 
surface. We also have clearly communicated our desire and interest in 
open collaboration on outpost elements. After several months of 
collaboration, NASA and 12 other international agencies developed a 
joint document titled, The Global Exploration Strategy: The Framework 
for Coordination. The Framework Document, as it is commonly referred 
to, identifies the common themes that all nations can identify with in 
the course of exploring space and establishes some basic principles for 
cooperation. During future discussions, NASA will work with our 
partners to define standard interface information to minimize to the 
greatest extent possible integration costs. We have recently completed 
discussions with our international partners on lunar communication 
standards.
    Additionally, NASA is already working with both the Japanese and 
Indian space agencies on two projects that will help better inform our 
lunar efforts. Last September, the Japanese Aerospace Exploration 
Agency launched its SELENE/Kaguya mission, which will provide NASA with 
altimetry data to help improve our targeting for the LCROSS mission. 
NASA also is planning to include two instruments this summer on the 
Chandrayaan-1 mission, which the Indian Space Research Organization 
plans to launch this summer. These instruments will help us better 
understand the formation and evolution of the Moon, for the needs of 
both NASA's ESMD and SMD programs and projects. Using radar, we will 
also be able to look into the permanently shadowed craters at the poles 
of the Moon, and since the LCROSS impactor will be sent to one of these 
craters, it is important for us to have an initial idea of the surface 
characteristics of the possible target sites for the LCROSS impact.

Advanced Capabilities

    The Agency's FY 2009 budget request also provides $452 million for 
activities in ESMD's Advanced Capabilities theme, which seeks ways to 
reduce the risks for human explorers of the Moon and beyond by 
conducting research and developing and maturing new technologies. This 
year, NASA's Human Research Program will focus on the highest risks to 
crew health and performance during exploration missions. We also will 
develop and validate technologies that serve to reduce medical risks 
associated with human space flight. For example, NASA will continue its 
work to understand the effect of space radiation on humans and to 
develop effective mitigation strategies. Next year, the Advanced 
Capabilities Exploration Technology Development program will conduct a 
range of activities, including testing prototype ablative heat shield 
materials; throttleable liquid oxygen/liquid hydrogen engines suitable 
for a human lunar lander; and lightweight life support systems for 
Orion. The program also will deploy and test advanced environmental 
monitoring systems on the ISS to advance the safety of crew members, 
and will continue to test in-situ resource utilization technologies as 
well as life support and cryogenic fluid management.
    For ESMD, the Advanced Capabilities Division has the lead for 
research on-board the ISS. During 2008, NASA will continue to conduct 
research on-board ISS that will include experiments on human adaptation 
to microgravity, as well as biological and microgravity experiments. It 
is important to note that the ISS will support astronaut return to the 
Moon by providing a reduced gravity environment for studying human 
health effects and effective countermeasures. While the Moon does have 
gravity, it is unknown if its small fractional gravity will be enough 
so that normal physiological function can occur over longer durations. 
Information from ISS will provide a basis for the types of 
countermeasures that we will need to develop for long-range lunar 
habitation and the eventual long-transit journeys to Mars and beyond. 
NASA will adjust these countermeasures as we get additional data from 
initial lunar human explorers. In the meantime, we will use ground-
based analogs to help us gain additional insight into fractional 
gravity and its effect on astronaut explorers.
    NASA is balancing its portfolio to meet the requirements of the 
NASA Authorization Act of 2005, pertaining to non-Exploration research. 
In the FY 2009 budget, NASA budgeted $138 million for Exploration-
related research and $30 million for non-Exploration research, 
resulting in 18 percent of the ISS research budget being spent on non-
Exploration research.
    NASA is developing long-range plans to utilize the ISS and free 
flyers beyond 2010. Non-Exploration payloads for ISS will use existing 
or soon to be delivered science facilities and racks. NASA is 
aggressively working to utilize the ISS for both Exploration and non-
Exploration payloads. During 2007, NASA participated with a Russian 
biomedical institute to investigate fundamental biological processes in 
a number of living organisms through experiments using a Russian free 
flying spacecraft, the Foton M3. NASA continued development work on a 
nanosat that will investigate the effectiveness of anti-fungal agents 
on fungi in microgravity. That mission is scheduled to launch on the 
TacSat 3 mission this fall. On the ISS, fundamental physical science 
payloads, such as the Binary Colloidal Alloy Test and the Capillary 
Flow Experiment will provide fundamental information and validate 
hypotheses concerning the behavior of physical systems in microgravity.
    NASA continues to integrate Science and Exploration initiatives on 
several fronts. For example, the two mission directorates are 
collaborating on plans for Radioisotope Power Systems. Additionally, 
ESMD and SMD are cooperating on the LRO. The LRO has been designed, 
developed, and will be launched and operated by ESMD for the first year 
in order to develop a topographic map of the Moon for the 
identification of lunar landing sites, and will later be transitioned 
to SMD for additional Scientific activities. In addition, ESMD and SMD 
have established an Outpost Science and Exploration Working Group to 
coordinate lunar exploration activities between the two directorates. 
One of the group's key objectives is to jointly identify Science 
requirements that could affect the Exploration architecture prior to 
lunar systems PDRs. Architecture considerations driven by Science 
community recommendations could include requirements such as 
telerobotic capabilities from both the outpost or ground stations and 
mobility greater than 100 km from the outpost.

Seeking Synergies Between Constellation and Lunar Architectures

    In your invitation today, you asked me to address how NASA plans to 
accommodate its goals for the Constellation and lunar programs while 
also dealing with constrained budgets. As stated before, full funding 
of NASA's FY 2009 budget request for Constellation is needed so that 
NASA can continue successful transition between the Shuttle and the 
Orion and Ares I. The FY 2009 budget request maintains Orion IOC in 
March 2015 and FOC in FY 2016 and provides stable funding in the out 
years. NASA stands behind the President's budget and the Exploration 
roadmap that it supports. In doing so, NASA pledges to consistently 
look for ways to optimize performance, decrease costs, increase 
reliability and sustain safety, while also maintaining alignment with 
the goals and objectives outlined by the President and the Congress for 
this multi-decadal Exploration endeavor.
    To mitigate some risk, NASA is consistently looking for synergies 
between the Constellation and lunar architectures. For example, NASA 
has defined a transportation architecture that maximizes subsystem 
commonality between crew access to ISS and the lunar program. Benefits 
of this common design approach include a comprehensive decrease in 
Design, Development Test & Evaluation (DDT&E) nonrecurring expenses, 
and lower recurring vehicle manufacturing, logistics, processing, and 
maintenance costs realized through commonality of tooling, ground 
support equipment, launch pad interfaces, and mission scenarios. 
Developing common Ares I and Ares V propulsion systems means that 
manufacturing facilities, ground support systems, and launch site 
infrastructure modifications and improvements can be jointly applicable 
and leveraged to reducing both recurring and nonrecurring operations 
costs throughout the life cycle of each system.
    NASA also plans to reap benefits and efficiencies by partnering 
with the Shuttle program and by deciding to utilize a five-segment 
reusable solid rocket booster (RSRB) for the Ares I First Stage. 
Specifically, developing the five-segment RSRB for the Ares I and later 
migrating it to the Ares V Core Stage propulsion system will result in 
significant out-year savings on DDT&E costs. Aside from cost savings 
associated with this approach, this approach may potentially enable 
earlier Ares V availability, given that the risks associated with 
developing the five-segment RSRB would have been resolved before 
embarking on other core stage propulsion element work.

Conclusion

    Throughout history, the great nations have been the ones at the 
forefront of the frontiers of their time. Britain became great in the 
17th century through its exploration and mastery of the seas. America's 
greatness in the 20th century stemmed largely from its mastery of the 
air. In this new century, those who effectively utilize space will 
enjoy added prosperity and security and will hold a substantial 
advantage over those who do not. In order to increase knowledge, 
discovery, economic prosperity, and to enhance National security, the 
United States must have robust, effective, and efficient space 
capabilities. We do not live in a static world--other countries will 
explore the cosmos, whether the United States does or not, and those 
will be Earth's great nations in the years and centuries to come. Bold 
plans and strategies require bold leadership and robust follow-through. 
Together we can create a bold legacy for generations to come.
    Today I have highlighted for you some of NASA's progress in 
developing the Constellation and lunar architectures--and some of the 
challenges that lay ahead. NASA knows it has a lot of hard work, but we 
are continuing to make steady progress. In the span of a few short 
years, we have already taken long strides in the formulation of 
strategies and programs that will take us back to the Moon and on to 
Mars and other destinations in our solar system. Indeed, a generation 
from now, astronauts on the Moon and Mars will be flying in and living 
aboard hardware America is funding and designing today, and will be 
building in the near future. This is a heady legacy to which we can 
aspire as we develop the next U.S. human space exploration vehicles. 
The foundation of this legacy will include work we plan to carry out in 
FY 2009.
    I want to stress the criticality to the Nation of meeting our goal 
of successfully transitioning from the retirement of the Space Shuttle 
to the operation of Orion and Ares I. NASA's Exploration Systems and 
Space Operations Mission Directorates are continuing to work closely to 
determine how best to transition our valuable infrastructure and 
workforce to the Constellation program in support of our Exploration 
plans. Our transition plan continues to be refined which will closely 
align Shuttle and Constellation activities and outline clear milestones 
to achieve the synergies required. I would like to ask this 
Subcommittee for your continued support as we effectively transition 
key elements of our Space Shuttle workforce, infrastructure and 
equipment for our nation's Exploration objectives. Our efforts are 
complex and intertwined between ESMD and SOMD, and that is why 
sustained purpose, direction and budget stability are particularly 
important.
    NASA is at the beginning of a new adventure. It is an adventure 
that presents challenges that are appropriate for the talents and 
resources of our nation; fitting to the profound impact of space 
activities on a global scale; and respectful of the sacrifices that 
have been made in the continued pursuit of space Exploration. For my 
part, I look forward to the challenge of Exploration and to working 
with you and an energized NASA workforce to accomplish our goals.
    Mr. Chairman, with your support and that of this subcommittee, we 
are making the right strategic choices for our nation's space program. 
Again, thank you for the opportunity to appear before you today. I 
would be pleased to respond to any questions that you may have.

                   Biography for Richard J. Gilbrech
    Richard J. Gilbrech is Associate Administrator for NASA's 
Exploration Systems Mission Directorate. He leads the Agency in the 
development of the Nation's new spacecraft that will return astronauts 
to the Moon and travel to Mars and other destinations in the solar 
system.
    Gilbrech previously served as Director of NASA's Stennis Space 
Center near Bay St. Louis, Missouri, where he provided overall 
leadership, planning, policy direction, management and coordination for 
all activities implementing NASA's mission directorates.
    Before being named Director of Stennis, Gilbrech served as Deputy 
Center Director of NASA's Langley Research Center, Hampton, Virginia. 
Prior to that he was Deputy Director of the NASA Engineering and Safety 
Center, located at Langley.
    Gilbrech started his NASA career in 1991 at Stennis in the area of 
propulsion test technology. In 1995, he was selected as the Stennis 
national aerospace plane project manager responsible for the 
construction, activation and operation of a facility to test actively-
cooled structures. Later in 1995, he was named the X33 project manager, 
responsible for converting the A-1 test stand at Stennis from Space 
Shuttle main engine testing to linear aerospike turbopump single- and 
dual-engine testing. From 1998 to 2000, he served as chief of the 
Propulsion Test Engineering Division within the Propulsion Test 
Directorate at Stennis.
    Gilbrech earned a Bachelor's degree in aerospace engineering from 
Mississippi State University. He earned Master's and doctorate degrees 
in aeronautics from the California Institute of Technology with a minor 
in planetary science.
    The recipient of numerous awards, Gilbrech has received NASA's 
prestigious Outstanding Leadership and Exceptional Achievement Medal.

    Chairman Udall. Thank you for that tutorial. Ms. Chaplain, 
the floor is yours.

 STATEMENT OF MS. CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION 
   AND SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you. Thanks for inviting me here today 
to discuss our work related to NASA's future space exploration 
efforts. We have been focusing on work primarily on the Ares I 
launch vehicle and the Orion crew exploration vehicle as they 
are among the first major efforts conducted as part of the 
Constellation Program and represent a substantial investment. 
Over $7 billion in contracts has already been awarded and 
nearly $230 billion is estimated to ultimately be spent over 
the next two decades for Constellation.
    NASA is currently working toward preliminary design reviews 
for these vehicles. This is a milestone that successful 
organizations use to make hard decisions about whether a 
program should proceed forward with development. The phase 
leading up to a preliminary design review is a time for 
discovery and risk reduction. As such, it is expected that 
there will be unknowns as to whether program plans can be 
executed within schedule goals as well as what they will 
ultimately cost as practice organizations close these knowledge 
gaps by the time they commit to programs which is usually 
shortly after the preliminary design review.
    We have identified several issues that should be under 
close watch for the Ares I and Orion projects leading up to 
their preliminary design reviews. These include, first, 
progress and requirements definition and related impacts on 
weight of the vehicles. NASA cannot accurately estimate cost 
schedules until requirements are defined. At this time, 
requirements such as those relating to how the Orion will 
return to Earth are among those still in development.
    Second, progress and technology development, particularly 
with the J-2X upper-stage engine and the Orion heat shield 
since they require significant work. Our reviews of space 
programs consistently find that the later technology discovery 
occurs in a program, the higher the risk of cost increases and 
schedule delays.
    Third, schedule slippage. Delays in setting requirements in 
technology development have resulted in some schedule slips 
which may increase costs. Moreover, there is a high degree of 
concurrency in both schedules. While this approach can save 
time, it can also create delays and cost increases since 
additional rework may be required to address unexpected 
problems.
    Fourth, progress in resolving thrust oscillation programs. 
As Dr. Gilbrech has just commented, NASA recognizes this is a 
serious risk and it is taking reasonable measures for dealing 
with it.
    Fifth, progress toward adding testing resources. Existing 
facilities have been insufficient so far to adequately test the 
J-2X engine and the heat shield for the Orion. However, NASA 
has appropriately increased attention to this area, too.
    In responding to our recent report on Ares I, NASA agreed 
that these are high-risk areas and committed to delay 
preliminary design reviews if it has not yet attained critical 
knowledge on them. This is important. The long-term nature of 
the vision, its inherent challenges, and the magnitude of the 
investment at stake make it vital that the right decisions be 
made early on and that senior leaders have the right knowledge 
going forward so they can make informed decisions.
    It is also important that NASA continue to be realistic and 
open about the progress it is making and to be willing to make 
changes to the program if technical problems cannot be solved 
with overly compromising performance. This is difficult to do 
in any large government acquisition; the need to make 
adjustments is often unwelcome news, particularly if they may 
require more funding or time than originally promised. But 
pushing off problems in fear of losing commitments to a program 
invariably leads to much more time delays and cost growth and 
thus less resources for other needed investments.
    We appreciate the candor of the program officials to date, 
and we look forward to continued discussions on progress.
    This concludes my statement, and I am happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement of Cristina T. Chaplain

 Ares I and Orion Project Risks and Key Indicators to Measure Progress

Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss challenges that the 
National Aeronautics and Space Administration (NASA) faces in 
developing the systems to achieve its goals for the President's Vision 
for Space Exploration.\1\ We have been focusing our work primarily on 
the Ares I Crew Launch Vehicle and the Orion Crew Exploration 
Vehicle,\2\ as they are among the first major efforts conducted as part 
of NASA's Constellation Program to support implementation of the Vision 
and represent a substantial investment for NASA. Over $7 billion in 
contracts has already been awarded--and nearly $230 billion is 
estimated to be ultimately spent over the next two decades. Moreover, 
NASA is under pressure to develop the vehicles quickly, as the Space 
Shuttle's retirement in 2010 means that there could be at least a five-
year gap in our nation's ability to send humans to space.
---------------------------------------------------------------------------
    \1\ The Vision includes a return to the Moon that is intended 
ultimately to enable future exploration of Mars and other destinations. 
To accomplish this, NASA initially plans to (1) complete its work on 
the international Space Station by 2010, fulfilling its commitment to 
15 international partner countries; (2) begin developing a new manned 
exploration vehicle to replace the Space Shuttle; and (3) return to the 
Moon in preparation for future, more ambitious missions.
    \2\ GAO, NASA: Agency Has Taken Steps Toward Making Sound 
Investment Decisions for Ares I but Still Faces Challenging Knowledge 
Gaps, GAO-08--51 (Washington, D.C.: Oct. 31, 2007) and GAO, NASA: Long-
Term Commitment to and Investment in Space Exploration Program Requires 
More Knowledge, GAO-06-817R (Washington, D.C.: July 17, 2006).
---------------------------------------------------------------------------
    In summary, NASA is currently working toward preliminary design 
reviews for the vehicles--a milestone that successful development 
organizations use to make hard decisions about whether a program should 
proceed with development. While this is a phase for discovery and risk 
reduction, there are considerable unknowns as to whether NASA's plans 
for the Ares I and Orion vehicles can be executed within schedule 
goals, as well as what these efforts will ultimately cost. In fact, we 
do not know yet whether the architecture and design solutions selected 
by NASA will work as intended. This is primarily because NASA is still 
in the process of defining both of the projects' performance 
requirements and some of these uncertainties could affect the mass, 
loads, and weight requirements for the vehicles. It is also working 
through significant technical risks, such as oscillation within the 
first stage of the Ares I vehicle, which computer modeling indicates 
could cause unacceptable structural vibrations.
    NASA is aiming to complete preliminary design reviews for the Ares 
I and Orion this year, scheduled for August 2008 Ares I and September 
2008 respectively, but it will be challenged in doing so given the 
level of knowledge that still needs to be attained. In addition, to 
minimize the gap in human space flight caused by the Shuttle's 
retirement, there is a high degree of concurrency within the projects. 
Our prior work has shown that concurrent development, especially when 
new technologies are involved, increases the risk that significant 
problems will be discovered as the systems' designs are integrated that 
could result in cost and schedule delays. NASA's schedule leaves little 
room for the unexpected. If something goes wrong with the development 
of the Ares I or the Orion, the entire Constellation Program could be 
thrown off course and the return to human space flight delayed.
    NASA recognizes the risks involved with its approach and has taken 
steps to mitigate some of these risks. It is important that, in 
mitigating risks, NASA continually assess the viability of its plans 
for the Ares I and Orion. The current state of play requires that NASA 
remain open to the possibility that it may need to revisit decisions on 
its architecture and design as these vehicles are expected to be in use 
for decades to come and decisions made now will have long-term 
consequences.
    Moreover, with additional significant investment decisions still 
ahead, it is important that agency decision-makers and Congress 
maintain clear insight into the progress the projects are making as 
well as any potential problems. This type of oversight is important, 
not just for the Ares I and Orion vehicles, but for the entire future 
exploration effort--since resources available to fund the Vision are 
constrained, as competition for resources increases within the Federal 
Government over the next several decades. In this regard, our work has 
identified specific markers that can be used to (1) assess NASA's 
progress in closing critical knowledge gaps and (2) identify issues 
that could result in cost growth, schedule delays, or decreased 
performance. In other words, they can be used to assess whether there 
is a viable business case for pressing forward with the projects.
    We have issued a number of reports and testimonies that touch on 
various aspects of NASA's Constellation Program and in particular the 
development efforts underway for the Orion and Ares I projects. These 
reports and testimonies have questioned the affordability and overall 
acquisition strategy for each project. In July 2006 we recommended that 
NASA modify the Orion Crew Vehicle acquisition strategy to ensure the 
agency did not commit itself to a long-term contractual obligation 
prior to establishing a sound business case. Although initially NASA 
disagreed with our recommendation, the agency subsequently revised its 
acquisition strategy to address some of the concerns we raised. In 
October 2007 we recommended that NASA develop a sound business case 
supported by firm requirements, mature technologies, a preliminary 
design, a realistic cost estimate, and sufficient funding and time-
before proceeding beyond preliminary design review. NASA concurred with 
this recommendation and subsequently slipped the Ares I preliminary 
design review from July 2008 to August 2008.
    My statement today is based on these products, as well as updated 
information based on our continual monitoring of the projects at the 
request of Members of Congress. To conduct these reviews, we analyzed 
relevant project documentation, prior GAO reports, NASA documents, and 
contractor information; interviewed program and project officials; and 
reviewed NASA's risk management system for the Constellation Program. 
Based on this work, my statement will specifically address the 
challenges that NASA faces developing the Ares I and Orion vehicles 
with regard to requirements definition, technology and hardware gaps, 
cost and schedule estimates, and facilities needs. Further, I will 
provide key indicators that decision-makers could use to assess risks 
as the two development efforts move forward. We conducted this 
performance audit from October 2007 through April 2008 in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.

Background

    In September 2005, NASA outlined an initial framework for 
implementing the President's Vision for Space Exploration in its 
Exploration Systems Architecture Study. NASA is now implementing the 
recommendations from this study within the Constellation Program, which 
includes three major development projects--the Ares I Crew Launch 
Vehicle, the Orion Crew Exploration Vehicle, and the Ares V Cargo 
Launch Vehicle as shown in Figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To reduce cost and minimize risk in developing these projects, NASA 
planned to maximize the use of heritage systems and technology. Since 
2005, however, NASA has made changes to the basic architecture for the 
Ares I and Orion designs\3\ that have resulted in the diminished use of 
heritage systems. This is due to the ability to achieve greater cost 
savings with alternate technology and the inability to recreate 
heritage technology. For example, the initial design was predicated on 
using the main engines and the solid rocket boosters from the Space 
Shuttle Program. However, NASA is no longer using the Space Shuttle 
Main Engines because greater long-term cost savings are anticipated 
through the use of the J-2X engine. In another example, NASA increased 
the number of segments on the Ares I first-stage reusable solid rocket 
booster from four to five to increase commonality between the Ares I 
and Ares V, and eliminate the need to develop, modify, and certify both 
a four-segment reusable solid rocket booster and an expendable Space 
Shuttle main engine for the Ares I. Finally, according to the Orion 
program executive the Orion project originally intended to use the heat 
shield from the Apollo program as a fall-back technology for the Orion 
thermal protection system, but was unable to recreate the Apollo 
material.
---------------------------------------------------------------------------
    \3\ Heritage systems are systems with characteristics similar to 
the one being developed. A heritage system is often the one the new 
program is replacing.
---------------------------------------------------------------------------
    NASA has authorized the Ares I and Orion projects to proceed with 
awarding development contracts. In April 2006, NASA awarded a $1.8 
billion contract for design, development, test, and evaluation of the 
Ares I first stage to Alliant Techsystems. NASA also awarded a $1.2 
billion contract for design, development, test, and evaluation of the 
Ares I upper stage engine--the J-2X--to Pratt and Whitney Rocketdyne in 
June 2006. NASA is developing the upper stage and the upper stage 
instrument unit, which contains the control systems and avionics for 
the Ares I, in-house. However, NASA awarded a $514.7 million contract 
for design support and production of the Ares I upper stage to the 
Boeing Company in August 2007. In August 2006, NASA awarded Lockheed 
Martin a $3.9 billion contract to design, test, and build the Orion 
crew exploration vehicle.\4\ According to NASA, the contract was 
modified in April 2007, namely by adding two years to the design phase 
and two test flights of Orion's launch abort system and by deleting the 
production of an cargo variant for the International Space Station. 
NASA indicates that these changes increased the contract value to $4.3 
billion. Federal procurement data shows that an additional modification 
has been signed which increased the value of the contract by an 
additional $59 million.
---------------------------------------------------------------------------
    \4\ The actual value of the contract could be greater than $3.9 
billion if NASA exercises options on the contract for production and 
sustainment or issues orders against the indefinite delivery/indefinite 
quantity portion of the contract.
---------------------------------------------------------------------------
    NASA has completed or is in the process of completing key reviews 
on both the Ares I and Orion projects. NASA has completed the system 
requirements review for each project and is in the midst of finalizing 
the system definition reviews.\5\ At the systems requirements review, 
NASA establishes a requirements baseline that serves as the basis for 
ongoing design analysis work and systems testing. Systems definition 
reviews focus on emerging designs for all transportation elements and 
compare the predicted performance of each element against the currently 
baselined requirements. Figure 2 shows the timeline for Ares I and 
Orion critical reviews.
---------------------------------------------------------------------------
    \5\ The system requirements review is intended to examine the 
function and performance requirements defined for the system and the 
preliminary project plan and ensure that the requirements and the 
selected concept will satisfy the mission. The system definition review 
examines the proposed system design and the flow-down of that design to 
all functional elements of the system. The system requirements review 
and system definition review process culminates with key decision point 
B wherein NASA determines the project's readiness to move forward.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NASA is using its Web-based Integrated Risk Management Application 
to help monitor and mitigate the risks with the Ares I and Orion 
development efforts and for the overall Constellation Program. The risk 
management application identifies and documents risks, categorizes 
risks--as high, medium, and low based on both the likelihood of an 
undesirable event as well as the consequences of that event to the 
project--and tracks performance against mitigation plans. For the Ares 
I project, the application is tracking 101 risks, 36 of which are 
considered high-risk areas.\6\ For the Orion project, NASA is tracking 
193 risks, including 71 high-risk areas.\7\ NASA is developing and 
implementing plans to mitigate some of these risks.
---------------------------------------------------------------------------
    \6\ This is the total number of open risks for the Ares I project 
as of March 25, 2008. It does not include risks that have been closed 
or risks that NASA considers sensitive.
    \7\ This is the total number of open risks for the Orion project as 
of March 25, 2008. It does not include risks that have been closed or 
risks that NASA considers sensitive.
---------------------------------------------------------------------------

Requirements Setting Is a Primary Challenge for Both the Ares I and 
                    Orion Projects

    Although project level requirements were baselined at both systems 
requirements reviews, continued uncertainty about the systems' 
requirements have led to considerable unknowns as to whether NASA's 
plans for the Ares I and Orion vehicles can be executed within schedule 
goals, as well as what these efforts will ultimately cost. Such 
uncertainty has created knowledge gaps that are affecting many aspects 
of both projects. Because the Orion vehicle is the payload that the 
Ares I must deliver to orbit, changes in the Orion design, especially 
those that affect weight, directly affect Ares I lift requirements. 
Likewise, the lift capacity of the Ares I drives the Orion design. Both 
the Orion and Ares I vehicles have a history of weight and mass growth, 
and NASA is still defining the mass, loads, and weight requirements for 
both vehicles. According to agency officials, continuing weight growth 
led NASA to rebaseline the Orion vehicle design in fall 2007. This 
process involved ``scrubbing'' the Orion Vehicle to establish a zero-
based design capable of meeting minimal mission requirements but not 
safe for human flight. Beginning with the zero-based design NASA first 
added back the systems necessary to ensure crew safety and then 
conducted a series of engineering trade-offs to determine what other 
systems should be included to maximize the probability of mission 
success while minimizing the system's weight. As a result of these 
trade-offs, NASA modified the requirement for nominal landing on land 
to nominal landing in water, thereby gaining 1500 lbs of trade space in 
the Orion design.
    NASA recognizes that continued weight growth and requirements 
instability are key risks facing the Orion project and that continued 
instability in the Orion design is a risk facing the Ares I project. 
The Ares I and Orion projects are working on these issues but have not 
yet finalized requirements or design. Our previous work on systems 
acquisition work shows that the preliminary design phase is an 
appropriate place to conduct systems engineering to support requirement 
and resource trade-off decisions. For the Ares I project, this phase is 
scheduled to be completed in August 2008, whereas for the Orion 
project, it is September 2008--leaving NASA only four and five months 
respectively to close gaps in requirements knowledge. NASA will be 
challenged to close such gaps, given that it is still defining 
requirements at a relatively high level and much work remains to be 
done at the lower levels. Moreover, given the complexity of the Orion 
and Ares I efforts and their interdependencies, as long as requirements 
are in flux, it will be extremely difficult to establish firm cost 
estimates and schedule baselines.

Technology and Hardware Gaps Along With Requirements Uncertainty Are 
                    Increasing Risk

    Currently, nearly every major segment of Ares I and Orion faces 
knowledge gaps in the development of required hardware and technology 
and many are being affected by uncertainty in requirements. For 
example, computer modeling is showing that thrust oscillation within 
the first stage of the Ares I could cause excessive vibration 
throughout the Ares I and Orion. Resolving this issue could require 
redesigns to both the Ares I and Orion vehicles that could ultimately 
impact cost, schedule, and performance. Furthermore, the addition of a 
fifth segment to the Ares I first stage has the potential to impact 
qualification efforts for the first stage and could result in costly 
requalification and redesign efforts. Additionally, the J-2X engine 
represents a new engine development effort that, both NASA and Pratt 
and Whitney Rocketdyne recognize, is likely to experience failures 
during development. Addressing these failures is likely to lead to 
design changes that could impact the project's cost and schedule. With 
regard to the Orion project, there is currently no industry capability 
for producing a thermal protection system of the size required by the 
Orion. NASA has yet to develop a solution for this gap, and given the 
size of the vehicle and the tight development schedule, a feasible 
thermal protection system may not be available for initial operational 
capability to the space station. The Table 1 describes these and other 
examples of knowledge gaps in the development of the Ares I and Orion 
vehicles.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Constellation Cost Estimates Are Preliminary Due to Requirements 
                    Uncertainty

    NASA's preliminary cost estimates for the Constellation Program are 
likely to change when requirements are better defined. NASA will 
establish a preliminary estimate of life cycle costs for the Ares I and 
Orion in support of each project's system definition review. A formal 
baseline of cost, however, is not expected until the projects' 
preliminary design reviews are completed. NASA is working under a self-
imposed deadline to deliver the new launch vehicles no later than 2015 
in order to minimize the gap in human space flight between the Space 
Shuttle's retirement in 2010 and the availability of new transportation 
vehicles. The Constellation Program's budget request maintains a 
confidence level of 65 percent (i.e., NASA is 65 percent certain that 
the actual cost of the program will either meet or be less than the 
estimate) for program estimates based upon a 2015 initial operational 
capability. Internally, however, the Ares I and Orion projects are 
working toward an earlier initial operational capability (2013), but at 
a reduced budget confidence level--33 percent. However, NASA cannot 
reliably estimate the money needed to complete technology development, 
design, and production for the Ares I and Orion projects until 
requirements are fully understood.
    NASA has identified the potential for a life cycle cost increase as 
a risk for the Orion program. According to NASA's risk database, given 
the historical cost overruns of past NASA systems and the known level 
of uncertainty in the current Orion requirements, there is a 
possibility that Orion's life cycle cost estimate may increase over 
time. NASA acknowledges that such increases are often caused by the 
unknown impacts of decisions made during development. One factor 
currently contributing to cost increases is the addition of new 
requirements. NASA is working to formulate the best life cycle cost 
estimate possible during development, is identifying and monitoring 
costs threats, and is implementing management tools all aimed at 
addressing this risk.

Schedule Pressures Add Additional Risks for Ares I and Orion

    There are considerable schedule pressures facing both the Ares I 
and Orion projects. These are largely rooted in NASA's desire to 
minimize the gap between the retirement of the Space Shuttle and 
availability of the new vehicles. Because of this scheduling goal, NASA 
is planning to conduct many interdependent development activities 
concurrently--meaning if one activity should slip in schedule, it could 
have cascading effects on other activities. Moreover, some aspects of 
the program are already experiencing scheduling delays due to the fact 
that high-level requirements are still being defined.

Ares I
    The development schedule for the J-2X is aggressive, allowing less 
than seven years from development start to first flight, and highly 
concurrent. Due to the tight schedule and long-lead nature of engine 
development, the J-2X project was required to start out earlier in its 
development than the other elements on the Ares I vehicle. This 
approach has introduced a high degree of concurrency between the 
setting of overall Ares I requirements and the development of the J-2X 
design and hardware. Consequently, the engine development is out of 
sync with the first stage and upper stage in the flow-down and 
decomposition of requirements, an approach our past work has shown to 
be fraught with risk. NASA acknowledges that the engine development is 
proceeding with an accepted risk that future requirements changes may 
affect the engine design and that the engine may not complete 
development as scheduled in December 2012. The J-2X development effort 
represents a critical path for the Ares I project. Subsequently, delays 
in the J-2X schedule for design, development, test, and evaluation 
would have a ripple effect of cost and schedule impacts throughout the 
entire Ares I project.
    The schedule for the first stage also presents a potential issue 
for the entire Ares I project. Specifically, the critical design review 
for the first stage is out of sync with the Ares I project-level 
critical design review. NASA has scheduled two critical design reviews 
for the first stage. The first critical design review is scheduled for 
November 2009, five months before the Ares I project critical design 
review. At this point, however, the project will not have fully tested 
the first stage development motors. The second critical design review, 
in December 2010, occurs after additional testing of developmental 
motors is conducted. By conducting the Ares I critical design review 
before the first stage project critical design review, the project 
could prematurely begin full-scale test and integration activities a 
full nine months before the first stage design has demonstrated 
maturity. If problems are found in the first stage design during the 
later testing, implementing solutions could result in costly rework and 
redesign and delay the overall project schedule.

Orion
    Cost and schedule reporting on the Orion project indicates that the 
Orion project's efforts to mature requirements and design and to 
resolve weight issues is placing pressure on the Orion schedule. 
Specifically, activities aimed at assessing alternate designs to reduce 
overall vehicle mass, rework to tooling concepts, and late requirements 
definition have contributed to the project falling behind schedule. 
Further, the Orion risk system indicates that schedule delays 
associated with testing may occur. The current Orion design has high 
predicted vibration and acoustic levels. Historically, components 
designed and qualified for uncertain vibration and acoustic 
environments have resulted in some failures and required subsequent 
redesign and retest. Failures during qualification testing of Orion 
components may lead to schedule delays associated with redesigning 
components.
    NASA's Administrator has publicly stated that if Congress provided 
the Agency an additional $2 billion that NASA could accelerate the 
Constellation program's initial operational capability date to 2013. We 
believe that this assessment is highly optimistic. The development 
schedule for the J-2X engine, the critical path for the Ares I 
development, is already recognized as aggressive, allowing less than 
seven years for development. The development of the Space Shuttle Main 
engine by comparison took nine years. Further, NASA anticipates that 
the J-2X engine is likely to require 29 rework cycles to correct 
problems identified during testing. Given the linear nature of a 
traditional test-analyze-fix-test cycle, even large funding increases 
offer no guarantee of program acceleration, particularly when the 
current schedule is already compressed and existing NASA test 
facilities are already maximized.

Test Facilities for Ares I and Orion Insufficient

    According to NASA, at this time, existing test facilities are 
insufficient to adequately test the Ares I and Orion systems. Existing 
altitude test facilities are insufficient to test the J-2X engine in a 
relevant environment. To address this issue, NASA is in the process of 
constructing a new altitude test facility at Stennis Space Center for 
the J-2X. Also, current facilities are inadequate to replicate the 
Orion vibration and acoustic environment. Further, Pratt and Whitney 
Rocketdyne--the J-2X upper stage engine contractor--indicated that 
existing test stands that could support J-2X testing will be tied up 
supporting the Space Shuttle program until 2010. NASA has taken steps 
to mitigate J-2X risks by increasing the amount of component-level 
testing, procuring additional development hardware and test facilities, 
and working to make a third test stand available to the contractor 
earlier than originally planned. NASA has compensated for this schedule 
pressure on the Ares I project by adding funds for testing and other 
critical activities. But it is not certain that added resources will 
enable NASA to deliver the Ares I when expected.
    With respect to Orion's thermal protection system, facilities 
available from the Apollo era for testing large-scale heat shields no 
longer exist. Therefore, NASA must rely on two facilities that fall 
short in providing the necessary capability and scheduling to test 
ablative materials needed for Orion. Additionally, NASA has no 
scheduled test to demonstrate the thermal protection system needed for 
lunar missions. NASA is exploring other options, including adding a 
lunar return flight test and building a new improved test facility. Due 
to the scheduled first lunar flight, any issues identified during such 
testing would need to be addressed in the time between the flight test 
and the first flight.

Oversight Based on Best Practices and Key Indicators Important for 
                    Program Success

    NASA is poised to invest a significant amount of resources to 
implement the Vision over the long-term and specifically to develop the 
Ares I and Orion projects over the next several years. Accordingly, you 
asked us to articulate indicators that Congress could use to assess 
progress. Our prior work has shown that investment decisions of this 
magnitude need to be based on an established and executable business 
case and that there are several key indicators that Congress could be 
informed of to assess progress throughout development. These include 
areas commonly underestimated in space programs, such as weight growth 
and software complexity, as well as indicators used by best practice 
organizations to assess readiness to move forward in the development 
cycle. Space programs which we have studied in detail in the past have 
tended to underestimate cost in some of these areas.

Weight Growth

    Our previous work on government-funded space systems has shown that 
weight growth is often not anticipated even though it is among the 
highest drivers of cost growth for space systems. Weight growth can 
affect the hardware needed to support a system, and, in the case of 
launch vehicles, the power or thrust required for the system. As the 
weight of a particular system increases, the power or thrust required 
for that system will also increase. This could result in the need to 
develop additional power or thrust capability to lift the system, 
leading to additional costs, or to stripping down the vehicle to 
accommodate current power or thrust capability. For example, NASA went 
through the process to zero-base the design for the Orion to address 
weight concerns. Continual monitoring of system weight and required 
power/thrust, as well as margins or reserves for additional growth, can 
provide decision-makers with an indicator of whether cost increases can 
be anticipated.

Software Complexity

    The complexity of software development on a system, often denoted 
by the number of lines of code on a system, can also be used as an 
indicator to monitor whether a program will meet cost and schedule 
goals. In our work on software development best practices, we have 
reported that the Department of Defense has attributed significant cost 
and schedule overruns on software-intensive systems to developing and 
delivering software. Generally, the greater the number of lines of 
code, the more complicated the system development. Changes to the 
amount of code needed to be produced can indicate potential cost and 
schedule problems. Decision-makers can monitor this indicator by 
continually asking for information on the estimated amount of code 
needed on a system and inquiring about any increases in need and their 
impact on cost and schedule.
    There are other areas, such as the use of heritage systems and 
industrial base capability that are commonly underestimated in space 
programs as well. However, weight increases and software growth are 
more quantifiable and thus useful for oversight purposes.

Indicators That Can be Used to Assess Knowledge Gap at Key Junctures

    Additionally, since the mid-1990s, GAO has studied the best 
practices of leading commercial companies. On the basis of this 
information, and taking into account the differences between commercial 
product development and major federal acquisitions, we have outlined a 
best practices product development model--known as a knowledge-based 
approach to system development. This type of approach calls for 
investment decisions to be made on the basis of specific, measurable 
levels of knowledge at critical junctures before investing more money 
and proceeding with development.
    Importantly, our work has shown the most leveraged decision point 
is matching the customer's needs with the developer's resources (time, 
dollars, technology, people, etc.) because it sets the stage for the 
eventual outcome--desirable or problematic. The match is ultimately 
achieved in every development program, but in successful development 
programs, it occurs before product development is formally initiated 
(usually the preliminary design review). If the knowledge attained at 
this and other critical junctures does not confirm the business case on 
which the acquisition was originally justified, the best practice 
organizations we have studied do not allow the program to go forward.
    We have highlighted the three critical junctures at which 
developers must have knowledge to make large investment decisions-the 
preliminary design review, the critical design review, and the 
production review-and the numerous key indicators that can be used to 
increase the chances of successful outcomes.
    In assessing the Orion and Ares programs, the Congress and NASA 
decision-makers can use these indicators in order to reliably gauge 
whether there is a sufficient business case for allowing the programs 
to proceed forward.

Preliminary design review: Before product development is started, a 
match must be made between the customers' needs and the available 
resources--technical and engineering knowledge, time, and funding. To 
provide oversight at this juncture, NASA could provide Congress with 
information to verify that the following have indicators been met:

        <bullet>  All critical technologies are demonstrated to a high 
        level of technology maturity, that is demonstrated that they 
        can perform in a realistic or, more preferably, operational 
        environment. A technology readiness level 6 or 7 would indicate 
        that this has been achieved. One approach to ensure that 
        technology readiness is reliably assessed is to use independent 
        testing;

        <bullet>  Project requirements are defined and informed by the 
        systems engineering process;

        <bullet>  Cost and schedule estimates established for the 
        project are based on knowledge from the preliminary design 
        using systems engineering tools;

        <bullet>  Additional resources are in place, including needed 
        workforce, and a decision review is conducted following 
        completion of the preliminary design review.

    A critical enabler for success in this phase of development is 
performance and requirements flexibility. Customers and product 
developers both need to be open to reducing expectations, deferring 
them to future programs, or to investing more resources up front to 
eliminate gaps between resources and expectations. In successful 
programs we have studied, requirements were flexible until a decision 
was made to commit to product development because both customers and 
developers wanted to limit cycle time. This makes it acceptable to 
reduce, eliminate, or defer some customer wants so that the product's 
requirements could be matched with the resources available to deliver 
the product within the desired cycle time.

Critical design review: A product's design must demonstrate its ability 
to meet performance requirements and be stable about midway through 
development. To provide oversight at this juncture, NASA could provide 
Congress with information to verify that the following indicators have 
been met:

        <bullet>  At least 90 percent of engineering drawings are 
        complete;

        <bullet>  All subsystem and system design reviews have been 
        completed;

        <bullet>  The design meets requirements demonstrated through 
        modeling, simulation, or prototypes;

        <bullet>  Stakeholders' concurrence that drawings are complete 
        and producible is obtained;

        <bullet>  Failure modes and effects analysis have been 
        completed;

        <bullet>  Key system characteristics are identified;

        <bullet>  Critical manufacturing processes are identified;

        <bullet>  Reliability targets are established and a growth plan 
        based on demonstrated reliability rates of components and 
        subsystems is developed; and

        <bullet>  A decision review is conducted following the 
        completion of the critical design review.

Production Review: The developer must show that the product can be 
manufactured within cost, schedule, and quality targets and is 
demonstrated to be reliable before production begins. To provide 
oversight at this juncture, NASA could provide Congress with 
information to verify that the following indicators have been met:

        <bullet>  Manufacturing processes have been demonstrated;

        <bullet>  Production representative prototypes have been built;

        <bullet>  Production representative prototypes have been tested 
        and have achieved reliability goals;

        <bullet>  Production representative prototypes have been 
        demonstrated in an operational environment through testing;

        <bullet>  Statistical process control data have been collected;

        <bullet>  Critical processes have been demonstrated to be 
        capable and that they are in statistical control;

        <bullet>  A decision review is conducted following completion 
        of the production readiness review.

    Over the past two years, we have recommended that NASA incorporate 
a knowledge-based approach in its policies and take steps to implement 
this type of approach in its programs and projects.\8\ NASA has 
incorporated some knowledge-based concepts into its acquisition 
policies. For example, NASA now requires a decision review between each 
major phase of the acquisition life cycle and has established general 
entrance and success criteria for the decision reviews. In addition, we 
have reported that this type of approach is being embraced by the Ares 
I project.
---------------------------------------------------------------------------
    \8\ GAO, NASA: Implementing a Knowledge-Based Acquisition Framework 
Could Lead to Better Investment Decisions and Project Outcomes, GAO-06-
218 (Washington, D.C.: Dec. 21, 2005); GAO, NASA: Long-Term Commitment 
to and Investment in Space Exploration Program Requires More Knowledge, 
GAO-06-817R (Washington, D.C.: July 17, 2006); and GAO, NASA's James 
Webb Space Telescope: Knowledge-Based Acquisition Approach Key to 
Addressing Program Challenges, GAO-06-634 (Washington, D.C.: July 14, 
2006).
---------------------------------------------------------------------------

Concluding Observations

    In conclusion, the President's Vision for Space Exploration is an 
ambitious effort, not just because there will be technical and design 
challenges to building systems needed to achieve the Vision's goals, 
but because there are limited resources within which this can be 
accomplished. Moreover, the long-term nature of the Vision means that 
commitments for funding and to the goals of the Vision will need to be 
sustained across presidential administrations and changes in 
congressional leadership. For these reasons, it is exceedingly 
important that the right decisions are made early on and that decision-
makers have the right knowledge going forward so that they can make 
informed investment decisions.
    In looking at the first major investments, the Ares I and Orion 
projects, it is important to recognize that they are risky endeavors, 
largely due to their complexity, scope, and interdependencies. It is 
also important to recognize that the desire to minimize the gap in 
human space flight adds considerable risk, since it could limit NASA's 
ability to study emerging problems and pursue alternative ways of 
addressing them. For these reasons, as well as the magnitude of 
investment at stake, it is imperative that NASA be realistic and open 
about the progress it is making and to be willing to make changes to 
the architecture and design if technical problems cannot be solved 
without overly compromising performance. Additionally, Congress needs 
to be well-informed about the extent to which knowledge gaps remain and 
what tradeoffs or additional resources are needed to close those gaps 
and to support changes if they are determined to be necessary. The 
upcoming preliminary design review milestones represent perhaps the 
most critical juncture where these assessments can take place and where 
hard decisions can be made as to whether the programs should proceed 
forward. It may well be the last opportunity to make significant 
adjustments before billions of dollars are spent and long-term 
commitments become solidified.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you may have at this time.
    Individuals making key contributions to this statement include 
James L. Morrison, Meredith A. Kimmitt, Lily Chin, Neil Feldman, Rachel 
Girshick, Shelby S. Oakley, and John S. Warren, Jr.

                   Biography for Cristina T. Chaplain
    Ms. Chaplain currently serves as a Director, Acquisition and 
Sourcing Management, at the U.S. Government Accountability Office. She 
has responsibility for GAO assessments of military and civilian space 
acquisitions, other National Aeronautical Space Administration 
programs, and DOD space science and technology programs. Ms. Chaplain 
has also led a variety of DOD-wide contracting-related and best 
practice evaluations for the GAO. Before her current position, Ms. 
Chaplain worked with GAO's financial management and information 
technology teams. Ms. Chaplain has been with GAO for 17 years. She 
received a Bachelor's degree, magna cum laude, International Relations 
from Boston University and a Masters Degree in Journalism from Columbia 
University.

    Chairman Udall. Thank you very much. Dr. Hinners, the floor 
is yours.

    STATEMENT OF DR. NOEL W. HINNERS, INDEPENDENT CONSULTANT

    Dr. Hinners. Good morning, Mr. Chairman, Members of the 
Subcommittee. I am pleased to be here today to share with you 
some of my perceptions of aspects of NASA's Exploration 
Program. Those include the incorporation of science in 
exploration, the current architecture, and international 
cooperation.
    Mr. Feeney, I appreciate your recognition of the Gator. I 
also propose that the Gator might be a good logo for the 
Congressional witness protection program.
    Ever since Sputnik, there has been a not always 
constructive tension between space science and human space 
flight. This is based on the fact that they are largely two 
different cultures driven by different motivations. Each has 
much to offer the other as was early demonstrated in the Apollo 
program during which incredible leaps of scientific knowledge 
accrued, despite the fact that Apollo was politically 
motivated.
    Science also became a major component of Skylab, Shuttle, 
Space Lab, and the International Space Station. The National 
Research Council Space Studies Board undertook a major review 
which I had the honor of chairing of science to human space 
flight for inhuman space flight in the 1990s with the goal of 
improving science contributions to human space flight and 
gaining from it. In conducting the study, it became evident 
that there are management principles that, if followed, improve 
the return on investment. Those formed part of the basis of the 
management recommendations in the recent Space Studies Board 
Report, The Scientific Context for the Exploration of the Moon.
    They were extended to account for specifics of the proposed 
lunar exploration architecture. Briefly we propose that NASA 
develop an integrated human robotic program, recognizing the 
incredible leap of capability in robotics as evidenced by the 
current Mars exploration rovers. Making clear the priority 
between multiple goals of exploration is essential to 
minimizing misunderstandings, for example, a lunar outpost 
primarily as a stepping stone preparation for eventual Mars 
human exploration versus sortie missions which are primarily 
for science benefit.
    Establishing an Apollo-style management structure can help 
in productively merging the two cultures of science and human 
space flight. Given the almost 50 years between Apollo and 
current plans for return to the Moon by 2020 or so, it is 
imperative to bring advanced technology and instrumentation 
into play both for lunar surface applications and for upgrading 
the capability to analyze return samples. Many of these 
recommendations have major budget implications for both NASA's 
exploration mission and science mission directorates. Given the 
already-stressed NASA budget, it is not at all clear that NASA 
can implement an effective lunar exploration program. Its goals 
are more ambitious than Apollo, yet without the generous 
funding that enabled Apollo. A go-as-you-pay philosophy will 
ultimately cost much more than an optimally funded program as 
we have so painfully seen with the International Space Station.
    The vision for space exploration contains a goal eventually 
exploring Mars with humans, a goal that today is impossible to 
accomplish in a technical, if not budgetary, sense. The lunar 
architecture for exploration is then based largely on the 
precept of using an incremental approach to developing the 
eventual capability of exploring Mars with humans. The overall 
planning implies a leap from lunar exploration to going to Mars 
some time in the decade of the '30s. Given that the lunar 
program can develop only a very small part of the capability to 
explore Mars, the absence of a step-wise approach using, for 
example, missions to libration points and/or asteroids, begs 
for development of a total exploration architecture. Such 
should include a lunar exit strategy that will avoid the kinds 
of issues we now face in trying to transition from the Shuttle 
and the Space Station.
    We must not ignore the contributions we have made to 
eventual human exploration of Mars by the Robotic Mars 
Exploration Program. It is a highlight of NASA's programs, one 
that has truly captured the public interest. It is revealing a 
Mars not envisioned a short four years ago and provides further 
reason to believe that Mars holds the greatest likelihood of 
advancing our understanding for the potential of life 
originating elsewhere than on Earth. Recent NASA cuts to that 
program are ill-founded and have the prospects for doing 
serious damage, just as the plans for a Mars sample return have 
been rejuvenated. A well-structured, properly funded and thus 
vigorous Mars robotic program will add immensely to determining 
what it is that humans will eventually do on Mars, and as 
important, obtain data critical to determining the very 
feasibility of such.
    NASA's program plans are clearly ambitious. Required and 
desirable is that many of them be done as international 
collaborations. This can take advantage of both the increased 
abilities and desires of potential partners. Obtaining program 
commitments and proper budgetary support in which Congress can 
help and relieving some of the more burdensome aspects of the 
International Traffic and Arms Regulations can go far to help 
bring about productive collaborations.
    Thank you, Mr. Chairman, Members of the Subcommittee.
    [The prepared statement of Dr. Hinners follows:]
                 Prepared Statement of Noel W. Hinners
    Mr. Chairman and Members of the Subcommittee, I thank you for 
inviting me here to testify today. I am Noel Hinners, an independent 
consultant on aerospace, working primarily with NASA and several of its 
contractor community. Starting in 1963, I have had the incredible 
privilege of participating in the Nation's human and robotic space 
program, first on the science associated with Apollo and subsequently 
as NASA's Associate Administrator for Space Science (1974-1979) and 
Director of Goddard Space Flight Center (1982-1987). Between those two 
careers, I saw firsthand the public impact of our space and aeronautics 
programs as Director of the Smithsonian National Air and Space Museum 
(1979-1982) and the inspirational influence on students in association 
with my activity at the University of Colorado's Laboratory for 
Atmospheric and Space Physics and its Aerospace Engineering Sciences 
Department. A post-NASA career with Lockheed Martin's Civil Space 
taught me the importance, intricacies and perspective of working with 
NASA's contractor community. In aggregate, these experiences molded me 
into an advocate of both human and robotic space exploration and 
provided the foundation for a belief that a synergistic collaboration 
between the historically two cultures is in the Nation's best interest.
    I will now address the specific questions you posed in your 
invitation letter requesting that I testify before you today.

Management of Science in the Vision for Space Exploration

    You asked that I elaborate on the management recommendations in The 
Scientific Context for the Exploration of the Moon that might optimize 
the scientific return of the Vision for Space Exploration (VSE) and to 
discuss the lessons learned from the Apollo program. Before going into 
the specifics, I'd like first to set the context for the 
recommendations.
    The management recommendations are based largely upon the third 
report issued in the 1990's by the NRC Space Studies Board Committee on 
Human Exploration (CHEX), a committee that I chaired. The impetus for 
the CHEX study was the short-lived Space Exploration Initiative (SEI) 
of 1989 and although the SEI did not survive we felt that it was only a 
matter of time before a reincarnation would occur. We thus took 
advantage of the ``lull'' and produced our study. The recent re-look 
convinces me that the conclusions remain valid and do indeed apply to 
the VSE.
    Our overall intent was to better define the role of science in 
human space flight and to reduce the historical friction existing 
between the ``two cultures'' of robotic and human space flight. It was 
our conviction that by so doing there would be improvement in the 
science return from and contributions to human space exploration. The 
management report was not initially envisioned; rather it was an 
outgrowth of our two earlier studies on science prerequisites for and 
science enabled by human exploration during which it became apparent 
that the quality of the science accomplished on human space flight 
programs was in large part a function of how it was organized and 
implemented. Thus we (qualitatively) assessed the science accomplished 
on Apollo, Apollo Soyuz Test Project (ASTP), Skylab and Shuttle/
Spacelab and correlated our findings with the management structures and 
funding sources. The overall conclusion was that the Apollo Program, 
after many fits and starts in the early to mid-60's, evolved an 
excellent model for productively integrating science requirements and 
implementation into human space flight and that deviations from that 
model contributed to a lessening of the science quality and in the 
overall satisfaction of the science community.
    It is instructive to elucidate some key aspects of the Apollo model 
to aid in assessing the applicability to the VSE. Those include the 
organizational elements and funding. Human space flight in Apollo was 
the purview of the Office of Manned Space Flight (OMSF) under Dr. 
George Mueller. It in turn had an experienced, technically and 
managerially strong Apollo Program Office at Headquarters, led through 
Apollo 11 by Apollo Program Director Gen. Sam Phillips and subsequently 
by Dr. Rocco Petrone. The Apollo Program Office included an Apollo 
Lunar Exploration Office which incorporated a novel management 
approach: the science and engineering staff of the Apollo Lunar 
Exploration Office reported jointly to the Office of Space Science and 
Applications (OSSA) and to the OMSF. Science goals, objectives, 
prioritization and requirements, science and scientist selection and 
analysis of data were the prerogative of OSSA and conformed to its 
established policies and procedures. Mission implementation, including 
engineering and operations, was the responsibility of the OMSF. This 
arrangement proved on balance to be congenial and cooperative. It does 
not mean that there were no disagreements or frustrations but there 
were clear paths to issue resolution with no ambiguity on decision 
authority: Dr. Mueller. He was advised by his Manned Space Flight 
Experiments Board which dealt with science, technology and engineering 
experiments and which included representatives from the science and 
technology organizations. Dr. Mueller also had a Science and Technology 
Advisory Committee led by Dr. Charles Townes that provided advice 
directly to him on science in the Apollo program. In Dr. Mueller's 
words: ``I set up the Science and Technology Advisory Committee to be 
sure that we incorporated the maximum and the best possible science in 
the Apollo program.''
    Many were the vigorous discussions of what to do on the Moon, how 
to do it and where to go. The mission implementation was largely 
through the Johnson Space Center. A key success element in the view of 
CHEX was the establishment at JSC of a science division headed by an 
experienced scientist. This gave an in-house voice to science and 
provided expert liaison with the OSSA and the external science 
community. This was most effectively augmented by the establishment of 
the geographically adjacent Lunar Science Institute (now the Lunar and 
Planetary Institute). These two organizational elements provided a 
degree of science ownership and buy-in in an otherwise engineering 
dominated culture.
    Returning now to the report, the first management recommendation 
is:

    NASA should increase the potential to successfully accomplish 
science in the VSE by (1) developing an integrated human/robotic 
science strategy,(2) clearly stating where science fits in the 
Exploration Systems Mission Directorate's (ESMD's) goals and 
priorities, and (3) establishing a science office embedded in the ESMD 
to plan and implement science in the VSE. Following the Apollo model, 
such an office should report jointly to the Science Mission Directorate 
and the ESMD, with the science office controlling the proven end-to-end 
science process.

    There is a process underway in NASA to develop such an integrated 
human/robotic science strategy. The Lunar Reconnaissance Orbiter, 
scheduled for launch late this year, has finally had its management 
approach resolved with ESMD responsible for the first year of 
operations and data collection needed to satisfy their requirements. 
LRO will then be transferred to SMD for continued use as a science 
mission. Among numerous collaborative efforts within NASA there is an 
ESMD/SMD Outpost Science and Exploration Working Group. The recently 
established NASA Lunar Science Institute is jointly supported by SMD 
and ESMD. Further, the Lunar Exploration Analysis Group brings together 
both internal and external scientists into ESMD/SMD planning. It is 
groups such as these that will help clarify the relative roles of lunar 
science and exploration preparation.
    An office equivalent to the Apollo Lunar Exploration Office does 
not exist within ESMD. I recognize that we are over a decade away from 
implementation of the human element of lunar exploration. However, 
establishing the nucleus of such an office now could do much to 
establish the path, clarify processes and give further impetus to the 
integration of science into exploration. It would solidify a management 
structure that just might survive the all-to-frequent changes in 
leadership at the AA level in NASA.
    Recommendation 2 addresses the need to initiate early the process 
of landing site selection and mission planning. This does not mean 
identifying now the specific sites where crews will land but should 
include developing criteria that can lead to optimization of the 
science in the context of the overall exploration goals and priorities. 
Such will be significantly different for sortie missions and an 
outpost. Sortie missions, to the degree that they occur, will be 
largely science-driven while an outpost will be driven as much or more 
so by exploration preparation. Site selection will be an ongoing 
process with results influenced greatly by data yet to be acquired 
(e.g., is there really accessible water in the polar regions and is In 
Situ Resource Utilization a practical objective?). It is possible that 
the requirements for ``Exploration Preparation,'' a major VSE theme, 
can be met by one of a large number of lunar site locations and that 
the science optimization can play a prime role in which specific 
location is finally selected. The considerations for an outpost 
location should include the potential to serve as a servicing and 
laboratory node for robotic exploration.
    Recommendation 3 relates to the need to identify and develop 
advanced technology and instrumentation. This recognizes that there 
does not exist an inventory of applicable technology and capability. 
This results from what will be, by 2019, close to a 50-year gap in 
human and most robotic lunar exploration. It also derives from a much 
changed capability from the days of Apollo and envisions a more 
collaborative robotic/human effort. For example, much of the Apollo 
lunar surface traverse time was used in going to locations selected on 
the basis of relatively low resolution, panchromatic photography. 
Today, through the use of instrumentation such as on LRO and the use of 
Mars Exploration Rover (MER) type rovers, one could identify in detail 
locations worthy of detailed follow-up by astronauts. As a thought 
experiment, think of the MER sites on Mars and how efficiently we could 
explore those sites with astronauts. Similarly, emplacement of some 
geophysical instrumentation can be done robotically rather than 
primarily by Apollo ALSEP-type deployments; indeed, that is the basis 
of the recent SMD announcement of initiation of two elements of a 
robotically emplaced geophysical network. If a pressurized crewed rover 
is developed, the potential to use it in a robotic mode when not crewed 
can greatly extend the science utility of either an outpost or sortie 
missions.
    Our last recommendation, 4, urges a thorough review and subsequent 
upgrading of the capability to collect, preserve, analyze and curate 
lunar samples both on the Moon and upon return of the samples to Earth. 
This is based on the fact that the major science return from Apollo was 
in the immediate and ongoing analyses of the samples, an activity that 
continues today. The Lunar Curatorial Facility at JSC is the key to 
this. While it has maintained a degree of modernity through the ongoing 
curation of Apollo samples, meteorites, cosmic dust and solar wind, it 
is not prepared to handle the ``next generation'' of acquired lunar 
samples. An outpost on the Moon will add further challenge in meeting 
the need for conducting preliminary analyses and curation on the Moon, 
both to enable real-time feedback into the exploration and to ``high-
grade'' samples for return to Earth.
    I will now address the second tangible, funding. This was not an 
inherent part of the NRC study yet the budgetary implications of the 
study are enormous with major implications for the scientific success 
or lack thereof in the exploration program.
    Funding of lunar science in conjunction with human exploration in 
the VSE is a major problem not yet overtly faced by NASA. It is a 
latent issue guaranteed to create major tensions some five or so years 
downstream and can negate the best of intentions. This problem did not 
exist in Apollo; had it, I can only believe that Apollo would not have 
been nearly as successful as turned out. Apollo was extremely well 
funded and it paid for the implementation of essentially all of the 
Apollo science (OSSA funded the science and Apollo site-certification 
robotic precursors such as the Rangers, Surveyors and Lunar Orbiters). 
Today ESMD is having difficulty adequately funding (on a rational 
development schedule) the infrastructure basics of the future lunar 
architecture: Ares I and V, Orion and Altair. Until those developments 
are largely completed, there is not much room to start development of 
``auxiliary'' equipment, i.e., that which allows one to use the 
infrastructure for a purpose.
    The seeds of the science related funding problem are evident in the 
elements of the lunar architecture. The priority is to establish a 
lunar outpost with the goal of learning how to live and operate for 
extended time on a planetary surface. It is stated that such an outpost 
provides needed experience as a feed-forward to eventual human 
exploration of Mars. Many of the presumed auxiliary equipments 
potentially useful for scientific exploration--rovers, advanced 
habitats, advanced EVA suits, lab facilities, etc.--are ``open for 
contribution'' from potential international partners. Let us hope that 
such contributions are offered in a timely manner. An ancillary, not 
insignificant, funding issue is recognizable in the discussions of 
``sortie'' missions. Sorties are advocated by the science community to 
accomplish the exploration of multiple, geologically diverse lunar 
sites for relatively short time periods (up to seven days); this is 
essentially an extension of Apollo type missions. ESMD indicates that 
it is planning to have a capability in the Lunar Surface Access Module, 
(LSAM, recently named Altair), to conduct sortie missions. Consider, 
however, that the Administrator of NASA has noted many times that we 
are not returning to the Moon for science. Fair enough (although the 
Lunar Architecture Global Exploration Strategy lists ``Science 
Knowledge'' as one of the prime themes). At the Tempe lunar workshop in 
February of 2007, the Administrator (via call-in) noted that scientists 
are free to buy a sortie mission at some $2B per sortie which, he 
noted, is similar to the cost of a Science Mission Directorate flagship 
mission. I do not anticipate that SMD will pay for such a privilege 
very frequently given that the bulk of lunar science is not 
demonstrably competitive with the other space science at that level of 
funding. I note that one might make the case for the science value of a 
sortie mission to the South Pole-Aitken Basin which if done robotically 
might well be in the flagship category. I do not want to leave an 
impression that there is not good lunar science to be done. There is, 
as is detailed in the NRC report The Scientific Context for the 
Exploration of the Moon, and much of which can and ought to be done 
robotically. Indeed, the recently proposed on-going lunar robotic 
mission budget of ?$60M per year, in conjunction with international 
missions, is a reasonable start on that approach. How much lunar 
science is worth doing depends on its relative competitiveness with all 
that is on the plate in SMD. This is the basis of a recommendation in 
the 2005 NRC report Science in NASA's Vision for Space Exploration: 
``Science that is enabled by human exploration is properly competed 
directly with ``decadal survey'' science and then ranked and 
prioritized according to the same rigorous criteria.''
    There is no implication in the above that either the NASA 
Administrator or those in ESMD are anti-science. Quite the contrary: 
Administrator Griffin has unabashedly supported Earth and space science 
and ESMD is working closely with SMD to understand and define a science 
component for exploration. It is simply a matter of facing a stark 
fact: NASA's budget today and in the outlook is grossly inadequate to 
enable NASA to properly fund the human lunar exploration to accomplish 
significant science. The import of that conclusion is considerable--and 
ironic: we are not returning to the Moon to do science yet the conduct 
of science is virtually the singular major activity associated with 
lunar exploration other than attending to the mechanics of living there 
(in situ resource utilization has yet to be convincingly developed as a 
near-term major activity either in an engineering or economic sense).

Observations on the Exploration Architecture

    The second topic I have been asked to address is my perspective 
regarding the exploration architecture and how it relates to preparing 
for exploration beyond the Moon. As a starting point I take the NASA 
Authorization Act of 2005: ``The Administrator shall establish a 
program to develop a sustained human presence on the Moon, including a 
robust precursor program to promote exploration, science, commerce and 
U.S. preeminence in space, and as a stepping stone to future 
exploration of Mars and other destinations.'' This indeed sets the 
high-level goal. I and many others assume Mars as the prime and 
tantalizing future destination yet also include Near Earth Objects 
(NEOs) and Sun-Earth libration points (with astronomical observatory 
servicing/construction potential) as among other feasible and desirable 
destinations for both science and stepping stone reasons. The Global 
Exploration Strategy theme of ``Exploration Preparation'' is supportive 
of this in theory yet the Exploration Systems Architecture Study of 
Nov. 2005 contains no mention of NEOs or Sun-Earth libration points. It 
thus implies a leap directly from the Moon to Mars.
    How does lunar exploration serve as a stepping stone? In the lunar 
architecture plans (e.g., LAT2) there is an incorporation of Moon to 
Mars stepping-stone elements and the very selection of a focus on 
outposts instead of sortie missions is based on the greater 
contribution of outposts vis-a-vis sorties to exploration beyond the 
Moon. That said, I believe that we do not yet have as comprehensive an 
understanding as one should have. of how the Moon--or any other pre-
Mars destination--can optimally contribute to getting to Mars. There 
does not today exist a inclusive, fully-developed, accepted long-range 
(e.g., 30-year) architecture for exploration, a void that hinders more 
efficiently structuring a lunar architecture and strategy and getting 
the most out of it for ``Exploration Preparation.'' In an ideal world 
in which one aspires to the human exploration of Mars as the goal for 
which we are incrementally preparing, one would first establish the 
requirements for Martian human exploration and feed them back into 
``precursor'' architectures for the Moon and other pre-Mars 
destinations and for preparatory ``precursor'' robotic exploration of 
Mars. Recognizing that need, last year the NASA Administrator asked 
that an up-dated Mars reference architecture be developed. Work was 
initiated and an excellent start made. It is thus unfortunate that the 
work on an updated Mars Design Reference Mission has been halted just 
when it was starting to be productive in developing requirements, 
assessing risks and identifying technology and precursor needs that 
could be used to guide precursor lunar and other architectures. It is 
not NASA's choice to stop: it is a direct result of language in the 
Appropriations Act of 2008: ``Finally, bill language is included, as 
proposed by the House, prohibiting funding of any research, 
development, or demonstration activities related exclusively to the 
human exploration of Mars.'' That direction is not in the best 
interests of structuring an integrated human exploration program 
architecture that gives the Nation an optimum return on its investment. 
I urge the Committee to reverse the restriction and let NASA conduct 
those studies essential to providing the best possible total, 
integrated human exploration program. Indeed, I would go so far as to 
suggest the Committee direct NASA to conduct such studies and 
demonstrate to the Congress that there is a logical, economically 
feasible, technically effective progression of human exploration 
endeavors that is efficient and in consonance with the Authorization of 
2005.
    The lack of an updated detailed Mars architecture does not prohibit 
top-level strategizing and planning for exploration beyond the Moon. 
Indeed, NASA has taken a major first step in that direction in its 
determination that the basic launch capability being structured for the 
return to the Moon must have applicability to Mars. The planned heavy-
lift cargo vehicle Ares V clearly fits that requirement. There are many 
other things we know today that are obviously required and that have 
feed-back implications: long-duration human flight (up to three years) 
with attendant crew-related questions dealing with radiation, micro-
gravity, isolation, health and safety, etc., and those treating the 
hardware and software systems that support the exploration. There are 
``operational'' considerations: aerocapture vs. direct entry, the 
actual entry, descent and landing; the potential use of in situ 
resources to reduce mass (thus cost), logistics, science planning, the 
effects of dust, possible toxicity of Martian soil, mobility and 
trafficability, etc.
    A lunar outpost-centric program can contribute to learning about 
the long-duration planetary surface operations component of 
``Exploration Preparation.'' It will not contribute to many of the key 
elements noted above. The lander, Altair, e.g., has virtually no 
applicability to landing humans on Mars. Today, budgets aside, we dare 
not embark on a Mars human exploration program despite some ill-founded 
hallucinatory calls external to NASA for so doing. We simply cannot do 
it. As the top example of non-readiness, consider safe and reliable 
long-duration space flight such as required for Mars. We simply do not 
have crews or crew systems that are ``flight qualified'' for three year 
sojourns. Short-duration flights to the Moon will not add to that 
development any more that Apollo did. Jumping right to development of a 
three-year Mars system, while theoretically feasible, is not 
reasonable. Rather, a step-wise, evolutionary development building on 
Orion in a ``Block X'' approach would be more rational. This is where a 
long-range, comprehensive exploration architecture development might 
show, for example, how using first the International Space Station as a 
realistic prototyping local (getting some ROI on the  $35B 
investment), thence proceeding to libration missions of  a month's 
duration followed by longer duration asteroid missions of several 
months leads more realistically to Mars. Such a sequence could be 
accomplished over a span of some 10 to 15 years. It is also consistent 
with an obvious conclusion that one gets the most data at lowest cost 
on Earth, and progressively less data more expensively as one moves to 
LEO, Moon, NEO or L-point and, finally, Mars. The obvious question is 
not so much one of can such a plan be constructed; rather it is can 
such a plan be implemented while conducting a lunar program that 
appears capable of consuming the entire available budget through at 
least 2030. This question is part of what lurks behind the sometimes 
heard phrase ``stuck on the Moon.'' Ideally the lunar program would be 
constructed and implemented in a way that allows for simultaneous 
development of non-lunar, pre-Mars missions. Budget reality might well 
preclude that approach, a likelihood that also applies to the 
simultaneous development of a Mars capability as implied in the ESAS. 
All of this suggests avoiding a large build-up of lunar infrastructure. 
In any case, one should have a lunar program exit strategy: when will 
the lunar program provide the required data in support of ``Exploration 
Preparation'' and how does one disengage from the Moon? Hoped for turn-
over of lunar infrastructure to commercial and/or international 
partners does not seem particularly realistic.
    Thus far I've discussed mostly the human mission aspect of 
exploration architectures. There is a corollary aspect that begs 
discussion and that is the role of robotics. Noted above is the new 
lunar robotic program and ESMD lunar thinking considers using robotics 
in association with an outpost or using crewed rovers in a robotic mode 
when not crewed. This is all to the good and is consistent with our 
recommendation in The Scientific Context for the Exploration of the 
Moon for development on an integrated human/robotic program. It thus 
seems logical that a similar approach would apply to Mars for which 
today we can conduct only robotic exploration.
    What is the relationship of the Mars Exploration Program (MEP) to 
eventual human exploration? It provides, or can provide, two critical 
contributions. First, science. As is the case with the Moon, science 
will be a major activity of human exploration of Mars as is noted in 
the recent report of the Human Exploration of Mars Science Working 
Group. The MEP of the last decade has been a remarkable demonstration 
of how rapidly and productively science progresses when there is a 
strategically guided, methodical, scientifically focused, superbly 
engineered program. In accord with this, the Appropriations Act of 2008 
makes clear the Congressional intent that there continues to be a 
strong MEP with missions at every Mars opportunity. Such is apparently 
not to be. Testimony at the March 13, 2008 hearing of this committee 
addressed the major cutting of the MEP in the President's proposed 2009 
budget and the damage that will accrue to the MEP. While adding my 
congratulations to Dr. Alan Stern for doing much to improve the overall 
status of space science, I do not believe that the cuts to the MEP are 
either warranted or acceptable. I come to that conclusion based on the 
observation that the MEP is arguably NASA's most successful robotic 
exploration program in terms of continued, step-wise public-engaging 
exploration (I note the difference between a program and individual 
projects such as Hubble and Cassini). It has taken a decade of Mars 
missions to develop the engineering and scientific communities able to 
both implement and understand how to explore Mars. That capability can 
be lost in just a couple of years. The ``case study'' of the potential 
damage can be readily seen as NASA is now working hard and paying the 
price to recreate an engineering workforce capable of developing the 
Ares vehicles, Orion and Altair. The new NASA Lunar Science Institute 
was formed partly in order to help recreate a community of lunar 
scientists.
    There is further a direct link between the MEP and the needs of the 
VSE. We need to keep Mars in the public eye as an ongoing indication of 
the import of Mars, regardless of the VSE; the public is having a 
difficult time understanding where the return to the Moon fits in. 
Mars, along with Earth, is a special planet, not one that should be 
subject to equipartition of attention in the solar system. In the MEP, 
and supported by Dr. Stern, is a Mars Sample Return (MSR) mission 
envisioned towards the end of the next decade. Adequate funding for 
that is tenuous as you heard on March 13. A sample return from Mars 
will have incredible science value. Moreover, it will provide 
absolutely essential precursor information for eventual human 
exploration. Specifically, we must understand the precise nature of the 
highly oxidizing Martian soil, will it be toxic to humans and, if so, 
how does one counter that? What is the nature of the dust particles in 
an engineering sense. Just as dust is a major concern on the Moon, it 
is of equal or greater concern on Mars (with active dust storms) and 
one must have returned sample to adequately treat the issues. One might 
argue that human exploration of Mars is a long way off, so what's the 
rush? My response is that the sooner we know and deal with what might 
be real impediments to human exploration of Mars, the better. Waiting 
to find out until 2030 or so would be irresponsible given the 
likelihood that a significant technology development may be required to 
deal with the results (note that several years ago there was active 
participation of ESMD in the MEP but was stopped due to budget issues). 
Lastly, an MSR mission will be proof-of-concept of a Mars round-trip, a 
not inconsequential demonstration. Many will be the ``Oh my goodness'' 
aspects that will need to be considered before we commit to the human 
adventure.

International Cooperation: Opportunities and Challenges

    The final topic you asked me to address relates to the potential 
opportunities and challenges of international cooperation for human 
exploration beyond low-Earth orbit and what things might NASA and 
Congress do now to enhance the potential. The opportunities are in a 
sense obvious: we cannot afford the exploration we'd like to implement; 
without significant international contributions the architecture is 
moot and must be scaled back or stretched out to the point of marginal 
value for the investment. The latter can force one into the approach of 
``go as you pay'' which is deceptively attractive. There is, however, 
an ugly potential downside of ``go as you pay'' in that if there is not 
enough ``pay,'' the largest budget increment goes to sustaining the 
infrastructure on Earth. The drawn-out ``level-funding'' development of 
the ISS gives some hint of that impact.
    Many of the world's space faring nations have developed 
sufficiently in skill and desire that we should look to them as 
desirable partners for their own sake and not simply as a source of 
funding to solve our budget shortfalls after we have announced ``Our 
Vision.'' Bringing potential partners in early, in the concept 
formulation phase where they contribute to structuring the basic 
approach strikes me as the right way to approach international 
cooperation. That is indeed the way NASA is now approaching the 
possible international participation in a Mars sample return mission 
(the recent budget cuts in the MEP do not provide confidence to 
potential partners that we are serious in our commitment). The Global 
Exploration Strategy Framework for Cooperation certainly contains a 
basis for building to eventual closer collaboration.
    As we develop more and more collaborative programs, today's trend, 
it is likely that we shall have to develop a degree of trust that goes 
beyond what we are historically comfortable with. It is always good if 
collaborations are not on what is called the ``critical path'' in which 
the failure of one party to produce sinks the ship. This becomes more 
important the larger the program and its collaboration dependency such 
as in the VSE or MSR. While there are few guarantees for these 
ventures, having overt, consistent political support from the Congress 
and Administration can substantially enhance the stability and 
probability of success. That kind of support was a stabilizing element 
of the cooperation with the Soviet Union (later Russia) in the Apollo 
Soyuz Test Project and ISS program.
    The politically motivated and largely successful historic 
cooperation with the Soviet Union naturally raises the question of 
China, a country clearly aspiring to emulate much of what we do or have 
done. It is worth examining and questioning whether there is a 
comparable role with China to what we did with the Soviet Union at the 
height of the Cold War--recognizing that we are absent much of the Cold 
War rhetoric and threats. However, there is obviously an embedded 
political issue regarding military implications and I leave that for 
others to wrestle with.
    There does remain a thorn in the side of international cooperation 
and that is the ITAR regulations. While few of us would argue that ITAR 
does not serve a good purpose in preventing a damaging transfer of 
technology, the restrictions seem at times to be excessive and 
unnecessarily make it more difficult to obtain the ease of dialogue 
necessary for effective cooperation and on occasion lead to a vocal 
negative response from potential partners. Congressional support for 
assessing and appropriately easing the restrictions would be welcome.
    Mr. Chairman and Subcommittee Members, you have my appreciation for 
the opportunity to testify today. I hope that my comments are taken as 
an attempt to contribute to improving the long-term outlook for the 
NASA space programs in an extremely challenging budgetary and technical 
environment.

    Chairman Udall. Dr. Thornton.

 STATEMENT OF DR. KATHRYN C. THORNTON, PROFESSOR AND ASSOCIATE 
DEAN, SCHOOL OF ENGINEERING AND APPLIED SCIENCES, UNIVERSITY OF 
                            VIRGINIA

    Dr. Thornton. Mr. Chairman, thank you for inviting me to be 
here today. My name is Kathryn Thornton. I am a Professor at 
the University of Virginia, but I appear here today not in my 
faculty role but as an organizer and co-chair of an independent 
workshop entitled Examining the Vision, Balancing Exploration 
and Science that was held last February at Stanford University. 
The workshop was co-hosted by Stanford University Department of 
Aeronautics and Astronautics and the Planetary Society. Other 
organizers were co-chair Scott Hubbard from Stanford 
University, Lou Friedman of The Planetary Society, and Wes 
Huntress of the Carnegie Institution of Washington.
    The intent of the workshop was to critically examine the 
current implementation of the Vision for Space Exploration as 
announced by President Bush in January 2004. The Vision as 
originally put forth was rich in scientific goals aimed at 
finding life elsewhere in the universe pointed toward Mars as 
the ultimate target for human exploration and couched 
exploration of the Moon in those terms. Four years later, 
implementation of the vision has focused on a small subset of 
the original concepts: finishing the International Space 
Station for our international partners, retiring the Space 
Shuttle by 2010, developing new launch vehicles and a new crew 
vehicle, and the Moon as the near-term goal of human 
exploration.
    Much of the originally planned funding for the human 
exploration mandates has not materialized and instead has come 
from science, aeronautics, and technology.
    With these concerns as the motivation, the workshop was 
planned as a two-day, behind-closed-doors discussion of the 
goals and implementation of the Presidential directive, and the 
issue of balance between exploration and science. Organizers 
sought to bring together scientists, astronauts, engineers, 
policy analysts, and industry executives in a single 
conversation where insights across traditional boundaries could 
occur. Invitations were extended to individuals whom the 
organizers felt would bring great diversity of thought, as well 
as expertise. Each participant was invited to take off his or 
her corporate, institutional or advocate hat, and engage in 
discussion that will help this nation have the best possible 
space exploration program. To the extent that the outcome might 
be critical of current plans, progress, or goals, criticism was 
intended to be constructive and consistent with strong support 
for space exploration. As expected, lively discussions ensued.
    There was some doubt that fifty individuals, selected 
specifically for their differing specialties and divergent 
views, could reach a consensus on the goals and directions for 
America's space exploration program over the course of a two-
day workshop. Therefore there was no predetermined workshop 
report or product, but rather the expectation that these 
discussion would lead to further study and output in some form. 
Nevertheless, workshop participants did reach consensus on four 
substantive statements which in essence endorse the Vision as 
announced in 2004. Those statements are listed in my written 
testimony as well as in the workshop joint communique.
    I would like to expand on the workshop consensus from my 
own perspective. It is time for humans to go beyond low-Earth 
orbit. To be sure, the ISS must be completed in order to 
fulfill obligations to our international partners, but in the 
longer term the Space Shuttle and ISS serve to anchor humans in 
lower-Earth orbit, and orbiting the Earth, as thrilling as it 
is, is not exploring space. This nation must move forward with 
the development of a space transportation system that will do 
more than just orbit the Earth, but will enable humans to 
explore in space.
    Although Mars and beyond as the goal of human exploration 
is a consensus of workshop participants, the question of 
intermediate steps was debated at length with no overall 
agreement. A stepping stone approach to Mars might include 
sorties to the Moon, the Sun-Earth Lagrange points, near-Earth 
asteroids, and the Martian moons. The important point is that 
each of the stepping stones, whichever they may be, should 
advance the science and technology needed for the next, more 
ambitious objective and the eventual human exploration of Mars, 
and none should be considered as permanent outposts that would 
again anchor us in place for decades.
    Exploration should be goal driven, not schedule driven. 
Practical engineering for meeting exploration milestones is 
bound by three major constraints: budget, schedule, and 
requirements. If you change one of these three, the other two 
must change accordingly. Particularly if the budget is over-
constrained, either schedule or requirements must give. It is 
important to remain focused on the goal, not the schedule, and 
proceed as efficiently and safely as technology and budget will 
allow.
    Sustained human exploration requires international 
collaboration. We can debate the value of science objectives 
and exploration goals, but the value of international 
cooperation in space ventures over the last decade cannot be 
challenged. Inviting meaningful international participation in 
the exploration architecture may reduce cost, accelerate the 
timelines, provide additional capability, bring a measure of 
stability through numerous budget cycles and administrations, 
while engaging rivals and allies in a shared commitment to 
extend the boundaries of humankind into new domains.
    In summary, it is time to go beyond LEO with humans as 
explorers. To do so, we must have a space transportation system 
that will enable humans to travel to the Moon, Mars and beyond; 
without it any debate of destinations for human exploration is 
pointless. Finally, with the goal clearly in focus, budgets and 
schedules must be balanced for an affordable, sustainable and 
successful space exploration program.
    Mr. Chairman, I thank you and the Subcommittee for your 
staunch support of the Space Exploration Program and the 
opportunity to express my views today, and I would be pleased 
to answer any questions.
    [The prepared statement of Dr. Thornton follows:]
               Prepared Statement of Kathryn C. Thornton
    Chairman Udall, Ranking Member Feeney, and Members of the 
Subcommittee, thank you for inviting me to appear before you today. My 
name is Kathryn Thornton and I am a Professor and Associate Dean in the 
School of Engineering and Applied Science at the University of 
Virginia. I appear here this morning not in my faculty role but as an 
organizer and co-chair of an independent workshop entitled Examining 
the Vision: Balancing Exploration and Science held last February at 
Stanford University. The workshop was co-hosted by Stanford University 
Department of Aeronautics and Astronautics, and The Planetary Society. 
Other organizers were Co-Chair Professor G. Scott Hubbard from Stanford 
University, Dr. Louis Friedman of The Planetary Society, and Dr. Wesley 
T. Huntress, Jr., of the Carnegie Institution of Washington. The post-
workshop joint communique and a partial list of participants are 
attached.
    The intent of the workshop was to critically examine the current 
implementation of the Vision for Space Exploration as announced by 
President Bush in January 2004, especially to help prepare for a new 
Administration's consideration of its broad space program goals and 
plans. The Vision for Space Exploration in its original plan was a 
major redirection of the human space flight program with an 
accompanying emphasis on scientific exploration. Whatever changes might 
be made in its implementation in the next Administration, we wanted to 
identify, highlight and support the best parts of the current concept. 
Our goal was to create a report intended to be useful in the next stage 
of policy planning, and potentially to define follow-on studies of the 
issues.
    The Vision for Space Exploration provided specific targets, defined 
human and robotic exploration objectives and set timetables. The Vision 
as originally put forth was rich in scientific goals aimed at finding 
life elsewhere in the Universe. In addition, the Vision continually 
pointed toward Mars as the ultimate target for human exploration and 
couched exploration of the Moon in those terms. Four years later, 
implementation of the Vision has focused on a small subset of the 
original concept: finishing the International Space Station (ISS) for 
international partners, retiring the Space Shuttle by 2010 and 
developing new launch vehicles (Ares I and V) and a new crew vehicle 
(Orion), and the Moon as the near-term goal of human exploration.
    With the fixed requirements, fixed schedule and NASA's flat budget, 
funding to meet the Vision has come from science, aeronautics and 
technology. Aeronautics has been reduced radically, life sciences have 
been largely eliminated, the entire crosscutting technology budget has 
been redirected, and more than $3B over five years was taken from the 
space and Earth science budget. Much of the originally planned funding 
for the human exploration mandates has not materialized, while the cost 
of returning the Space Shuttle to flight and its impeding retirement 
has risen.
    With these concerns as the motivation, the workshop was planned as 
a two-day, behind-closed-doors discussion of the goals and 
implementation of the Presidential directive, and the issue of balance 
between exploration and science. Organizers sought to bring together 
scientists, astronauts, engineers, policy analysts, and industry 
executives in a single conversation where insights across traditional 
boundaries could occur.
    The discussions were organized around the following topics:

        1.  Scientific Exploration of the Universe, in particular the 
        role of a Mars Sample Return mission as a major milestone in 
        scientific and robotic exploration as well as a precursor for 
        human exploration.

        2.  The Earth Science and Climate Change: What should the U.S. 
        be doing to provide policy-makers with the best available 
        information.

        3.  Access to Low-Earth Orbit (LEO) and Beyond: Plans for and 
        capabilities of the Constellation system

        4.  The Role of Lunar Exploration in the human exploration 
        strategy

        5.  Human Missions to Mars

        6.  Alternative Destinations for Human Exploration

        7,  Humans and Robots in Exploration: when is a human the tool 
        of choice for solar system exploration

        8.  The Role of the Emerging Entrepreneurial Space Industry

        9.  International Collaboration in Space Exploration

    Invitations were extended to individuals whom the organizers felt 
would bring great diversity of thought, as well as expertise, on those 
topics. Each participant was invited to take off his or her corporate, 
institutional or advocate hat, and engage in discussion that will help 
this nation have the best possible space exploration program. To the 
extent that the outcome might be critical of the current plans, 
progress or goals, criticism was intended to be constructive and 
consistent with strong support for space exploration. As expected, 
lively discussions ensued.
    Pre-workshop reporting predicted that the outcome of the workshop 
would be a repudiation of at least some of major the goals of the 
Vision. There was some doubt that fifty individuals, selected 
specifically for their differing specialties and divergent views, could 
reach a consensus on the goals and directions for America's space 
exploration program over the course of a two day workshop. Therefore 
there was no predetermined workshop report or product, but rather the 
expectation that these discussion would lead to further study and 
output in some form. Nevertheless, workshop participants did reach 
consensus on the following statements which in essence endorse the 
Vision as announced in 2004.

        <bullet>  It is time to go beyond Low Earth Orbit (LEO) with 
        people as explorers. The purpose of sustained human exploration 
        is to go to Mars and beyond. The significance of the Moon and 
        other intermediate destinations is to serve as stepping stones 
        on the path to that goal.

        <bullet>  Human space exploration is undertaken to serve 
        national and international interests. It provides important 
        opportunities to advance science, but science is not the 
        primary motivation.

        <bullet>  Sustained human exploration requires enhanced 
        international collaboration and offers the United States an 
        opportunity for global leadership.

        <bullet>  NASA has not received the budget increases to support 
        the mandated human exploration program as well as other vital 
        parts of the NASA portfolio, including space science, 
        aeronautics, technology requirements, and especially Earth 
        observations, given the urgency of global climate change.

    These statements represent consensus among all workshop 
participants. I would like to expand on them from my own perspective.

It is time for humans to go beyond low-Earth orbit. The post-Apollo 
space program traded exploration for utilization; exploration on the 
Moon was exchanged for the prospect of a permanent laboratory, factory, 
and satellite repair station orbiting within a few hundred miles of the 
Earth's surface. The resulting quest for a permanent presence and 
routine access to space resulted in the Space Shuttle and later in the 
International Space Station (ISS). While both are remarkable 
technological achievements, neither has quite lived up to its promise, 
and just as the Space Shuttle today bears only a slight resemblance to 
early concepts for a fully reusable spacecraft, the ISS we have now is 
not the station that was envisioned more than two decades ago. To be 
sure, the ISS must be completed in order to fulfill obligations to our 
international partners. But in the longer-term the Space Shuttle and 
the ISS serve to anchor humans in low-Earth orbit, and orbiting the 
Earth, as thrilling as it is, is not exploring space. This nation must 
move forward with the development of a space transportation system that 
will do more than just orbit the Earth, but will enable humans to 
explore in space.

Mars and beyond is the goal of human exploration. Although ``Mars and 
beyond'' as the goal is a consensus of workshop participants, the 
question of intermediate steps was debated at length without overall 
agreement. A stepping stone approach to Mars might include some or all 
of the following intermediate steps: sorties to the Moon and the Sun-
Earth Lagrange points (L2) as the first step out of LEO; longer 
missions of perhaps a year's duration to a near-Earth asteroid as the 
first step out of the Earth's gravity well; and expeditions to the 
Martian moons, Phobos and Deimos, which would be of similar duration to 
Mars missions but without the need for complex and risky landing and 
launch systems. The important point is that each of the stepping 
stones, whichever they may be, should advance the science and 
technology needed for the next, more ambitious objective and for the 
eventual human exploration of Mars, and none should be considered as 
permanent outposts that would again anchor us in place for decades.

Exploration should be goal driven, not schedule driven. The exploration 
goal has been repeatedly found to be the basis of public excitement and 
interest in the space program. In the aftermath of the tragic loss of 
Columbia and her crew, this was forcefully reasserted in the 
discussions of why human space flight is worth the cost and the risk. 
Indeed it was in that aftermath that the Vision for Space Exploration 
was born. Exploration is open-ended, it has no limits. But it has 
interim objectives and those also should be publicly engaging and seen 
as milestones on a longer road. Practical engineering for meeting 
milestones is bound by three major constraints: budget, schedule and 
requirements. If you change one of these three, the other two must 
change accordingly. Particularly if the budget is over-constrained, 
either schedule or requirements must give--and that is what is 
happening today. As a result, the ``gap years'' in which there will be 
no US human space launch capability stretch to or beyond the middle of 
the next decade. At the same time human missions to the Moon by the 
year 2020, as specified in the Vision, are exceedingly unlikely. I 
strongly believe the goals of the Vision are valid, but recognize that 
budget difficulties will remain. It is important to remain focused on 
the goals, not the schedule, and proceed as efficiently and safely as 
technology and budget will allow.

Science is enabled by human exploration, but is not the goal of 
exploration. To be sure, there are compelling science objectives at 
each of the intermediate destinations en route to Mars, and important 
scientific questions that must be answered before humans can venture 
beyond LEO. But the motivations for science and human exploration are 
different, even as they are synergistic. Science seeks to answer 
questions of the origin of the universe and of ourselves, and the 
processes that govern nature. Motivation for human exploration is 
largely derived from innate human characteristics such as curiosity, 
imagination and the desire not just to understand but to experience, 
the drive to compete and more recently the need to cooperate. 
Geopolitical influences shape our exploration goals as much now as they 
did in the 1960s.
    One of the questions posed in the workshop was, ``When is a human 
the tool of choice for solar system exploration,'' to which one 
participant responded, ``as soon as possible when exploration has 
transitioned from reconnaissance to meaning.'' Humans solve puzzles and 
find meaning in data, albeit at a higher cost than our robotic 
surrogates. We could debate the relative value of humans versus robots 
at great length but, in fact, we would be missing the point. Humans are 
explorers. Whether deep under the ocean, on the frigid plateaus of 
Antarctica, or above the atmosphere, humans are programmed to indulge 
our unquenchable thirst for knowledge--not only scientific data but 
human experiences. We are unwilling to surrender those domains solely 
to robotic surrogates and forego the human experience of adventure and 
discovery.

We must balance science and exploration, and manage expectations as we 
move forward. NASA's portfolio includes Earth and space science, 
aeronautics, and technology as well as exploration, and a healthy 
balance must be maintained among the sciences, and between science and 
exploration. Science is of enormous benefit and interest to the public 
and to our future generations--the inspiration derived from Hubble and 
the Mars rovers are but two examples, the 2006 Nobel Prize in physics 
for work that was based on measurements from COBE is yet another. The 
science budget should not be used to compensate for the underfunding of 
the Vision goals.
    Furthermore, science programs are not just budget lines, they are 
people. They cannot be turned on and off without consequence. As NASA's 
aging workforce reaches retirement, how are we going to attract the 
next generation of scientists and engineers who will continue exploring 
the universe? I believe we must pull rather than push; pull students 
into science and engineering with the promise of interesting work and a 
fulfilling career. What more powerful pull can there be than the 
opportunity to explore the universe? When budgets are redirected and 
the very programs that attracted young scientists are summarily 
terminated, they are forced to retool, retrain and reeducate themselves 
for other careers. They are in all likelihood lost to the NASA 
workforce forever and we are all poorer for it.
    The entire field of microgravity science was based on the 
expectation of a space station for long-term experimentation. Drop 
towers, zero-G flights and even two week flights on the Space Shuttle 
were just warms up for the permanent laboratory in space. Young 
scientists built their careers on that promise. Even as ISS grew in 
orbit, opportunities for its use as a world class laboratory for 
microgravity science were shrinking. Microgravity science, born in the 
1980s, was effectively killed in 2004.
    As we execute the Vision for Space Exploration, it is important to 
be realistic about the goals, funding and timeline for science and 
exploration. Should we cast a net widely within the science community 
to find all possibilities for exploration and research that could be 
accomplished on the Moon, and therefore solicit the broadest possible 
support within the science communities for a lunar program, or should 
we focus from the outset on science objectives that support the next 
step in the overall exploration strategy? Let's not repeat the 
microgravity science experience on the Moon.

Sustained human exploration requires international collaboration. From 
the very beginning, human exploration has been driven by geopolitical 
factors, in the U.S. as well as in the Soviet Union then and in Russia 
now. As we make plans to explore beyond Earth, it is appropriate that 
those political forces have led to cooperation rather than competition.
    The U.S. is the unquestioned leader in space exploration, a 
position that we are unwilling relinquish. International collaborative 
exploration initiatives offer the United States an opportunity to 
maintain global leadership in a cooperative environment. Collaboration 
with international partners provides opportunities for countries who 
may be competitors in global political or economic arenas to work 
together to increase human knowledge and promote peaceful utilization 
of the solar system.
    The road to Mars will be a very long one, and any architecture must 
survive many one-year budget cycles and four-year administrations. 
After several near-death experiences, the ISS is still alive and will 
be completed because of our international commitments. The overriding 
importance of multi-national cooperation justifies the risk and cost of 
continuing the Space Shuttle program long enough to satisfy our 
obligations.
    We can debate the value of science objectives or exploration goals, 
but the value of international cooperation in space ventures over the 
past decade cannot be challenged. Inviting meaningful international 
participation in the exploration architecture may reduce cost, 
accelerate the timeline, provide additional capability, bring a measure 
of stability through numerous budget cycles and administrations, while 
engaging rivals and allies in a shared commitment to extend the 
boundaries of humankind into new domains.

The role of entrepreneurial space ventures should be to help NASA get 
out of the business of routine transportation to LEO for cargo and 
crews as soon as practical. Non-government entities have transported 
cargo to space for decades, but only NASA and the Russian Space Agency 
transport humans to the ISS. As we have seen over the past two decades, 
our space transportation system has at times left us stuck on the 
ground. U.S. flights were suspended for almost three years after 
Challenger, more than two years after the Columbia accident and will be 
suspended for some number of years after the retirement of the Space 
Shuttle in 2010. Shorter down-times of months to one year have resulted 
from problems with helium leaks and external tank insulation shedding. 
As long as NASA is the owner, operator and sole customer of 
transportation services to LEO in this country, there is no competition 
for services and limited access to space.
    The emerging entrepreneurial space industry projects growing demand 
for access to space by foreign governments who want to get into the 
space business, from multinational corporations and from tourists. NASA 
is investing in commercial space transportation services through the 
Commercial Orbital Transportation Services project (COTS) for cargo to 
the ISS, and eventually crew transport as well. Bigelow Aerospace and 
Lockheed Martin Commercial Launch Services are engaged in discussions 
on the Atlas 5 as the launch vehicle to provide crew and cargo 
transportation services to a Bigelow-built space complex in the near-
term.
    As NASA refocuses on exploration, commercial ventures that will 
replace NASA as the sole U.S. human space transportation system should 
be encouraged and incentivized by NASA and by Congress. Assurances that 
NASA will become a customer, not a competitor, in LEO would strengthen 
the business case for companies who are investing in this venture.

NASA has not received budget increases to support the mandates of the 
Vision for Space Exploration and the other elements of its portfolio 
even in the most optimistic scenarios. Each year since 2004 when the 
Vision was announced, the NASA budget has fallen short of that required 
to achieve the mandated exploration goals and milestones. Science, 
aeronautics and technology have suffered severely to compensate for the 
shortfall. Costs associated with the Space Shuttle retirement are not 
budgeted. The gap between Space Shuttle retirement and Orion crew 
exploration vehicle (CEV) initial operational capability is widening. 
In short, there is a mismatch between aspirations and appropriations 
that no amount of spin can disguise.
    Faced with inadequate budgets, the other two elements of the 
budget--schedule--requirements triad must be reassessed. Again I urge 
that we focus on the goals of the Vision, not the schedule, and proceed 
in the most efficient, cost-effective and safe manner possible.

Is the Constellation system a vehicle for science as well as human 
exploration? I was asked to address potential advantages of using 
Constellation systems for science exploration missions, a question not 
considered at the workshop, but is the subject of an on-going NRC 
study. Constellation systems being designed primarily to achieve human 
exploration goals would enable larger, heavier and more capable 
spacecraft as well as human servicing options to meet science 
objectives that are synergistic with or independent of Vision goals. 
The Ares V launch vehicle, as envisioned, would offer significant 
increases in payload volume and payload mass at a significantly higher 
cost when compared with Delta and Atlas families of launch vehicles 
available today. In general, the advantages of launching ``flagship''-
class science missions on an Ares V are:

        <bullet>  Larger diameter payload fairing would allow larger 
        optics (mirrors) for a significant improvement in high 
        resolution imaging. The proposed Ares V 10-m (8.8-m usable) 
        diameter payload fairing is roughly twice the diameter of the 
        largest fairings available on the Atlas 5 or Delta IV 
        (collectively referred to as EELV).

        <bullet>  Larger payload volume could lower complexity and 
        mission risk by reducing the number of deployment mechanisms 
        required to fit a spacecraft into a EELV-sized payload fairing. 
        Larger payload volume may also reduce or eliminate the need for 
        in-space robotic assembly of larger spacecraft.

        <bullet>  Larger payload mass would allow for redundant 
        components for longer service life, and additional instruments, 
        propulsion elements and propellant. Mission concepts that 
        require multiple EELV launches could be consolidated into a 
        single Ares V launch with integration of as much hardware as 
        possible prior to launch.

        <bullet>  Future derivatives of the Orion crew capsule that 
        include provisions for extra vehicular activities (EVA) could 
        enable astronauts to assemble, service, repair and modernize 
        science spacecraft outside of LEO, for instance at Sun-Earth L2 
        which is the proposed location for several large astronomical 
        instruments and a potential stepping stone destination on the 
        path to Mars. In the same way that the Hubble Space Telescope 
        has been rejuvenated four times over its 18-year life, human 
        servicing capability at L2 could greatly extend the useful life 
        of spacecraft and instruments.

    I am not aware of any reliable cost estimates for an Ares V launch, 
but it seems reasonable to assume that the incremental cost of a launch 
vehicle capable of putting 140 MT into LEO would be several times the 
cost of a 25 MT-capable launcher. Similarly, the cost of a science 
payload that requires such lift capability or would take advantage of 
the payload volume of the Ares V would be considerably more costly than 
``flagship'' missions currently being developed for launch on EELV.
    If Ares V launch vehicles were available for science missions in 
2025 or later, there would undoubtedly be a number of mission concepts 
that would enable a qualitative new approach to the important 
scientific questions in fields such as astronomy, astrophysics, 
heliophysics, Earth science, or planetary science to name a few. 
However, the greatly increased payload capability promised by Ares V 
would also result in more costly science payloads and significantly 
more expensive launch vehicles. One billion dollar ``flagship'' class 
missions could well be superseded by $5B to $10B ``super flagship'' 
missions.
    Unless the space science budget grows as the launcher capability 
grows, science missions that take full advantage of the capabilities of 
the Ares V cannot reasonably be flown on a routine basis.

Two post-workshop follow-on activities are in progress at this time. 
Workshop organizers are in the process of writing a detailed summary of 
the presentations and discussions that led to the consensus statements. 
Not seeking a consensus of all workshop participants, the intention is 
to represent the nuances of the discussions and various points of view, 
and to provide recommendations for the next Administration's 
consideration. The Planetary Society, a co-host of the workshop, is 
conducting a series of ``town hall meetings'' at several cities around 
the country to gain an understanding of public opinion on topics 
addressed at the workshop. The Society will use the results of these 
discussions to produce a roadmap for space exploration for the next 
Administration and Congress. The roadmap will cover robotic missions of 
exploration, human space flight, international activities, and public 
interests. The first of the town hall meetings was held on March 29 in 
Brookline, MA.

In summary, it is time to go beyond LEO with humans as explorers. To do 
so, we must have a space transportation system that will enable humans 
to travel to the Moon, Mars and beyond; without it any debate of 
destinations and goals for human space exploration is pointless. We 
will explore with multinational partners to serve our own national and 
international interests, as well as to advance knowledge. With the 
goals clearly in focus, budgets and schedules must be balanced for an 
affordable, sustainable and successful space exploration program.
    Mr. Chairman, I thank you and the Committee for your staunch 
support of the space exploration program and the opportunity to express 
my views today. I would be happy to answer any questions.

[THE JOINT COMMUNIQUE ISSUED REPRESENTING THE CONSENSUS VIEW OF THE 
                    WORKSHOP]

 Space Experts Say: Restore Funding and Enhance International Outreach 
     to Put Humans on Mars While Sustaining NASA's Science Mission

                         The Planetary Society

STANFORD, CA--NASA's program for human exploration must lead to Mars 
and beyond, and achieving that goal will require future presidents to 
embrace international collaboration and to fund NASA at a level that 
will also sustain its vital science programs, stated the organizers of 
a space exploration workshop today after intensive discussions Feb 12 
and 13.
    ``This workshop achieved a consensus that NASA's resources have not 
been commensurate with its mandated missions of exploration and 
science,'' said G. Scott Hubbard, former Director of NASA's Ames 
Research Laboratory in Mountain View, California, and a consulting 
professor of Aeronautics and Astronautics at Stanford.
    ``The next administration should make the human space flight goal 
an international venture focused on Mars--both to bring in more public 
support and to sustain the program politically,'' added Louis Friedman, 
Executive Director of The Planetary Society in Pasadena, California.
    Friedman; Hubbard; Kathryn Thornton, a former astronaut and current 
Professor in the School of Engineering and Applied Science at the 
University of Virginia; and Wesley T. Huntress, Geophysical Laboratory, 
Carnegie Institution of Washington co-organized the workshop.

The Workshop Joint Communique

    In particular the attendees agreed to the following set of six 
statements:

        <bullet>  It is time to go beyond LEO with people as explorers. 
        The purpose of sustained human exploration is to go to Mars and 
        beyond. The significance of the Moon and other intermediate 
        destinations is to serve as stepping stones on the path to that 
        goal.

        <bullet>  Bringing together scientists, astronauts, engineers, 
        policy analysts, and industry executives in a single 
        conversation created an environment where insights across 
        traditional boundaries occurred.

        <bullet>  Human space exploration is undertaken to serve 
        national and international interests. It provides important 
        opportunities to advance science, but science is not the 
        primary motivation.

        <bullet>  Sustained human exploration requires enhanced 
        international collaboration and offers the United States an 
        opportunity for global leadership.

        <bullet>  NASA has not received the budget increases to support 
        the mandated human exploration program as well as other vital 
        parts of the NASA portfolio, including space science, 
        aeronautics, technology requirements, and especially Earth 
        observations, given the urgency of global climate change.

        <bullet>  Additional recommendations will be provided by the 
        organizers and participants in this workshop.

About the workshop

    The two-day workshop, co-sponsored by The Planetary Society and the 
Department of Aeronautics and Astronautics at Stanford University, was 
an invitation-only meeting of 45 space exploration experts, including 
top scientists, former NASA officials, and leading aerospace industry 
executives. Eight of the attendees were former astronauts (for the 
agenda and attendees see http://soe.stanford.edu/research/evlist.html 
or http://www.planetary.org/programs/projects/
space<INF>-</INF>advocacy/examining<INF>-</INF>the<INF>-</INF>vision.pdf
).
    The group gathered privately to engage in a frank, wide-ranging 
discussion of the Bush Administration's Vision for Space Exploration 
and the policy options facing the new administration that will take 
office in January 2009.
    Topics discussed by the attendees in a series of 90-minute panels 
included scientific exploration; Earth science and climate change; 
lunar exploration; sending humans to Mars; alternate human exploration 
destinations; humans versus robots for exploration; vehicles for 
accessing low-Earth orbits and beyond; emerging entrepreneurial space 
activity; and international collaboration.
    ``The Space Shuttle has been an incredible workhorse in low-Earth 
orbit for more than 25 years, but now it is time for humans to move out 
into the solar system,'' Thornton said.

Examining the Vision Workshop:

    http://www.planetary.org/programs/projects/
space<INF>-</INF>advocacy/2008<INF>-</INF>workshop.html
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Biography for Kathryn C. Thornton
    Kathryn C. Thornton is a Professor at the University of Virginia in 
the School of Engineering and Applied Science in the Department of 
Science, Technology and Society and Associate Dean for Graduate 
Programs in Engineering. She earned her Masters of Science and Ph.D. in 
physics from the University of Virginia in 1977 and 1979, respectively, 
and a Bachelor's of Science in physics from Auburn University in 1974. 
From 1984 to 1996, Thornton was a NASA astronaut and is a veteran of 
four Space Shuttle missions. She has logged over 975 hours in space, 
including more than 21 hours of extra vehicular activity (EVA).
    Thornton was a mission specialist on the crew of STS-33 which 
launched at night from Kennedy Space Center, Florida, in 1989 aboard 
the Space Shuttle Discovery. The mission carried Department of Defense 
payloads and other secondary payloads. In 1992 on her second flight, 
Thornton served on the crew of STS-49 on board the maiden flight of the 
new Space Shuttle Endeavour. During the mission the crew performed four 
EVAs (space walks) to retrieve, repair and deploy the International 
Telecommunications Satellite (INTELSAT), and to demonstrate and 
evaluate numerous EVA tasks to be used for the assembly of Space 
Station Freedom. The following year Thornton was again a mission 
specialist EVA crew member aboard the Space Shuttle Endeavour on the 
STS-61 Hubble Space Telescope (HST) servicing and repair mission. 
During the 11-day flight, the HST was captured and restored to full 
capacity through a five space walks by four astronauts. On her final 
mission in 1995, Thornton served aboard Space Shuttle Columbia on STS-
73, as the payload commander of the second United States Microgravity 
Laboratory mission. The mission focused on materials science, 
biotechnology, combustion science, the physics of fluids, and other 
scientific experiments housed in the pressurized Spacelab module.
    Since leaving NASA, Thornton has served on several review 
committees and task groups, including the NASA Mars Program Independent 
Assessment Team and the Return to Flight Task Group which evaluated 
NASA's work in meeting goals set by the Columbia Accident Investigation 
Board prior to resumption of Space Shuttle flights. Dr. Thornton also 
served on the NRC Aeronautics and Space Engineering Board, the 
Committee for Technological Literacy, and the Committee on Meeting the 
Workforce Needs for the National Vision for Space Exploration, and is 
currently a member of an NRC Committee assessing science opportunities 
enabled by NASA's Constellation system. She also is a co-author on 
Pearson Scott Foresman's K-6 grade Science program. Prior to becoming 
an astronaut, Thornton was employed as a physicist at the U.S. Army 
Foreign Science and Technology Center in Charlottesville, VA.
    Dr. Thornton is the recipient of numerous awards including NASA 
Space Flight Medals, the Explorer Club Lowell Thomas Award, the 
University of Virginia Distinguished Alumna Award, the Freedom 
Foundation Freedom Spirit Award, and the National Intelligence Medal of 
Achievement.

                               Discussion

    Chairman Udall. Thank you, Dr. Thornton. Speaking as a 
Member of this committee, I want to express my appreciation for 
the Stanford workshop, and you undertook that effort with the 
same spirit of risk that you undertook the four missions to 
Shuttle as an astronaut. So thank you.
    I know the members of the panel here noted with interest 
your term lively to describe the discussions you had. We have a 
lot of lively discussions here in the United States House of 
Representatives as well.
    At this point, we will open our first round of questions. 
The Chair recognizes himself for five minutes, and I would like 
to start with Dr. Gilbrech, focusing on Constellation and 
particularly the status of the CEV and the CLV projects. First, 
are there any Constellation-related contract modifications in 
process or being contemplated that would alter, add tasks, or 
change performance requirements; and if so, what are they, why 
are they needed, and what is the cost impact of the changes? 
Easy set of questions, I know.
    Dr. Gilbrech. Yes, sir. Well, as you are aware, we have 
gotten all the stack under contract. We finished all the Ares I 
contracts by the end of 2007. We have been working with 
Lockheed-Martin in the Orion arena. We had done one contract 
mod in April of last year that accounted for several of the 
changes that were as a result of things like moving the date 
from 2011 to 2013. Some of the launch abort system tasks that 
we had added, so we have made that contract mod and that value 
went from $3.9 billion to $4.3 billion. Right now we are in the 
process of going to PDR, so we have got our best take on the 
requirements that we have and we are negotiating with Lockheed-
Martin. We will inform this committee as soon as we have those 
negotiations firm. Those are all negotiated terms that are 
within the reserves of the project, so we don't expect that 
there should be any challenges presented by that and we will be 
happy to report those.
    Chairman Udall. Thank you, and the Committee looks forward 
to those ongoing reports and any additional information you 
might want to add to fill out the question I asked.
    Ms. Chaplain, if I could turn to you, what do you see as 
the greatest risks to the successful development of the 
Constellation system and are you satisfied that NASA has 
developed a sufficiently detailed risk management process to 
help monitor and mitigate risks for Ares and Orion?
    Ms. Chaplain. We haven't assessed their risk management 
process in and of itself, but we have certainly relied on it to 
help us identify the risk areas, and it has been very useful in 
that regard. So I think the technical and requirements risks 
are very well-understood. When it comes to developing risk 
mitigation strategies, the important thing is to see how they 
are tied to dollars and schedule; and I believe that is what 
NASA has been doing.
    In terms of the overall risks we just see going forward, 
they are pretty much what I mentioned in the testimony at this 
point. It is making sure requirements are fully defined by the 
time you hit that preliminary design review and then gaining 
all the knowledge you need on technology development, 
especially with the components that are requiring a bit of new 
work, like the J-2X engine. And going forward, the two things 
that we will always be looking at are things like funding 
commitments and making sure they are sustained. Whenever you 
have disruptions, you have a lot of reverberating effects on a 
program. So if there are future things like continuing 
resolutions, we would be looking to see what the subsequent 
impacts of those things are.
    You just mentioned requirements changes or contract changes 
which are normal at this point in the cycle. What we would look 
at going further once you have committed to the program, you 
pass your preliminary design review, what kinds of changes do 
you make at that point and what kind of consequences do they 
have on the program.
    Chairman Udall. When you mentioned continuing resolutions, 
of course, the United States Congress plays a role in getting 
resolutions up. I appreciate your reminding us of that 
important responsibility.
    If I could turn back to Dr. Gilbrech, do you agree with the 
GAO's assessment of the risks and uncertainties that remain; 
and in your opinion, what are the leading risk areas associated 
with the CEV and the CLV and how do you propose to mitigate 
them?
    Dr. Gilbrech. Yes, sir, Mr. Chairman. We have worked with 
GAO on their report, and we appreciate the responsibility they 
have in reporting to Congress. We always want to maintain 
visibility and transparency so that you are comfortable that we 
are spending the taxpayers' dollars wisely. So we have worked 
with them closely on their reports, and we agree with their 
findings and are implementing their recommendations.
    You asked about risks. Probably the biggest risk to me is 
not really technical, it is the stability that was mentioned in 
some of the other opening statements, of the program. The 
funding, ability for us to stay the course and be able to go 
through administration changes and Congressional cycles and be 
able to stay on a longer term path. It really does take that 
long-term commitment to execute a program of this magnitude. 
This is the first time we have had a new space policy direction 
in 35 years, and it doesn't turn on a dime. So again, that is 
kind of my overarching, what keeps me awake at night problem. 
But if you get down to the second one, technically integration 
across all the different elements, the Orion, the first stage, 
the upper stage, the Orion, making sure that everything is 
properly integrated is one of the other biggest challenges in 
my mind. We have other technical issues as any new rocket 
development program will have. Among those we have got some of 
the thrust oscillation issues that you have been hearing about 
and I mentioned in my opening statement. To me that is nothing 
that is alarming, it is nothing that was unexpected. These are 
the types of things you run across when you start to develop 
new rockets and try to integrate them, and you get smarter as 
you try to mature towards PDR. The J-2X was also mentioned. We 
have taken strides to add extra hardware to the program. We 
have also--one of the concerns of the GAO was having enough 
test facilities. We have worked with the Space Shuttle 
Management Program to not only have the A1 Test Stand down at 
Stennis which is currently doing J-2X testing, but also to 
secure the A2 Test Stand to do some more early testing that we 
know will be challenged to do. We typically know that there are 
as many as 29 rework cycles in developing a new engine, and so 
you require an awful lot of testing to do that. But we feel 
like now we have a robust test program and a test plan, and we 
are marching forward with that.
    Another risk is a launch abort system which is a new system 
that actually contains three new solid rocket motors. They are 
small scale but they are new solid rocket development programs. 
We again have a robust test program to address that. We have 
been doing some of the early motor firings. We actually just 
have delivered the Pad Abort-1 Orion Simulator out to Dryden 
Research Facility to be outfitted with avionics. That will be 
sent to White Sands Missile Range where we will be doing an 
actual pad abort test by the end of this calendar year, and we 
have a series of those abort tests planned to prove out the 
concepts before we actually fly and put humans on board.
    Chairman Udall. Thank you for that helpful analysis of 
where we are.
    The Chair now recognizes the Ranking Member, Mr. Feeney, 
from Florida for five minutes.
    Mr. Feeney. Thank you, and I would like to follow up where 
the Chairman left off. Ms. Chaplain, you have pointed out some 
of the challenges. We manage the program into the future, you 
have got an extensive report which we appreciate. Do you agree 
with Dr. Gilbrech that despite the technical issues and despite 
the definitional issues that you described that the biggest 
risk to the program is stability and Congressional and 
presidential leadership in the coming years?
    Ms. Chaplain. I think because it is a very long-term 
effort, that a commitment is absolutely needed through 
administrations as well as funding stability. One of the number 
one things that tends to disrupt programs that we review are 
funding shifts, stops and starts; and it really hampers what 
the program managers are trying to do in terms of execution, 
especially in space efforts where you have a lot of long lead 
items that you need to purchase.
    At the same time, you know, there are other common things 
that programs tend to face that don't have to deal with 
funding, and those issues are like requirements, changes, and 
some technical challenges; and I think those are always going 
to be present and need to be watched as this program moves 
forward.
    Mr. Feeney. Some of those you have laid out in your report.
    Ms. Chaplain. Yes.
    Mr. Feeney. Would you agree that it is fair to say that 
while your report is very comprehensive in noting the 
challenges ahead, that there have been no serious or fatal 
flaws thus far in advancing toward the program on NASA's part?
    Ms. Chaplain. None that we have determined to be a fatal 
flaw.
    Mr. Feeney. Dr. Gilbrech, while our best scientists have 
been preparing to take humans beyond low-Earth orbit, you may 
or may not have noticed that Americans have been involved in a 
political election year. And one of the potential collateral 
effects of that is we may in fact have a continuing resolution 
which Ms. Chaplain--a lot of us on this committee, you know, 
would like to see something different. But if we have a 
continuing resolution for 2009 that effectively provides 2008 
funding, what does that do for the March 2015 schedule that 
NASA is trying to obtain?
    Dr. Gilbrech. Congressman, we have looked at that, and it 
depends on the length of the continuing resolution. If it is a 
part-year resolution, then we do wind up with a 2009 funded 
level--we get that passed and it wouldn't be as big of an 
impact. But if we did wind up with another year-long continuing 
resolution like we did in 2007, our 2008 budget to 2009 would 
be decreased by about $350 million in exploration; and as we 
said, our rule of thumb in the program is about $100 million 
cut----
    Mr. Feeney. A month.
    Dr. Gilbrech.--a month, so about four months of scheduled 
delay on the March 2015.
    Mr. Feeney. Okay. Ms. Chaplain, again, I thought your 
report was very comprehensive. With respect to Congress' role, 
how should we take the challenges that you have laid out, and 
what should Congress be focused on? Should we be focused on 
definitional issues, milestones, critical decision points, 
program reviews? You know, if you were the Chairman and the 
Ranking Member, what would you be planning to do the next three 
or four years as oversight? Other than getting funding, which 
is a given.
    Ms. Chaplain. Right. We always focus on several key 
milestones in a development program where we know that best 
practice organizations have gained certain pieces of knowledge 
at that point that makes them know it is okay to move forward. 
They have the assurance they need that what they are trying to 
do can be executed well.
    The first major milestone is this preliminary design review 
coming up, and what we like to see at that point is whether new 
technologies being developed are mature to a point where you 
can estimate costs and time and whether requirements are 
stable. So do you know what you are setting out to achieve and 
do you know that you have the resources to achieve that? And 
that would be this upcoming preliminary design review.
    Then the mid-point of a program is usually the critical 
design review, and there we really look to see whether design 
is stable; and the common measure that is used is the number of 
design drawings that are releasable. And the indicator there, 
if there is about 90 percent drawings releasable, you have a 
good assurance that design is stable and you are ready to move 
forward to the next stages. Then when we get close to 
production, we look at some production indicators, whether the 
processes that are going to be used in production are stable or 
not.
    So with those three key gates, there are indicators you can 
use to see how the program is progressing. In addition to that, 
we always track things like software growth and whether 
assumptions about the use of heritage technologies and hardware 
are still valid in the program. And we also track things like 
weight growth because in space programs, that tends to be a 
particular issue if weight just creeps up during the 
development and if it is not addressed.
    Mr. Feeney. Mr. Chairman, my time has expired. I hope with 
the indulgence of the Committee, we may have an opportunity for 
a second round subject to votes. But I would like to point out 
if I may that Ms. Chaplain's report is very comprehensive. She 
did state in her testimony that she hopes NASA will continue to 
be as candid as it has been thus far, and I think we ought to 
recognize that candor will be important for the GAO, for 
Congress, and the public; and we do appreciate the candor thus 
far.
    With that, I will yield back.
    Chairman Udall. I thank the Ranking Member, and I also 
would note that the Ranking Member in his comments alluded to a 
job that all of us here on the Committee in regards to our 
presidential--potential presidential nominees, so I am counting 
on Congressman Feeney to make sure that Senator McCain 
understands the importance of the Exploration Initiative and I 
know Congressman Lampson and I and other Members on this side 
of the aisle will make sure that Senator Obama and Senator 
Clinton know this not only is important to NASA but it is 
important to the country's economic future.
    Mr. Feeney. If I can respond just briefly, I want to assure 
the Chairman that I, along with some great leaders at the Space 
Coast and around the country really, for space, gave an 
absolutely brilliant briefing on the importance of the Space 
Program. Unfortunately, we gave it to Governor Romney who I had 
supported at the time. But we are in practice.
    Chairman Udall. On that note, it is a great pleasure to 
recognize the Chairman of the Subcommittee on Energy and 
Environment, the Member from Texas, Mr. Lampson, for five 
minutes.
    Mr. Lampson. Thank you, Mr. Chairman. Mr. Feeney, get ready 
to make that presentation again as soon as you possibly can.
    Dr. Thornton, I think you are certainly right. It is indeed 
time for humans to go beyond low-Earth orbit. I just hope that 
those humans are from the United States of America, that we 
don't lose the commitment that we have been talking about here 
and let someone else beat us to it. So obviously that is why we 
are here, and I hope that we can keep our focus and understand 
what unbelievable returns we have gotten for our standard of 
living and quality of life and economy and everything else that 
NASA has given to us because of these dreams that we have 
achieved--strived to achieve and have indeed achieved, no 
question.
    But Dr. Gilbrech, if you were provided with a significant 
funding increase to the Constellation Program on the order of a 
billion or $2 billion, what would you use the money for in 
specific terms and how much of an impact would the extra 
funding have?
    Dr. Gilbrech. Yes, sir, Congressman and of course we 
support the President's budget, but if the Congress would enact 
extra funds, we reported previously in hearings that $1 billion 
in fiscal year 2009 and $1 billion in fiscal year 2010 would 
accelerate the initial operating capability at the 65 percent 
confidence level that we are currently holding back to 
September 2013, we would simply have the reserves in the year 
that we need to address the kind of problems that we see that 
would bring us back into the 2013 timeframe. I personally would 
also like to look at adding more robust flight test programs. 
That is something that we can never do enough of, is test what 
we fly. You want to always fly and learn in the early test 
programs because all the ground analysis and ground tests never 
really quite fill in all the gaps that a flight test program 
does.
    Mr. Lampson. If United States access to the International 
Space Station was accelerated by this extra funding, would this 
have a commensurate affect on a projected human lunar landing 
date?
    Dr. Gilbrech. Right now, we are just in the early 
formulations for the human lunar return, and as was stated, our 
current goal is by 2019 is to put boots back on the Moon. So 
certainly progress in the early stages with the Ares I and the 
Orion would certainly make that much more--higher confidence 
and potentially pull that up, but it is a little far in the 
future for us to put that kind of fidelity to it. I think it 
would certainly make our 2020 commitment firm, our 2019 target 
much more achievable and could potentially accelerate that 
date.
    Mr. Lampson. Ms. Chaplain, your testimony indicates that 
NASA's assessment that it could accelerate the Constellation 
Program's initial operational capability date to 2013 with an 
additional $2 billion as highly optimistic. You go on to state 
that given the linear nature of a traditional test-analyze-fix-
test cycle, even large funding increases offer no guarantee of 
program acceleration. Given the difficult situation we find 
ourselves in with the possibility of a five-year gap, what 
credible options do we have for closing that gap if we don't 
add more money to the Constellation Program?
    Ms. Chaplain. I think I agree with what Dr. Gilbrech was 
saying, that the funding could be used to increase your 
confidence levels of hitting that 2013 rate. It doesn't 
necessarily mean that it is going to speed up activities that 
are already laid out on the books because they are already 
pretty highly compressed, and testing does have to occur in 
sequence. So I am not doubting that they could have more 
confidence to the 2013 date. What we meant to say is there is 
only so much you can do to shrink what is already there for 
certain aspects of the program. That would be the J-2X engine 
and the upper stage, that there is--it is highly unlikely that 
you are going to get those things to come under what schedules 
they have now. As I understand it, the schedules are sort of 
laid out to hit the 2013 mark. Extra money would help. You have 
more confidence in that. Even at a 65 percent confidence level, 
you still have to recognize that is 35 percent confidence. You 
might not hit that--you won't hit that date.
    Mr. Lampson. Dr. Gilbrech, do you agree with Ms. Chaplain's 
assessment of the feasibility of accelerating the Constellation 
Program if more money was added? If not, why not? What are your 
thoughts?
    Dr. Gilbrech. I think we are in agreement that the reserves 
allow us to tackle problems against that aggressive 2013 
schedule date, but again, our external commitment is the March 
2015 because we know we can sign up and meet that date at the 
65 percent. I don't want to get hung up on 65 percent because I 
really see this as a very achievable architecture. I have 
worked a lot of programs that have tried to replace the 
Shuttle, so I have some scars underneath my jacket here. The X-
30 program was the Ronald Reagan era of the Orient Express. It 
was an air breather that was supposed to take us up to orbit, a 
huge technological challenge and a revolutionary leap in 
technology. I also worked the X-33, and there again, we were 
trying to go single stage to orbit. It was a composite vehicle, 
had a linear aerospike engine which worked beautifully, but 
unfortunately, the fuel tank technology wound up burying that 
program.
    So we are using a very evolved technology approach here. We 
are using Shuttle solid-rocket boosters that have a rich flight 
heritage. We are using upper stage which J-2X engines have 
their roots in Apollo heritage. So for my mind, the schedule, I 
have a very high confidence in the 2015 date and if there were 
additional money, the 65 percent would just buy us additional 
confidence in the 2013 aggressive date. So I view it more as we 
have a very evolved, achievable technology path ahead of us 
than anything I have seen in the past.
    Mr. Lampson. My time has expired, Mr. Chairman. Thank you.
    Chairman Udall. Mr. Lampson, Dr. Hinners, I couldn't help 
but note that you mentioned the witness protection program 
earlier in your remarks. I know of no witnesses coming before 
this committee that has needed the witness protection program. 
I do, however, suggest that given what I know about Mr. 
Lampson's Congressional District and Mr. Rohrabacher's 
Congressional District, that they may at some point need the 
witness protection program.
    On that note, I did want to recognize the gentleman from 
California. He is a very engaged and productive and 
contributing Member of the Committee, Dr. Congressman 
Rohrabacher from the great State of California. I don't think 
he is actually a doctor but we treat him as one. Mr. 
Rohrabacher.
    Mr. Rohrabacher. Yes, thank you very much, Mr. Chairman. 
Just one note, after you have been here 20 years, the most 
visible aspect is that from up here, when I got here 20 years 
ago, the witnesses were all older than I was, and they seem to 
be younger than I am. And over that 20 years, I have noticed, 
and I certainly understand and I have heard this before, about 
the instability of our funding and the effect that it has on a 
long-term space program and long-term goals. Let me just note 
that what I perceive is that instability of funding can be 
traced back to the fact that it is almost impossible for people 
to prioritize spending. And if we were able to prioritize in 
the beginning, we would have much more stability. That lack of 
ability to prioritize is not just on the part of Congress, 
however, it is also on the part of the space community. So what 
I would ask you now--and of course, Dr. Martin, of course, who 
just came for this robust discussion, what areas have been 
identified as the least justified spending that is going on our 
space program today? Dr. Thornton, let me start with you. Did 
anyone identify--see, everyone can talk about what should be 
plussed up, but no one is willing to talk about what should not 
be in the budget. So maybe you could help me. Was there any 
discussion about things that were not justified that we are 
spending money on today?
    Dr. Thornton. I don't know that I can say there was a 
discussion of not justified, but I think there was pretty 
widespread agreement that what has happened on the Space 
Station has not captured the public's attention. And orbiting 
the Earth over and over and over again is not capturing or 
holding the public's attention. What we need to do is have 
these goals. Maybe Mars is too far into the future.
    Mr. Rohrabacher. And so you're saying your recommendation 
would be to cut funds for the Space Station Program, is that 
right?
    Dr. Thornton. Well, I think that we have to finish it for 
international partners.
    Mr. Rohrabacher. So you want to actually spend more money 
on it? Okay. Frankly, this is what we got. For the last 20 
years, that is what I have identified. Not one witness--I have 
asked this question a dozen times--has ever been able to tell 
me what is the least-justified spending. They are always 
willing to say, well, they all have their own special program. 
They want to plus up. Does anyone have anything else they want 
to jump in as well?
    Dr. Thornton. I think I said that we needed to balance 
expectations and budget. You know, I think that----
    Mr. Rohrabacher. I am not asking for balance, I am asking 
for what you would like to cut spending on----
    Dr. Thornton. Nothing.
    Mr. Rohrabacher.--and if we could get----
    Dr. Thornton. Nothing.
    Mr. Rohrabacher. Nothing? Okay. Well, that is why we don't 
have a stable program because no one is willing to say it. Are 
there any other witnesses willing to tell me where it is the 
least-justified? Okay. So nothing has changed. Let me just 
notice, it is not just the responsibility of Members of 
Congress. It is also the responsibility of you and the rest of 
the people in the space community to tell us this. Now, all we 
get is people telling us where we need to spend more. Well, if 
we want stable spending, we have got to find out where we need 
to spend less and get some good expertise advice on it so we 
can set priorities.
    One of the things that I have seen that might help us out 
in terms of making sure that we have the resources available to 
meet the goals, which of course, people are willing to say we 
need to spend more money on, is perhaps a initiative that would 
not cost money, initiatives that would not cost actually more 
money but that actually might give us more bang for the buck. 
One would be, which I pushed on, is trying to find as many 
opportunities for commercial space endeavors which could then 
bring new revenue into our whole concept. Are there any 
opportunities there that you see in terms of space exploration 
and programs you are talking about in terms of attracting new 
commercial endeavors?
    Dr. Gilbrech. Yes, Congressman Rohrabacher, as I said in my 
statement, we reinstated full funding for the Commercial 
Orbital Transportation Services. We now have two funded 
partners with SpaceX, and Orbital Sciences was recently added. 
We also have five unfunded partners in our Space Act 
agreements, and we are very encouraged with the progress they 
are making and we want--we would really like to stimulate this 
market and get us out of the responsibility of low-Earth orbit 
cargo delivery. So I see that as budding.
    And then we also are encouraged by Google X prize and some 
of the other things that are really capturing the imagination--
--
    Mr. Rohrabacher. Thank you very much. I see my time is up. 
If the Chairman would indulge me one last thought, quickly, one 
of the other--space commercialization is of course something 
that could give us more resources. Another area that I have 
identified is more expanded space cooperation, especially in 
the Moon effort. I would think anybody who is committed to this 
project, which I am, would think that the new President of the 
Untied States or the current President or hopefully a future 
president, Democrat or Republican, could go and see our friends 
in Russia and establish a whole new initiative based on a 
partnership to go to the Moon which the Russians have a lot to 
contribute which would then open up resources for us to expand 
our efforts. So I call on the new president to make a new, 
major initiative with Russia to see if they can become partners 
in our whole Moon endeavor.
    Thank you very much, Mr. Chairman.
    Mr. Lampson. [Presiding] Many other partners probably would 
be interested in that, Mr. Rohrabacher. Thank you. And while 
that line of questioning was going on, Chairman Udall had to 
respond to another matter and left the chair and has turned 
over the gavel to me. So I will be sitting in this chair for 
the next few minutes, and with that, as we move to the second 
round of questioning, I will recognize myself as acting Chair 
for the next five minutes.
    And let me just throw a question out there for your 
comments for just a minute, anybody who would like to make a 
comment on it. Putting aside for a moment the issues that we 
have discussed today about how best to implement a human 
exploration program, it appears to me that each of you thinks 
it is worthwhile for the Nation to undertake human exploration 
beyond low-Earth orbit. Why do you think it is important for 
the Nation to explore beyond low-Earth orbit? Who would like to 
begin?
    Dr. Gilbrech. I would certainly lead off since it is my 
prime job of wanting to get us there. I believe we need to lead 
space exploration to really be viewed as a global leader and 
maintain our global preeminence. I also see it as a strategic 
capability. Whenever you see things that pop up all across in 
different applications, you should recognize them as strategic 
capabilities. The Department of Defense uses space, NASA uses 
space, Marshall is interested in space, our international 
partners are interested in human exploration of space. So I 
view that as us to maintain our edge as global leadership. That 
is probably the key reason.
    As was mentioned here, I view also that the Moon is a 
stepping stone to Mars. Some of the Mars missions, even if I 
were told that was my prime directorate tomorrow, I would not 
alter the path I am on today. We have so much to learn from the 
Moon, and being three days away from home, it would prove out 
the technologies that we need for a 30-month mission to Mars. I 
see that as the most responsible and achievable way we can 
build that kind of an architect. I personally believe there is 
also a lot of science interest left to be discovered on the 
Moon. I mean, we had with the Apollo program for all of its 
accomplishments, we put 12 people on the surface for three-day 
stints at a time and it is a land mass or surface area the size 
of Africa; and to say we have exhausted all the scientific 
discovery there just doesn't compute to me.
    Mr. Lampson. Anybody else want to make a comment?
    Dr. Hinners. Yes, I would like add to that. You have raised 
a very basic question, though, essentially, why humans in 
space? To me it does go beyond the science. Indeed, astronauts 
can conduct a lot of science activity but also we can do a lot 
and maybe even a lot more robotically. But humans can add to 
the accomplishment of science to do things which today and even 
in the near future are not possible to do robotically or would 
cost almost as much to do robotically as they do by having the 
added cost of humans in space.
    But I would also add that there is an element of humans 
that you do not do robotically. Some 30 years ago I was asked 
that question, and to me it was one of you don't transmit the 
human spirit through an antenna. You need to be there, in 
place, in person. So I do support it. And I see that in the 
young people, the University of Colorado, the engineering 
students and the science students. They are motivated in space-
related things by two things, robotics and human exploration. 
These kids have something in their psyche that says there is 
something exceptional about humans leaving the Earth and going 
out to explore, becoming part of the larger cosmos.
    Mr. Lampson. Thank you, Dr. Hinners. Dr. Thornton, you 
testified that human missions to the Moon by the year 2020 are 
exceedingly unlikely. Why do you feel that?
    Dr. Thornton. Well, I have to say that is not based on any 
engineering analysis, it is a guess based on Murphy's Law and 
it is corollary that stuff happens. And stuff that happens 
rarely accelerates the schedule or reduces the cost. So as I 
said, it is a guess.
    Mr. Lampson. Okay. Let me step back from the near-term 
issues related to CEV and CLV and take a look at the broader 
exploration program. This Committee and this Congress will be 
reauthorizing NASA in 2008. What questions and issues do you 
think are the most important ones for Congress to consider as 
it examines NASA's plans for exploration beyond low-Earth 
orbit? Dr. Gilbrech?
    Dr. Gilbrech. Well, as been stated here, the question is do 
we want to get out of low-Earth orbit and go onto our 
exploration journey, and again, as I said, that requires 
stability. The answers we are trying to provide is not just an 
Apollo capability. We are providing an expanded capability that 
really does build the architecture to go beyond lunar and onto 
Mars and other destinations. So our architecture will put four 
people on the surface of the Moon compared to the Apollo 
program that put three down, three-day stays versus seven-day 
stays that we will be doing, also, the outpost that we will go 
into for six-month stays. All of this builds the infrastructure 
to put the mass in orbit that we will need for the eventual 
Mars missions. So that would be my answer.
    Mr. Lampson. Would anyone else comment on that before----
    Dr. Thornton. I would like to know that we have an end-goal 
in mind, and every step that happens for the next 30 years 
points toward that goal and not toward dead-ends or false 
starts.
    Mr. Lampson. Dr. Hinners?
    Dr. Hinners. Yes. In the 2008 appropriations bill, there is 
language that prohibits NASA from doing research development or 
studies on things that are exclusively related to human 
exploration of Mars. That has a perverse effect of preventing 
NASA from constructing an integrated exploration architecture. 
In my mind, one would start with requirements for Mars, feed 
that back into a lunar architecture, rather than the other way 
around. And I would like to see the Congress reverse that 
restriction so that NASA can better construct an integrated, 
long-term architecture to assure that we are doing the most 
sensible things in our earlier stepping stones.
    Mr. Lampson. I will be happy to give you the name of one or 
two Members of Congress who specifically feel very strongly in 
this area, and I would love to go with you to go visit them. I 
might even arrange that meeting if I could get you to come.
    Dr. Hinners. I would be happy to participate.
    Mr. Lampson. Ms. Chaplain, did you want to make a comment?
    Ms. Chaplain. The decision to go beyond low-Earth orbit is 
a very costly endeavor, so that kind of decision needs to be 
weighed against all the other discretionary priorities 
competing for funding and not just within NASA but external to 
NASA.
    It was mentioned earlier that we have issues with terms of 
prioritizing programs for funding, and that is across the 
entire government. So when you are looking at something like 
this that is very long term, it is going to be very costly. You 
need to make that decision in light of your other priorities.
    Mr. Lampson. Thank you very much. My time is expired. I 
recognize the Ranking Member, Mr. Feeney.
    Mr. Feeney. Thank you. The Chair has invited me to 
participate in that meeting to, and I will be glad to go. On 
that note, Dr. Gilbrech, Congress as a matter of policy for 
reasons of compromise which is what we have to do to get things 
done up here, actually prohibited any money from being spent on 
the Mars Exploration Program. So at least for this year's 
budget, we are prohibited from doing what Dr. Hinners has 
suggested. Has that significantly impacted NASA's development 
of the Constellation program?
    Dr. Gilbrech. Well, as I said, it does have a somewhat 
chilling effect down at the lower levels because engineers see 
that and they think, well, you are not even to think of Mars as 
opposed to the letter of the language that says we will not 
spend 2008 on anything specific to human landing on Mars. So we 
are of course following the law. We would hope to see that 
change in future years. We are trying to develop all of our 
lunar plans that will be extensible to Mars, and I think that 
is one of the flexibilities and the beauties of our 
architecture is that all the things that we are going to do and 
need to do to survive and prove out these technologies on the 
Moon will eventually some day pay off for a Mars mission.
    Mr. Feeney. And Dr. Thornton, Mr. Lampson just asked a 
question about why it is important to have humans in space to 
do this exploration. A number of scientists have pointed out 
that it is less risky, it is less costly, and more efficient 
for some purposes to send robots or to send machines. I note 
that one of the people that participated in your workshop said 
that humans should replace unmanned opportunities as soon as 
possible when exploration has transitioned from reconnaissance 
to meaning. It went on to say that humans solve puzzles and 
find meaning in data, albeit at a higher cost than our robotic 
surrogates. I recently watched one of the new shows suggesting 
that robots are being developed that can, how do I put this 
delicately, become romantic partners for humans. I am delighted 
to hear somebody defend our species, number one, and number 
two, were there other people who participated in that workshop 
that gave--in addition to what we have heard from Dr. Gilbrech 
and Dr. Hinners--reasons why humans need to be part of space 
exploration?
    Dr. Thornton. We did talk about the goals of science and 
exploration being different. Whereas humans can help science 
and science certainly enables the human expansion into the 
solar system. The basic motivations for that is entirely 
different. I had a conversation earlier in the week with a 
professor of anthropology about the migrations of humans around 
the planet over the last however many thousands of years, and 
he told me that it is cultures that don't recognize their 
limits that tend to expand and colonize. Well, I hope that we 
don't recognize our limits, and I hope that this isn't the 
generation that decides this is it, we have hit our limits. We 
are not going anywhere else. So I think it is that inspiration 
that is part of it. I think it is that drive in us that is part 
of us. In another workshop, a participant remarked, they don't 
name high schools after robots. And so it is--you know, I think 
that is the drive for us to do it. Certainly we need to enable 
science--the participant who said that humans should replace 
robots when exploration is transitioned from reconnaissance to 
meaning was actually one of the scientists, and I was very 
surprised that the support from the scientists in the group for 
human exploration as a tool for them. Some of them were very 
adamant that there are things that humans can do that robots 
cannot, the intellectual, the putting together of the pieces, 
the understanding which rock to go after is innate to humans 
and we don't build robots to do that yet.
    Mr. Feeney. Well, and I have some of the same fears you do 
that it might be, if we are not careful, 2019 or so before we 
get back to the Moon, you cited Murphy's Law and others to 
suggest that that is what you basically get a sense, and that 
things simply don't get accelerated. But I would point out that 
at some times on rare instances things do get accelerated 
around here, and I am afraid that we may need another Sputnik 
type moment. The Chinese have over 100 universities working on, 
for example, lunar rover equipment. That is what they admit to. 
Most of it is done within their defense department which is 
very shadowy. And Chairman Udall suggested that we don't hope 
we get back into a space race. The truth of the matter is we 
just don't know what the Chinese long-term intentions are. They 
are not part of our international partners. One of the reasons 
I am going to China is to explore what they are up to and how 
we can cooperate if possible. But if not, I hope it doesn't 
take another Sputnik type moment for us to re-energize our 
human exploration capabilities. And if it does, I sure hope it 
doesn't come too late to put our program and the workforce and 
the talents back together. It is a fear I think about every 
day.
    With that, I will yield back.
    Mr. Lampson. Thank you, Mr. Feeney. I think Sputnik is 
here. I think the fact that the Japanese have a satellite 
around our Moon right now, the fact that China has just said 
that they will beat us to the surface of the Moon. If we don't 
wake up and respond to that, why should we not believe others 
will begin to claim our position of technological leadership in 
this world--if we allow it to happen I believe.
    Mr. Rohrabacher. More words of wisdom.
    Mr. Rohrabacher. Thank you very much. I too am concerned 
about the Chinese, while at the same time I am certainly very 
positive about cooperation with the Russians. I think the 
Chinese still maintain the world's worst human rights abusers 
as a part of their government. I would be very supportive of 
any efforts that we might have to ensure that the Chinese do 
not overtake us in space endeavors. And one of the ways we can 
do that is to make sure that we are being realistic with the 
limited resources that we have, and I just want to make sure 
that people who read this record of this hearing that they do 
not come away thinking there is any type of a consensus that we 
should be making Mars the driving force for prioritizing our 
spending. That would be perverse. That would be giving up what 
we can accomplish today for something that is a majestic dream 
as we march to the future. But that is not the way to have a 
realistic and a responsible policy of America's space 
exploration. Let me just for the record say that I am 100 
percent in favor of that limitation saying that we should not 
be spending money on things that are exclusively for 
accomplishing a future manned Mars mission. We have other 
things that we need to do. Do we need to fix the Hubble 
telescope? The Chairman of this Subcommittee took the 
leadership on ensuring that we did not just let that asset go, 
and that cost us some money. Quite frankly, I supported that. 
Should we be making sure that we have a very robust system for 
identifying near-Earth objects that may indeed be a threat to 
the Earth and should we establish a system on how to counteract 
those threats if we find something headed in our direction? The 
answer is yes. Should we be utilizing space so we can put a 
greater effort into conserving and utilizing the Earth's 
resources for the benefit of humankind? Yes. All of those 
things cost money. It would be a horrible disservice to the 
people of the world and especially to the taxpayers of the 
United States for us to start prioritizing our spending based 
on the idea of stepping a human foot on Mars 30 or 40 years 
down the road. That would be a horrible misuse of the money 
when we have other things that we need to do that can help 
people right now. So let me make sure that that is thoroughly 
on the record.
    And again, how are we going to make sure that we utilize 
the resources that we have more effectively? And we have talked 
about, at least I have brought up today, commercialization and 
cooperation, and my colleagues have talked about cooperation as 
well. So let me just say that does not mean that the United 
States of America should step back from developing its own 
technology in making sure that we are the leaders in space 
technology. We can do that by relying perhaps with others to 
help us produce let us say the less-advanced technologies or 
give us some insights. Just one last question. I see my time is 
running out here. Does anyone on this panel have any, and this 
is just inquiry, does anyone on this panel have any information 
about any Federal Government agency, including NASA, being 
involved in any way in anti-gravity research? Just say yes or 
no, that I do know or don't know. Just right down the line. You 
don't know? You don't know? Okay. This is just for my own 
edification. Thank you very much.
    Mr. Lampson. I have more questions, so if you don't mind, 
we can continue our questioning.
    Dr. Gilbrech, one of the more controversial decisions in 
the Exploration Program was the decision to develop the Ares I 
and Ares V launch vehicles rather than modifying the existing 
evolved, expendable launch vehicle, EELV, family used by DOD. 
In addition, some have criticized NASA for developing two new 
launch vehicles rather than a single launch vehicle as proposed 
in the so-called direct concept. Did NASA examine the 
alternatives of using either an EELV based architecture or a 
direct architecture instead of the Ares I and Ares V approach? 
If so, why did you wind up rejecting those approaches? You can 
provide a more detailed answer on the record if you want to. 
Give me whatever you can now.
    Dr. Gilbrech. Yes, sir, Congressman. And Mike Griffin 
elaborated it much more eloquently than I did in his recent 
speech which was part of the charter of the hearing today. But 
in summary, yes, those were traded very thoroughly using the 
evolved expendable launch vehicle as a starting point for our 
current architecture. It had several weaknesses as far as 
having to human rate that rocket which has been expendable and 
not been human rated. It would have also required an upper 
stage development like the Ares I rocket, so those are some of 
the challenges there. It also didn't address the heavy lift 
element that would have required us to go with the Ares V 
development that we are doing here. So in terms of cost, 
schedule, and risk, it just did not trade equally with the 
current architecture that we picked. And that was reviewed and 
vetted with the Department of Defense, the Government 
Accountability Office, the Congressional Budget Office, and all 
agreed that we had picked the best scenario.
    The other one you mentioned, the direct launcher, there was 
a similar architecture like that that was in that exploration 
systems architecture study. The claims for the direct launcher, 
we have actually had our Ares projects look at that and we 
can't justify based on laws of physics the performance that are 
being claimed by that approach. So we don't claim to have a 
market on good ideas. We also like to go investigate them and 
make sure they are credible, and we believe we have the best 
architecture on the books.
    Mr. Lampson. Dr. Gilbrech, Dr. Hinners testified that 
bringing potential partners in early in the concept formation 
phase where they contribute to structuring the basic approach 
strikes me as the right way to approach international 
cooperation. Do you agree? And if no, why not?
    Dr. Gilbrech. I agree whole heartedly. In fact, we just had 
announced our lunar assignments back in October, and we were 
intentionally leaving the architecture, certain elements of 
that open to international and commercial participation. We 
cordoned off certain things we think are critical such as the 
base transportation infrastructure to get there, the lunar 
lander, the architecture here, the space suit systems, and the 
navigation and communication. We want to make sure that those 
elements get established and that there are certain--for us to 
lead the specs and the standards of what that does. It is kind 
of common to--if you fly around the world today, air traffic 
controllers speak English no matter which airline you are on 
and there is a reason for that. So there are advantages to 
taking control of certain aspects of early exploration.
    But also are very much engaged. We have a global 
exploration strategy team that started in 2006. There was over 
1,000 participants. Fourteen space agencies have participated. 
We took over 800 objectives for the lunar environment, both 
robotic and scientific, and we boiled those down to 180 
objectives, and we have also stated six specific goals and that 
involves all the international communities that are interested 
in participating with us.
    Mr. Lampson. NASA was involved in formulating the Global 
Exploration Strategy Framework for Cooperation. What if any 
steps has NASA taken since then, is there a concrete plan to 
implement the strategy, and what are the next steps as you see 
them?
    Dr. Gilbrech. Yes, sir. There is a follow-up working group 
that will continue to meet and mature ideas. We are working 
with all the agencies as we go through our cycles of what we 
think the surface and power systems on the Moon, all the other 
elements that are up for cooperation as they mature. We want to 
match each country's desires and their strengths to what we 
believe they can fill in the lunar architecture so I think we 
have a very robust communication with the international 
community and have an open door to them to participate.
    Mr. Lampson. Dr. Hinners, you indicated in your testimony 
that ITAR is an impediment to effective cooperation in NASA's 
Exploration Initiative. Do you have a sense of how much of an 
impact ITAR could have on our ability to carry out a 
cooperative lunar exploration program?
    Dr. Hinners. I can't give you a quantitative answer to 
that, yet I have seen over the years that the ITAR has made it 
more difficult to first even bring foreign participants onto a 
site, whether it be a jet propulsion lab or Lockheed-Martin and 
creates an antagonism that results in an atmosphere of 
cooperating with you is such a headache, and I am not sure I 
want to do it. To the degree that we can ease some of the 
restrictions and make it easier for our foreign partners to 
actually work directly with us and not feel as if they are 
outsiders we let in only on a very selective basis, I think we 
would get better cooperation. I say this all realizing that 
ITAR has well-intended and necessary functions, so I am not 
suggesting we try to get rid of ITAR, but to work closely with 
NASA and the State Department to see if there are ways to make 
it easier to bring our foreign partners into a closer 
cooperative environment with us.
    Mr. Lampson. Anyone else want to comment? Yes, ma'am? Ms. 
Chaplain?
    Ms. Chaplain. I am not an ITAR expert but I know that GAO 
has issued several reports that show that programs can do a lot 
to mitigate all the challenges with ITAR if they do planning 
very much early ahead. And the joint Strike Fighter program was 
one such program that had to learn how to think through what 
things they had to work with in ITAR several years in advance. 
I also believe the Space Station effort has probably given NASA 
a lot of lessons learned in terms of working under ITAR, so 
they should go back now and see, like, what kind of foundation 
do we need to lay now so that we don't have some of these 
issues later on.
    Mr. Lampson. Thank you very much. Mr. Feeney, you are 
recognized.
    Mr. Feeney. Yeah, just on the ITAR point, one of the things 
that the Administrator asked us for this year is relief from 
the ITAR situation with respect to the Soyuz which 
unfortunately will be serving the International Space Station 
for a short period. I know that some folks that like me want to 
narrow or eliminate the gap have suggested that we simply not 
re-enact ITAR to force Congress' hands to fund an elimination 
of the gap. I think that is a very high-risk strategy and would 
be worried about people who are suggesting that must be buying 
lottery tickets to take care of their retirement years because 
that is a big gamble.
    By the way, I think Congressman Rohrabacher is no longer 
here. I think he said it right, when there is no consensus 
about whether we ought to go to Mars, I think he must clearly 
think that that is a great ultimate destination that will help 
inform, I think as Dr. Hinners has suggested, the way we take 
the interim steps. But in addition to Mars, are there other 
destinations, near-Earth objects for example? Every dozen or 
couple dozen billion years we have an asteroid, you know, that 
literally strikes--or meteorite that strikes and not just does 
damage but dramatically changes the planet and we have a lot 
more potential impacts on a smaller scale. Are there 
destinations that would be useful in the ultimate goals of the 
vision as set out? And Dr. Hinners or Dr. Thornton, do you want 
to address that?
    Dr. Thornton. There are some----
    Mr. Feeney. Somewhere in between Moon and Mars.
    Dr. Thornton. There are some intermediate goals that we 
could look at both for technology development and for science. 
One is near-Earth asteroids. Those missions could be a year or 
so, and that could be our first step out of the Earth's gravity 
well and longer duration flights. Also, missions to the moons 
of Mars which would be similar duration to Mars missions but 
would not require landing and launch systems to get people 
there and back. And so there are some destinations that would 
advance both the technology and the science between now and a 
mission to Mars.
    Mr. Feeney. Dr. Hinners, anything to add?
    Dr. Hinners. I would agree with what Dr. Thornton has said, 
and missions to Sun-Earth Lagrangian points as they are called 
and then near-Earth objects can incrementally what I call 
stress the systems. Today you would not dare undertake a three-
year transit to and from Mars, and developing that capability 
is not going to be easy. But I think doing it incrementally and 
not going for three years first but maybe one month to the 
Lagrangian points and then many months, maybe half-a-year, to a 
near-Earth object could cause us to get on a path of 
incremental development. Also that would feed back into using 
LEO which still has some uses to develop some of these 
capabilities. The International Space Station in which we have 
invested somewhere between $35 and $40 billion just in 
development exclusive of launch costs, if you put a major 
investment there, let us milk that investment, not excessively 
obviously, but let us make the best use of that investment to 
help develop these future capabilities.
    Mr. Feeney. Well, on that note, Dr. Gilbrech, we are 
getting down into some of the details of the programs that we 
are working on. The COTS Program was originally conceived to 
include opportunities for both cargo to the station and crew. 
We have not funded any of the crew potential. Is that a 
priority for NASA? If it is something that you had some 
additional funding, would you prioritize? What is the potential 
for crew development capabilities before 2015 when we have the 
Constellation up and working?
    Dr. Gilbrech. Yes, well, you are correct. Right now. Our 
funded agreements only go through the uncrewed, the cargo 
capabilities. So we are currently doing analysis on what it 
would take to accelerate that crew capability with our current 
COTS partners of the commercial market right now, and we are in 
the final stages of vetting that and we would be happy to share 
some of the details of that with this committee. We view any 
and all sources to close the gap as ones we should be pursuing 
vigorously.
    Mr. Feeney. And Ms. Chaplain, that is one private program 
that is not under NASA direct management and control. What 
should Congress be watching for as COTS is developed 
specifically?
    Ms. Chaplain. You are correct that this is under a 
different kind of funding mechanism, and traditionally 
government agencies don't get that same kind of insight that 
they have when it is a more traditional contracting mechanism. 
But as I understand it in this case, NASA does have some 
insight into these key gates that the COTS program will be 
passing through, things like critical design review and the 
flight readiness testing. So again, as with the Ares and the 
Orion, at these key gates, you want to take some criteria and 
see how well the programs bounce up against it, including 
technology readiness, design readiness, production readiness. 
There is a pretty important test coming up on SpaceX. Their 
return to flight mission for their Falcon 1 vehicle, and that 
will tell us a lot, if they have good standing going forward 
for participating with the Space Station, if this test coming 
up is successful.
    Mr. Feeney. And just briefly, Dr. Gilbrech, do you have 
some high level of confidence that COTS is on target right now 
based on NASA's involvement?
    Dr. Gilbrech. Yes, sir. This first element of COTS that we 
funded in exploration is the Space Act Agreement, and that is 
where NASA is basically a co-investor in development 
technology. And we track them and their milestones, and that 
includes the reviews that Ms. Chaplain identified. We also work 
with them on visiting vehicle requirements. It ensures they 
know how to approach and dock with the International Space 
Station safely. So, they are making good progress. This is a 
tough business. SpaceX, we recently renegotiated some of their 
milestones. They are all technical problems that we would 
normally expect in any type of a new rocket development 
program. So that resulted in a six-month slip from their 
original planned demo of cargo in September 2009 to March 2010, 
but again, this is nothing out of the ordinary that alarms us 
so we have high confidence.
    Mr. Feeney. Mr. Chairman, my time has expired. If I could 
ask one more question, I think I am done for the day. Thank you 
for your indulgence and your leadership here.
    I mentioned that I am going to China. I have some real 
concerns because I don't believe we know the long-term 
intentions of the Chinese. I think that they will be fairly 
friendly until after the Summer Olympics this year. After that, 
you know, a lot of us just don't know what their intentions 
are; but their capabilities with respect to developing deeper 
water naval capabilities, a dramatic increase in defense 
funding, and especially in space are very impressive and I 
think we have to pay close attention. Having said that, one 
area that I sort of lean towards immediate cooperation with the 
Chinese is to share the potential capability for the Chinese 
Shenzhou vehicle to hook up with the Space Station without 
necessarily agreeing to do it or not. It would be an 
alternative to relying on the Russians or the potential 
development of COTS crew capabilities. Does anybody have some 
last-minute advice before I head off to Beijing on that 
specific issue?
    Dr. Gilbrech. Well, I think from my perspective, you know, 
China is participating in the Global Exploration Strategy but 
we have no current collaboration with them, and I would have to 
defer to my counterpart in Space Operations and our 
Administrator for those discussions.
    Mr. Feeney. Okay. Dr. Hinners?
    Dr. Hinners. I would add I would encourage you on your 
trip, I was a participant in the '70s in working with the 
Soviets and made six not-so-fun trips to Russia, at that time 
the Soviet Union.
    Mr. Feeney. Vodka is good, isn't it?
    Dr. Hinners. But in that environment which was not a 
friendly environment at top levels during the Cold War, we did 
make good progress. We were able to I think use the Space 
Program as a political arm if you will and accomplish things 
jointly that contributed to furthering the eventual Soviet 
Union, now Russia, that is more democratic.
    So I look on the Space Program as an opportunity to help 
work some of the world's political problems.
    Mr. Feeney. Thank you. And thank you, Mr. Chairman.
    Mr. Lampson. Thank you, Mr. Feeney, good questions. Dr. 
Gilbrech, it has been reported that NASA's planned Ares V 
heavy-lift vehicle is not able to meet its lunar mission 
requirements as currently conceived and will need some beefing 
up. Consequently, the agency is said to be studying a variety 
of options to boost the lift capability of the big, new rocket. 
If this is so--is this so, first of all, and if so, what 
options are under consideration?
    Dr. Gilbrech. Yes, sir. This is a very challenging mission, 
and as I said before, we are putting much more capability on 
the lunar surface to be able to go potentially to a six-month 
outpost. That requires a lot of lift capability to trans-lunar 
injection. And right now our current target for Ares V is 65 
metric tons of lift, and we see that with the capabilities that 
we are maturing for our lunar architecture that we would like 
to push that beyond that. And we have concepts now to take it 
up to 75 metric tons and involve upgrades of the solid-rocket 
motor with the propellant grains. There are concepts of going 
from five R68 engines to six R68 engines. We are looking at 
other weight-saving measures as far as composite casings for 
the five-segment booster, potentially making them--not 
recovering them, making them expendable and saving some weight 
in the parachute system. So we have got a suite of options that 
we are considering, and again, we will just have to mature 
those. But it is a challenge.
    Mr. Lampson. What is it likely to do to the five-year 
funding requirements?
    Dr. Gilbrech. Well, the Ares V funding really doesn't kick 
in until 2011, so right now our current budgets--these are all 
just trades that we are looking at, concept trades, as the 
deign matures. So right now I don't see any impact in our 
current budget horizon, but we certainly would inform the 
Congress if we saw that that was going to be an issue that we 
needed to raise up.
    Mr. Lampson. Thanks. Dr. Hinners, what do we need to 
accomplish on the Moon to enable human exploration of Mars or 
other potential destinations as called for in the President's 
Vision for Space Exploration and what enabling techniques 
required for human exploration to Mars cannot be accomplished 
on the Moon?
    Dr. Hinners. From what I have seen of the lunar 
architecture, one of the prime things it will contribute is how 
to even exist and operate for a long time on a planetary 
surface, and lunar habitat at an outpost would help accomplish 
those goals. What it will not do is develop the capability for 
the long duration space flight that is necessary for a Mars 
mission. We talked about that previously. There are other 
elements of Mars. The environment at Mars is so different from 
that at the Moon that a lot of things you do on the surface of 
the Moon have relatively little applicability to eventual Mars 
human exploration. For example, the in-situ resource 
utilization, on Mars you would use probably, at first go-
around, the atmosphere--of course, on the Moon there is no 
atmosphere--for developing a technique to use lunar regolith 
might not have much capability but it would advance some of the 
engineering, where the whole concept of in-situ resource 
utilization is [inaudible] potential engineering problems that 
we have and started to face.
    So in many ways I think the lunar exploration is a stepping 
stone but not the most important ones that we will eventually 
need if we are going to Mars with humans.
    Mr. Lampson. Dr. Thornton, would you comment?
    Dr. Thornton. I would agree with that. I agree with Dr. 
Hinners about the engineering challenges of building a semi-
permanent outpost on the Moon, can lead us to solving some of 
those problems on Mars. The physiological issues of getting 
from Earth to Mars in long duration space flight are something 
we probably will not solve on the Moon, but some of the other 
intermediate steps of going to the Earth-Sun Lagrange points or 
going to near-Earth asteroids can lead us a step further down 
the road to solving those sorts of problems.
    Mr. Lampson. Dr. Hinners, let me ask some questions 
regarding NASA exploration's architecture. What do you see as 
the greatest risk that needs to be addressed in preparing for 
human exploration beyond the low-Earth orbit?
    Dr. Hinners. The greatest risk in my view is inadequate 
budgets that will cause us to either so reduce the requirements 
that we are not making much real progress in developing a 
capability or stretching it out so far that we are investing 
the bulk of our funding in just staying in place and not making 
good progress in getting beyond where we are today.
    Mr. Lampson. I was going to ask you about something that 
would lead slightly differently. I thought maybe you would give 
a little different answer than that, but how do we address 
that? I was going to ask you to address the perspectives on 
NASA on how NASA would address that risk, but how should 
Congress address the risk that you just presented to us of 
funding?
    Dr. Hinners. I wish I had a good answer for you. The old 
proverbial one of more money obviously is not an acceptable 
answer today with the budget situation that we have. The only 
alternative is for NASA to very carefully look at its step-wise 
approach to be sure that we are doing just those things that 
will lead to the development of the essential ingredients of 
the lunar architecture. Let me give you an example, and some of 
my science friends would not be very enamored with this. But 
the outpost, if you are looking at stepping stones, has much 
more utility than science-driven sortie missions, even though 
science sortie missions may give you more immediate return. So 
if one has to make a choice, I would say do the outpost and not 
the sortie missions. You may have to make choices like that.
    Mr. Lampson. Do you believe that NASA's exploration 
architecture is robust and capable of accommodating risks?
    Dr. Hinners. I can't answer that. I don't know enough about 
the details. You could answer on that?
    Mr. Lampson. Dr. Gilbrech or anybody else, would you care 
to comment on any of those questions?
    Dr. Gilbrech. Yes, I would be glad to. I believe the 
architecture is robust, it is flexible, it can handle the pay-
as-you-go environment that we find ourselves in. We also, as 
far as being stuck in a lunar outpost mode, we have talked 
about that with the lunar architecture teams as far as what is 
logical exit strategies, when do we consider we have learned 
enough to say that we don't need a permanently manned outpost 
at the lunar surface. Some of the things that we have learned 
on the International Space Station, which has humans 
permanently in space for the last seven and one-half years is 
we learn a lot more with that extended presence than we do on 
14-day Shuttle missions. So really, the outpost has a lot of 
value in the fact it will drive out a lot of problems we 
wouldn't necessarily find on seven-day sortie missions. They 
complement each other, but I think they are both necessary.
    We also are learning a lot on the International Space 
Station about the six-month transit time that it takes to go to 
Mars. There is a lot of things we are learning about 
microgravity, bone loss, muscle atrophy, radiation exposure, 
some of the things that we worry about for the astronauts on 
that long journey. The Moon is a good analog for Mars as far as 
the gravity effects and whether one-sixth gravity on the Moon, 
you have one-third Earth gravity on Mars. Howe does that 
counteract some of these bone loss and other effects that we 
see in microgravity.
    So we hope that we can answer some of those long-range 
questions with the lunar analog. And as far as in-situ resource 
utilization, we also want to follow the water, and if we can 
find water on the Moon which is why we are choosing some of our 
landing sites at the south pole, we can learn how to make fuel, 
oxygen that we could potentially apply to a Martian site if we 
were to find water on Mars.
    Mr. Lampson. Thank you very, very much. I would be remiss 
if I would allow the comments that Mr. Rohrabacher made about 
not wanting to make a priority about going to Mars. I think 
that he maybe slightly misunderstood some of the point that was 
made here. Obviously, we want to learn things, regardless of 
what we are doing through our efforts. I would hate to see us 
turn a blind eye to Mars and not include that in the mix as we 
go through all of this. But my point, and then I will call on 
you, Dr. Thornton, was what we learned when there were those 
who said we shouldn't even be trying to go to the Moon. But it 
affected me personally when I had my Lasik surgery. The 
tracking that the machines the ophthalmologist used was an 
adaptation from what we have used and do use in docking and 
even weapons and many other kinds of things that we have used 
in space. The advancements that have been made on heart surgery 
I had a year ago are significant. Those things are affecting 
millions of lives on this planet. The return that we get from 
our exploration, from our willingness to explore where we 
haven't been I think is absolutely critical.
    What would you like to say or add?
    Dr. Thornton. In the 1980's, the tag line for the 
International Space Station, and as an astronaut I was part of 
the PR machine, started out, the next logical step, and then it 
morphed to a permanent outpost in space, when we lost sight of 
what that was a step to. And in the process, NASA engaged a lot 
of scientists in areas of microgravity science and life science 
and nurtured those fields and grew them and funded them because 
they would be the users of the permanent outpost in space. 
Again, I was part of that and my last mission was a Space Lab 
mission, and a lot of those experiments were on there only 
because it was a warm-up for their permanent stay on a space 
station. In 2004, we changed our mind and we turned off a lot 
of those people, we unfunded a lot of those people, we 
basically ended their career in that field. We ended those 
fields. In retrospect, not having a view of what this was a 
step to was not responsible as far as how we treated people, 
nor how we handle the taxpayers' money. And that is what I 
would like to not see on the Moon. I think there are a lot of 
things we can learn on the Moon on our way to Mars but to not 
have a vision of what it is a step to I think is what is 
irresponsible.
    Mr. Lampson. Thank you very, very much, and you are going 
to be making the last word. Well, no, you are not. Mr. Feeney?
    Mr. Feeney. I don't have anymore questions, but I just 
wanted to on the international cooperation front share with the 
Committee and the people in the audience that at 10:45 today 
the ATV hooked up with the International Space Station. The 
European Space Agency now is a prominent national space 
enterprise. I think we have--do we have some people in the 
audience from the European Space Agency? If you don't mind 
raising your hand, well, congratulations. We were very thrilled 
with the news, and with that I want to thank the witnesses and 
the Chairman again.
    Mr. Lampson. Thank you, Mr. Feeney, and I thank each and 
every one of you for being here. I think it has been an 
interesting conversation, and I look forward to more of them, 
to future meetings.
    If there is no objection, the record will remain open for 
additional statements from Members and for answers to any 
follow-up questions that the Subcommittee may ask of the 
witnesses. Without objection, so ordered. This hearing is now 
adjourned.
    [Whereupon, at 11:56 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Richard J. Gilbrech, Associate Administrator, Exploration 
        Systems Mission Directorate, National Aeronautics and Space 
        Administration (NASA)

Questions submitted by Chairman Mark Udall

Q1.  Cost growth and systems that do not work are often attributed to 
inadequate oversight and abrogated testing. NASA systems have had their 
share of cost growth, lengthened schedules, and terminations in the 
past. Is it technically and programmatically feasible to accelerate 
Orion's Initial Operating Capability (IOC) to earlier than March 2015 
and still conform to the thorough review and testing process required 
by NASA's own agency-wide program management guidance? If not, what 
requirements is NASA considering relaxing?

A1. Yes, it is technically and programmatically feasible to accelerate 
IOC. NASA has planned and paced the multi-decade Constellation program 
to live within its means, while carefully identifying and mitigating 
the threats to mission success. Within the Constellation program, NASA 
is making important decisions to stay within budget and on schedule by 
striving for the lowest life cycle costs possible. NASA has established 
an initial plan for Constellation's designs and integrated flight tests 
to ensure that the Agency adequately tests systems prior to their 
operational use and allows appropriate time to implement critical 
lessons learned from these tests.
    Full funding of NASA's FY 2009 budget request for Constellation is 
needed so that NASA can continue successful transition between the 
Shuttle and the Orion and Ares I. The FY 2009 budget request maintains 
Orion IOC in March 2015, at a 65 percent cost confidence level, and 
full operational capability (FOC) in FY 2016, though NASA is working to 
bring this new vehicle online sooner.
    NASA has a dedicated group of civil servants and contractors who 
work together to check and cross-check the multiple variables that go 
into designing and eventually operating these future Exploration 
vehicles. As such, NASA has sufficient insight into the progress and 
status of the program/project with inserted key decision points that 
determine the readiness of the program/project to progress to the next 
phase of the life cycle. These phases are defined such that they 
provide a natural point for a ``Go/No-go'' decisions to proceed based 
on pre-defined exit criteria for that phase.
    Currently, all activities are on schedule. The Ares I and Orion 
projects recently completed their Systems Definition Review (SDR) and 
the Preliminary Non-Advocate Reviews, which confirmed that NASA is 
employing a strong systems engineering approach to refine the current 
program requirements and properly allocate those requirements at the 
project level. The Constellation Program does not anticipate relaxing 
any requirements. Orion and Ares I Projects are currently proceeding 
toward their individual project level Preliminary Design Reviews (PDR) 
by the end of this year.
    These reviews provide opportunities to confirm that the subject 
activities, products, and process control requirements have been 
adequately distributed to--and implemented within--the projects. The 
projects, along with the programs, are tracking all products required 
for PDR to insure all data is available on time and at the appropriate 
maturity level.

Q2.  We understand that NASA engineers are adding instrumentation to 
the first full scale Ares I-X flight vehicle to gather data about the 
severity of possible vibrations from the solid-fuel first stage. What 
is the range of possible mitigation approaches under consideration and 
what are the commensurate estimated cost and performance impacts of 
each? Will the funds needed to address this issue come from 
Constellation's reserves? How serious would the issue need to be before 
the March 2015 IOC date was determined to be in jeopardy?

A2. Thrust oscillation is a common risk in solid rocket motors because 
thrust oscillation or resonant burning is a characteristic of all solid 
rocket motors, like the First Stage of the Ares I launch vehicle. In 
November 2007, NASA chartered the Thrust Oscillation Focus Team (TOFT) 
to review the forcing functions, models and analysis results to verify 
the current predicted dynamic responses of the integrated stack, 
identify and assess options to reduce predicted responses, validate and 
quantify the risk to the Ares I vehicle, Orion spacecraft, crew, and 
other sensitive subsystems and components, to the extent allowed by the 
Ares I/Orion design maturity, and establish and prioritize mitigation 
strategies and establish mitigation plans consistent with the 
Constellation Systems Program (CxP) integrated schedule.
    Mitigation strategies being reviewed include reducing or 
eliminating the forcing function; canceling or isolating the forcing 
function; de-tuning the stack from the forcing function; and reducing 
loads conservatism that initially made the scale seem more serious. 
NASA is evaluating tuned mass absorbers to reduce loads. We are 
collecting motor performance data on the upcoming Ares I-X and Shuttle 
flights as well as launch acceleration data at the crew seats. NASA 
chartered a small team to evaluate and propose potential concepts to 
de-tune system frequencies. Finally, we are evaluating internal motor 
design modifications that could potentially reduce thrust oscillation.
    The TOFT results will be factored back into the Ares and Orion 
projects this summer and cost estimates will be developed as the 
projects progress to PDR this year. As stated before, thrust 
oscillation is not uncommon during the development of solid rocket 
motors, and NASA is confident in its ability to mitigate this risk. 
Therefore, thrust oscillation should have no impact on the March 2015 
IOC.

Q3.  What, if any, role is NASA considering for Ares V to support 
future science missions? Would a role for science missions be 
considered as ancillary or central to the development of Ares V?

A3. The Ares V launch vehicle is in the formulation stage of design and 
development. The NASA Science Mission Directorate (SMD) is taking 
initial steps to understand the potential value of this heavy launch 
system to the space and Earth science missions of the future.
    In November 2007, SMD requested that the National Research Council 
(NRC) initiate a study on the science applicability of the Ares I, Ares 
V, and Orion Constellation system elements based on a comparison of 
projected capabilities of these systems with available long range 
mission concepts for space and Earth science.
    The NRC recently released the interim report from this study, an 
initial survey based on already-available analyses of a portfolio of 11 
``Vision Mission'' concepts provided by NASA. The NRC found that, of 
the 11 candidates, seven appeared likely enough to benefit from the 
Ares V capability (as compared to an EELV implementation) to warrant 
further study for implementation on a heavy lift vehicle. However, the 
NRC also found that the greatly-increased payload mass enabled by an 
Ares V launch could result in significant total mission costs.
    In parallel with development of the initial report, the NRC issued 
a Request for Information (RFI) to explicitly evaluate the increased 
payload mass capability of Ares V on science mission concepts. In 
addition, NASA's recent workshop, held at the Ames Research Center, 
focused on astronomy mission opportunities presented specifically by 
the Ares V. The findings of this workshop, which considered seven 
missions (three in common with the Vision Missions set) and a number of 
relevant technology topics, is being provided to the NRC for its second 
phase study. There are plans for a second Ames workshop in early August 
to broaden the range of planetary science mission candidates available 
for analysis. The final report of the NRC study should be available in 
November 2008.
    Ultimately, each of the concepts evaluated through these workshops 
and studies, and any other Ares V candidates, will be appraised by the 
appropriate upcoming NRC decadal survey to find its place in SMD's 
priority queue for implementation.
    Note that the primary requirements for Ares V will be dictated by 
the U.S. Space Exploration Policy's goal of exploration of the solar 
system; science will be a secondary use of the capability. NASA is 
working proactively to understand potential scientific use and identify 
opportunities to optimize science applicability of exploration systems 
via design changes that do not interfere with their primary function.

Q4.  Dr. Hinners testified that ``one should have a lunar program exit 
strategy. . ..'' Does NASA have an exit strategy from the Moon, and if 
not are there any plans to create one?

A4. The NASA Authorization Act of 2005 (P.L. 109-155) specifically 
calls on NASA to establish a sustained human presence on the Moon for a 
number of inherently valuable reasons in itself and also as a stepping 
stone to the exploration of Mars and other destinations. While no 
specific ``exit strategy'' exists, NASA is proceeding in a manner that 
builds towards future exploration of other destinations and with an 
``open'' architecture that seeks to build up international and 
commercial involvement in the lunar outpost, in part, to help NASA 
ensure it has the ability with time to venture beyond the Moon.
    The challenges of missions to future destinations beyond the Moon 
are the same as those for any significant exploration endeavor beyond 
low-Earth orbit: long-duration space flight and non-Earth gravity 
effects on human physiology and psychology; orbital assembly of a 
spacecraft with the transportation technologies and crew support 
systems for a successful journey; living, operating, and surviving on 
planetary environments with inhospitable environments; and many others. 
These challenges are technically complex and interrelated. NASA is 
designing its lunar efforts, as much as possible, to reap the unique 
benefits of returning to the Moon in its own right, as well as building 
forward, decreasing risk and as test-bed for future exploration beyond 
the Moon.
    NASA is proceeding in a manner which both maximizes learning 
opportunities and leverages international and commercial participation. 
NASA is implementing a strategic approach to this direction, creating a 
coordinated global approach toward exploration beyond low-Earth orbit, 
and will establish an infrastructure that can efficiently support all 
human exploration missions regardless of destination. Over the long-
term, this infrastructure should remove the burden from the U.S. tax 
payer for paying all costs of development and operations in human space 
flight, making any eventual mission to Mars and other destinations more 
affordable.
    It is NASA's belief that establishing a sustainable presence on the 
Moon provides the broadest possible suite of opportunities relevant to 
learning about Mars and other exploration destinations (e.g., living 
and operating on another planet, learning about complex assembly of 
space systems and gravitational transitions on the human body). More 
importantly, however, it provides the best opportunity for creating 
that global infrastructure, as these technology developments provide 
opportunities for new services and industries dedicated to the support 
of human space exploration. Additionally, creating a sustainable lunar 
presence provides diverse opportunities for fostering partnerships and 
collaborations with international space agencies and preparing the 
larger community for space exploration.

Q5.  The National Research Council just released its report ``Managing 
Space Radiation Risk in the New Era of Space Exploration.'' The report 
was requested by NASA. NRC was tasked to establish a committee to 
evaluate the radiation shielding requirements for lunar missions and to 
recommend a strategic plan for developing the radiation mitigation 
capabilities needed to enable the planned lunar mission architecture. 
Do you agree with the findings and recommendations in the report? What 
are you doing to implement its recommendations?

A5. NASA agrees with the major recommendations of the NRC Report, and 
is implementing a program that is as well-balanced as possible within 
available resources to implement the recommendations and their 
respective priorities.

        <bullet>  The Report noted that the biological uncertainty in 
        assessing the health risks from space radiation exposure is the 
        most important problem for managing space radiation risk to 
        human explorers. This assessment agrees with previous 
        recommendations from the NRC and the IOM, and the current 
        funding distribution in space radiation in the Human Research 
        Program reflects primary importance in understanding and 
        quantifying human health risks, especially cancer.

        <bullet>  The ability to accurately predict solar particle 
        events is essential in preventing astronaut exposure to acute 
        radiation exposure. In this area, NASA has relied on its own 
        space research (currently in Science Mission Directorate) along 
        with a history of successful collaboration with other federal 
        agencies, especially National Oceanic and Atmospheric 
        Administration (NOAA) and National Science Foundation (NSF). 
        Intra-agency and interagency discussions are ongoing to 
        continue this collaboration and assure that appropriate solar 
        monitoring systems are in place during exploration missions to 
        the Moon and beyond.

        <bullet>  This NRC Report made numerous recommendations on 
        shielding technology, engineering and design. NASA agrees with 
        these recommendations and is working internally to assure that 
        as much materials research as prudent and possible is conducted 
        to enable mission and system designers to implement radiation 
        protection at all phases of planning and implementation.

        <bullet>  Finally, the NRC pointed out that there are important 
        health risks other than cancer that may result from exposure to 
        space radiation, e.g., cataract, nervous system, and 
        cardiovascular risks. NASA agrees that this is an important 
        problem, and is implementing research in this area within its 
        current resources.

Q6.  The NRC report also lists a number of technology investments to 
enable lunar missions with astronauts. These include radiation biology 
research, research on solar particle events, and experimental data for 
shielding design. How will NASA translate these recommended investments 
into funding requirements? Where will such funding likely be placed?

A6. The Human Research and Exploration Technology Development Programs 
within the Exploration Systems Mission Directorate (ESMD) support a 
variety of radiation biology and shielding research projects. The Human 
Research Program is conducting ground and space-based research to 
reduce the large uncertainties in radiation exposure risk. Experiments 
to evaluate the effectiveness of shielding materials and to validate 
radiation transport models are being performed at the Brookhaven 
National Laboratory. In FY 2011, NASA is planning to begin a new 
project to develop radiation protection technologies in the Exploration 
Technology Development Program. This project is scheduled to start 
sufficiently early to ensure that radiation shielding will be ready in 
time to support construction of the lunar outpost. Funding requirements 
will be determined during project formulation by assessing the 
remaining uncertainties in radiation exposure risk and the 
effectiveness of state-of-the-art shielding materials, and then 
developing a plan to advance shielding technology to meet performance 
targets. NASA is flying the Cosmic Ray Telescope for the Effects of 
Radiation (CRaTER) instrument on the Lunar Reconnaissance Orbiter (LRO) 
mission to help agency planners understand the radiation environment 
around the Moon. LRO is planned to launch by the end of the year.
    Research on solar particle events is conducted within NASA in the 
Science Mission Directorate (SMD). ESMD is currently coordinating its 
solar particle research needs and ``space weather'' predicting needs 
with SMD and other agencies through the NASA Office of Chief Engineer, 
which has developed a ``cross-cutting'' technology implementation 
process to ensure that NASA's immediate research and operational needs 
are optimized in this important area, including coordination with other 
agencies. NASA considers current investment levels and priorities 
timely to enable human lunar exploration in the post-2020 time frame.

Q7.  You testified that NASA is looking into various options for 
increasing the capability of Ares V and that ``we will just have to 
mature those.'' What is your timeline for further analysis of these 
options and when would you expect to have the information needed to 
make a decision?

A7. NASA is currently reviewing lunar operations and surface concepts 
to provide parameters for the Constellation program transportation 
requirements. This will ensure we have the transportation system 
understood well enough to proceed with Ares V requirements development. 
As a component of this review, NASA is developing options to meet 
potential transportation needs. The review will be completed this 
summer, at which time NASA will mature the appropriate options. Results 
will be factored into the Ares V development efforts as it progresses 
through its formulation activities.

Q8a.  You testified that ``technically integration across all elements, 
the Orion, the first stage, the upper stage . . . making sure that 
everything is properly integrated is one of the biggest challenges in 
my mind.'' How do you plan to deal with this risk?

A8a. NASA understood from the beginning that integrating all the 
diverse systems (Orion, Ares, Ground Systems, Mission Control, etc.) 
would be one of the biggest challenges of the Constellation Program. 
Integration challenges are natural occurrences within any endeavor that 
is not an ``off-the-shelf'' commodity procurement. Acquisition of a 
complex system first requires clear program authorities. With this in 
mind, NASA established a clear program and project structure by which 
to manage the end-to-end system level requirements and empowered the 
Constellation Program Office to oversee the system integration of the 
Program elements. The second step is to have a clear process by which 
to communicate needs and difficulties up the chain of authority so 
Agency and Program resources (i.e., experts, tools, funding, etc.) can 
be brought to bear quickly on the inevitable problems that will occur. 
Third, resource reserves must be readily available within the Program's 
execution year budget so the issues that arise can be effectively dealt 
with by the Program and Project managers. If funding reserves are not 
sufficient in the execution year, then existing ``fixed'' resources 
have to be re-prioritized which will result in work deferral and 
schedule slippage.

Q8b.  Are you confident that the current NASA Constellation workforce 
has the depth of systems integration experience to handle the 
integration risks you describe?

A8b. NASA is very confident in the caliber and ability of our 
Constellation team, which includes both government and industry, to 
accomplish this complex system acquisition. The Agency is not dependent 
on the development of exotic new technologies to make this program a 
reality. Our challenge is the integration of complex systems that must 
work together. Issues will inevitably arise. The question is how we 
respond when they do arise and whether we have the necessary resources 
at hand to solve the issues. Efforts to date show great promise, as 
evidenced by our work solving the issues related to thrust oscillation.

Q8c.  What other inputs would help to mitigate this risk?

A8c. Another key input to mitigate this risk is for the Congress to 
enact stable funding consistent with NASA's budget requests in order to 
have adequate resources at hand to implement program activities and 
resolve challenges that arise.

Questions submitted by Representative Nick Lampson

Q1.  Dr. Hinners testified that ``one should have a lunar program exit 
strategy. . ..'' Does NASA have an exit strategy from the Moon, and if 
not are there any plans to create one?

A1. The NASA Authorization Act of 2005 (P.L. 109-155) specifically 
calls on NASA to establish a sustained human presence on the Moon for a 
number of inherently valuable reasons in itself and also as a stepping 
stone to the exploration of Mars and other destinations. While no 
specific ``exit strategy'' exists, NASA is proceeding in a manner that 
builds towards future exploration of other destinations and with an 
``open'' architecture that seeks to build up international and 
commercial involvement in the lunar outpost, in part, to help NASA 
ensure it has the ability with time to venture beyond the Moon.
    The challenges of missions to future destinations beyond the Moon 
are the same as those for any significant exploration endeavor beyond 
low-Earth orbit: long-duration space flight and non-Earth gravity 
effects on human physiology and psychology; orbital assembly of a 
spacecraft with the transportation technologies and crew support 
systems for a successful journey; living, operating, and surviving on 
planetary environments with inhospitable environments; and many others. 
These challenges are technically complex and interrelated. NASA is 
designing its lunar efforts, as much as possible, to reap the unique 
benefits of returning to the Moon in its own right, as well as building 
forward, decreasing risk and as test-bed for future exploration beyond 
the Moon.
    NASA is proceeding in a manner that both maximizes learning 
opportunities and leverages international and commercial participation. 
NASA is implementing a strategic approach to this direction, creating a 
coordinated global approach toward exploration beyond low-Earth orbit, 
and will establish an infrastructure that can efficiently support all 
human exploration missions regardless of destination. Over the long-
term, this infrastructure should remove the burden from the U.S. tax 
payer for paying all costs of development and operations in human space 
flight, making any eventual mission to Mars and other destinations more 
affordable.
    It is NASA's belief that establishing a sustainable presence on the 
Moon provides the broadest possible suite of opportunities relevant to 
learning about Mars and other exploration destinations (e.g., living 
and operating on another planet, learning about complex assembly of 
space systems and gravitational transitions on the human body). More 
importantly, however, it provides the best opportunity for creating 
that global infrastructure, as these technology developments provide 
opportunities for new services and industries dedicated to the support 
of human space exploration. Additionally, creating a sustainable lunar 
presence provides diverse opportunities for fostering partnerships and 
collaborations with international space agencies and preparing the 
larger community for space exploration.

Q2.  In responding to my question on what you would do with a 
significant funding increase, you identified more robust flight test 
programs as one of the areas you would target. Please expand on your 
response, including what risks NASA is taking with less flight testing 
and how you are mitigation such risks.

A2. NASA's current flight test program for its Constellation Program is 
robust and meets mission needs. The flight test program is designed to 
provide risk mitigation opportunities by providing in-flight 
assessments of the design and operational characteristics of the 
hardware from early development through the first crewed flights. The 
flight test program begins with two non-orbital developmental flights 
that will provide early engineering data for the Ares and Orion Project 
Critical Design Reviews. The first of these two development flights is 
the first pad abort test at the White Sands Missile Range in New 
Mexico, planned for December 2008. This will be followed up with the 
Ares I-X flight from the Kennedy Space Center planned for spring 2009. 
The Ares I-X flight will use a simulated upper stage with a simulated 
Orion Crew Exploration Vehicle and will provide flight data to verify 
our predictions from wind tunnel testing on vehicle flight dynamics and 
controllability.
    The second phase of the Constellation test program (after the two 
developmental flights) includes the continuation of the Orion launch 
abort system test campaign, and the continuation of the vehicle flight 
tests. The Orion launch abort system test campaign is designed to 
gather information at key operational envelope boundaries and under 
simulated failure conditions and the flight tests will provide 
engineering evaluation of the new design and gather additional critical 
flight data to validate engineering models used for design 
certification. Current plans call for testing the high altitude abort 
case in combination with flight testing of the first five-segment first 
stage on the Ares I-Y mission. Ares I-Y will test the first stage 
motor's thrust oscillation behavior and the dampening features being 
designed. It will also test the separation of the first and upper 
stages before triggering a high altitude abort.
    Ares I-Y is followed by the Orion 1 flight, planned to be the first 
dress rehearsal for the end-to-end flight of the entire integrated Ares 
and Orion vehicle using all actual flight hardware. Orion 1 is 
scheduled to take place before flying a crew on the Orion 2 flight at 
Initial Operating Capability, scheduled for March 2015. The multiple 
and significant test objectives for Orion 1 are aimed at evaluating all 
aspects of the design and operation of the flight and ground systems 
that can be accomplished without an on-board crew. (Later tests, 
however, will involve a crew on-board.) In addition, the engineers will 
utilize the non-crewed Orion 1 orbital flight to evaluate the Orion 
systems on-orbit. During that flight, the mission controllers will be 
able to gain experience operating the entire actual flight hardware 
system and validate the training simulations.
    As stated earlier, NASA believes its current flight test program is 
adequate to meet mission needs. However, additional testing within any 
program or project can yield benefits.
    Additional test flights could provide opportunities in three areas:

    First, an additional unmanned orbital flight would allow objectives 
to be shared across two flights, and would provide a built-in 
opportunity to retest given the reasonable expectation that we will 
experience in-flight technical anomalies. Further, given the early 
formulation phase of the development, Orion 1 flight planning is not 
yet mature enough to know which test objectives can't be accomplished 
on a single flight and must be deferred to subsequent crewed flights.

    Second, additional test flights would provide additional experience 
and data on the inherent reliability of the launch system, including 
data on the critical staging event and test of the upper stage and 
modified J-2X engine.

    Finally, an additional orbital flight test would allow a second re-
entry test using alternate or backup controls on a dispersed or 
emergency trajectory to assess stability and heat shield performance.

Q3.  NASA's ability to secure a $3.3 billion increase to the 
Constellation budget in FY 2011 is predicated on the full availability 
of funds freed up from retiring the Shuttle. However, transition costs 
after retiring the Shuttle will not be known until the FY 2010 budget, 
at the earliest. Will the March 2015 IOC date slip if projected Shuttle 
retirement transition costs exceed NASA's cost goal of less than $500 
million? If not, what will be the impact on the rest of NASA's 
programs?

A3. NASA is preparing an integrated Shuttle Transition and Retirement 
(T&R) cost estimate as part of the FY 2010 budget formulation process 
that will become the basis for a T&R budget line in the FY 2010 
President's budget request for NASA. Currently, both the phasing and 
estimate are in work, thus it would be speculative to assess impacts 
given the complex interactions. The Constellation program is currently 
carrying Shuttle T&R costs as a threat against their budget starting in 
FY 2011 and NASA is working a number of options to reduce the estimated 
cost. Preliminary indications are favorable, and NASA currently does 
not envision an impact to the March 2015 initial operational capability 
of Orion/Ares from T&R costs.

Q4.  Dr. Hinners testified on NRC report recommendations for 
successfully conducting scientific activities within an exploration 
program and on collaborations between the Exploration Systems Mission 
Directorate and the Science Mission Directorate regarding science in 
the exploration initiative.

Q4a.  How do you see science fitting into exploration and how would you 
describe that fit?

A4a. The fundamental goal of the U.S. Space Exploration Policy is to 
advance U.S. scientific, security, and economic interests through a 
robust space exploration program. While U.S. scientific interests are 
not the sole driver for returning to the Moon, these interests have 
been represented in the architecture development process from the 
beginning.
    NASA has numerous mechanisms to ensure scientific analysis and 
input are integral components of its lunar exploration planning. Both 
of NASA's Lunar Architecture Teams (LAT-1 and -2) included active 
Science Focus Elements with representation from Science Mission 
Directorate (SMD) at NASA Headquarters, Constellation, and scientists 
across the Agency. As the definition of the lunar architecture has 
matured, the LAT Science Focus Element Team has engaged scientific and 
other external communities in workshops, studies, and community events, 
including NASA Advisory Council's (NAC) Workshop on Science Associated 
with the Lunar Exploration Architecture (Tempe Workshop) and the 
Workshop on Architecture Issues Associated with Sampling (in 
conjunction with the LEAG and the OSEWG, described below). The Science 
Focus Element participated in all LAT meetings to consider the impact 
of design options and payload manifesting on scientific productivity.

Q4b.  What further plans does NASA have regarding the integration of 
science and exploration?

A4b. As NASA continues the planning and development of the Lunar 
Architecture, NASA has established the Outpost Science and Exploration 
Working Group (OSEWG) at NASA Headquarters to continue the productive 
working relationships between the Science, Exploration, and Space 
Operations Mission Directorates and between Headquarters-level and 
working-level exploration planning and requirements definition. The 
OSEWG will ensure the continued engagement of science, including 
scientific input into requirements definition, as NASA strives to 
implement the U.S. Space Exploration Policy. In addition to any work or 
studies that the OSEWG might perform, it may also commission studies by 
groups such as the Lunar Exploration Analysis Group (LEAG), the 
Curation and Analysis Planning Team for Extraterrestrial Materials 
(CAPTEM), and the Field Exploration Analysis Team (FEAT). Since LEAG 
and CAPTEM are under the umbrella of the NASA Advisory Council, this 
provides a solid mechanism for ensuring that the necessary expertise is 
being drawn upon at appropriate junctures in the exploration planning 
process to ensure a balanced and inclusive approach to the exploration 
architecture.
    The Science and Exploration Systems Mission Directorates are 
working together at all levels, from research to space flight missions, 
and from daily interactions to senior management meetings. Examples of 
ESMD and SMD jointly supporting research included the competitively 
selected grants through the Lunar Advanced Science and Exploration 
Research (LASER) program.
    SMD and ESMD are working closely on the space flight missions under 
ESMD's Lunar Precursor Robotic Program (LPRP). SMD has provided a 
Program Scientist and Program Executive for the Lunar Reconnaissance 
Orbiter (LRO) mission. After its first year of operations, when LRO has 
achieved its primary exploration objectives, SMD will take over LRO 
operations to pursue lunar science objectives. ESMD and SMD are 
cooperating in the planning for the International Lunar Network (ILN). 
ESMD is providing the Radiation Assessment Detector (RAD) and Mars 
Entry Descent and Landing Instrumentation (MEDLI) on SMD's Mars Science 
Lander (MSL) mission.
    The OSEWG co-chairs from ESMD and SMD meet weekly to work science 
and exploration integration, with the full OSEWG meeting biweekly. 
Current subgroups of the OSWEG are focused on the incorporation of 
science inputs based on the NAC and NRC recommendations into the ESMD's 
requirements documents, the development of science scenarios on the 
lunar surface for use by the Constellation Architecture Team, and the 
integration of science and exploration activities here on Earth that 
are analogs of future lunar surface activities. ESMD and SMD senior 
leadership meet regularly through mechanisms such as the Partnership 
Integration Council and ESMD-SMD Roundtables. Integrating science and 
exploration has been and remains a high priority at all levels within 
both SMD and ESMD.

Questions submitted by Representative Tom Feeney

Q1.  It is likely that NASA will be forced to operate under a FY 2009 
Continuing Resolution which would reduce the Constellation funding to 
the FY 2008 level. Please describe how this situation will likely 
affect Constellation's development schedules. Assuming the 65 percent 
confidence levels, would this jeopardize the March 2015 launch date? If 
so, how much would this lengthen the gap?

A1. Full funding of NASA's FY 2009 budget request for Constellation is 
needed to continue successful transition between the Shuttle and the 
Orion and Ares I. The FY 2009 budget request maintains Orion IOC in 
March 2015, at a 65 percent confidence level, and full operational 
capability in FY 2016, though NASA is striving to bring this new 
vehicle online sooner. A full-year Continuing Resolution (CR) at the FY 
2008 level would result in a loss of approximately $350M to NASA's 
Exploration Systems Mission Directorate. A number of factors would 
affect the impact of a full-year CR, and NASA is still assessing those 
variables.

Q2.  Will the new capabilities of the Constellation system enable new 
or unique science opportunities that have heretofore been impossible?

A2. Yes, the Constellation program plans to develop the Ares V Launch 
vehicle, required to enable human lunar return. Ares V could provide 
more than 130 metric tons (MT) of cargo to Low Earth Orbit (LEO). By 
comparison, the current fleet of Evolved Expendable Launch Vehicles can 
provide only approximately 25 MT to LEO. The greater launch mass 
capacity permits larger, heavier and more complex scientific payloads, 
and greatly reduced cruise times for planetary missions. The much 
greater diameter and volume of the Ares V fairing could decrease the 
need for complex deployments of large structures and thereby reduce 
payload cost and risk.
    NASA's Science Mission Directorate (SMD) is taking initial steps to 
understand the potential value of this heavy launch system to the space 
and Earth science missions of the future. In November 2007, SMD 
requested that the National Research Council (NRC) initiate a study on 
the science applicability of the Ares I, Ares V, and Orion 
Constellation system elements based on a comparison of projected 
capabilities of these systems with available long range mission 
concepts for space and Earth science. The final report of the NRC study 
should be available in November 2008.

Q3.  Recently Jet Propulsion Laboratory (JPL) did an assessment of the 
Ares V launcher for planetary and other science missions. As a result 
of this or other studies, please discuss the proposed utility of the 
Constellation architecture for use by planetary and other science 
missions?

A3. Ares V is at an early stage of definition and development. 
Nonetheless, Science Mission Directorate is taking initial steps to 
understand the potential value of this heavy launch system to the space 
and Earth science missions of the future. The JPL study, ``Ares V: 
Application to Solar System Scientific Exploration,'' submitted in 
January 2008, describes a number of enabling advantages of the Ares V 
over EELV systems.
    According to the JPL study, there appears to be a wide range of 
Science missions that could be launched by Ares V that would not be 
possible otherwise. Ares V capability is expected to open up lunar, 
Mars, near-Earth and solar system missions for heavy payloads, and 
might even enable reasonable sample return missions from the far 
reaches of the Solar System. Furthermore, Ares V, configured with an 
upper stage, could enable NASA's ability to search for life at the far 
reaches of our solar system.

Q4.  The Space Shuttle budget does not contain any funds for program 
close-out activities after 2010. This represents an as-yet-to-be-
determined threat to the Constellation program, recently estimated at 
about $1.2 billion. It appears there are insufficient reserves in the 
Constellation program to handle this, so how do you expect this 
shortfall will affect the Constellation program?

A4. NASA is preparing an integrated Shuttle Transition and Retirement 
(T&R) cost estimate as part of the FY 2010 budget formulation process, 
which will become the basis for a T&R budget line in the FY 2010 
President's budget request for NASA. Last year's $1.2B estimate for T&R 
costs from FY 2011-2015 developed, during the FY 2009 budget 
formulation process, is considered conservative and much higher than 
the expected estimate from this year's FY 2010 budget formulation 
process. Reasons for this include Constellation program requirements 
maturation, more clearly defined property disposition guidelines, 
better understanding of facilities requirements, and improved 
communication and effective coordination among all relevant process 
stakeholders. This year's FY 2010 budget planning T&R estimate is not 
yet known, as both the phasing and estimate are in work. Thus it would 
be speculative to conjecture on possible program impacts. The 
Constellation program is currently carrying Shuttle T&R costs as a 
threat against their budget starting in FY 2011, and NASA is working a 
number of options to reduce the estimated cost. Preliminary indications 
are favorable, and NASA currently does not envision an impact to the 
March 2015 initial operational capability of Orion/Ares from T&R costs.

Q5.  In previous years NASA intended to carryover unobligated funding 
from one year to the next to help smooth the funding profile during 
development and initial production of the Constellation system. 
However, Congressional appropriations bills did not endorse this 
principal. How has NASA been able to compensate for the lack of 
carryover funding to keep Constellation on schedule?

A5. While Congress has discouraged the use of the two-year obligation 
authority that is legally available to most Constellation program 
funding, the Program has been able to use obligated-but-uncosted 
funding to smooth the funding profile and maintain schedule. Obligated-
but-uncosted funding carried forward from FY 2008 and FY 2009 will be 
used to maintain the development schedule in FY 2009 and FY 2010.

Q6.  NASA decided against using the Space Shuttle Main Engines in the 
design of the new Ares launch vehicle and instead chose to modify the 
J-2. The J-2X engine development is acknowledged to be one of the 
greatest risks to the timely development of the Ares launch system. 
What is the status of this engine development?

A6. The J-2X is an evolved version of two historic predecessors: the 
powerful J-2 engine that propelled the Apollo-era Saturn I-B and Saturn 
V rockets, and the J-2S, a simplified version of the J-2 that was 
developed and tested in the early 1970s. By utilizing the J-2X, NASA 
eliminates the need to develop, modify, and certify an expendable Space 
Shuttle engine for the Ares I. NASA expects the J-2X to be less 
expensive and easier to manufacture than the Space Shuttle main engine. 
Although the J-2X is based on the J-2 and J-2S engines used on the 
Saturn V, it also leverages knowledge from the X-33 and RS-68. NASA 
also is planning significant upgrades to the engine, which essentially 
makes the J-2X a new engine development program. Therefore, NASA has 
taken steps to mitigate J-2X risks by increasing the amount of 
component-level testing; procuring additional development hardware; and 
working to make a third test stand available to the contractor earlier 
than originally planned.
    The J-2X is progressing through its critical design phase and is, 
in fact, the first Constellation program element to reach this phase of 
the development effort. Subsystem Critical Design Reviews (CDRs) are 
progressing through the summer with the J2-X CDR being scheduled for 
later this year. Technically, engine development and testing has begun. 
Initial Powerpack 1-A test phase concluded in May 2008. Initial engine 
cold flow nozzle side load testing has been completed. NASA has begun 
testing the J-2X gas generator at the MSFC. Additional subsystem tests 
will be conducted throughout the remainder of this year and into next 
year. On August 23, 2007, NASA broke ground on a new rocket engine test 
stand at Stennis Space Center in Mississippi. The test stand will 
provide altitude testing for the J-2X engine and will allow engineers 
to simulate flight conditions at different altitudes. Testing on the A-
3 stand is scheduled to begin in late 2010.

Q7.  The Exploration System Architecture Study (ESAS, Chapter 6, p. 
385) concluded that ``The considerable additional cost, complexity, and 
development risk were judged to be unfavorable, eliminating RS-68-
powered Cargo Launch Vehicles.'' Hence, the RS-68 powered launch 
vehicles, as represented by LV-29 (Chapter 6 p. 421), were not selected 
for further evaluation in the lunar architecture trades. However, 
shortly after the ESAS was released, NASA decided to replace the Space 
Shuttle Main Engines with the RS-68 engines on the Ares V. Following 
this decision to switch to the RS-68 for the Ares V, did NASA go back 
and reevaluate the other RS-68 powered variants contained in Appendix 
6a of the ESAS study? If not, why not?

A7. Post-ESAS, NASA looked at several RS-68 powered Cargo Launch 
Vehicle (CaLV)--now known as the Ares V--variants and nearly all of 
them fell well short of the two launch Crew Launch vehicle (CLV)/CaLV 
performance requirement. After extensive trade studies, the key feature 
that was discovered that allows the current Ares V approach to reach 
the performance required for a two launch solution is expanding the 
core stage diameter to 33 ft. (Saturn V diameter). This option had not 
been reviewed during ESAS.

Q8.  On April 10, 2008, NASA provided a background paper comparing the 
planned Ares launch vehicles with the DIRECT launcher proposal. The 
paper makes a number of assertions that are not corroborated with data. 
Please provide the detailed analysis, including the Integrated Master 
Schedule, launch system performance, technical assumptions, and cost 
estimates, used to compare the Ares I and Ares V launch vehicles with 
the Jupiter-120 and Jupiter-232 Shuttle derived variants.

A8. Our assessment of the DIRECT-Jupiter 232 was calibrated to Ares and 
Constellation ground rules and assumptions, using NASA tools and design 
standards. We found that the delivered gross lunar lander mass for 
DIRECT falls 50 percent below the reported value for an Earth Orbit 
Rendezvous-Lunar Orbit Rendezvous (EOR-LOR) mission (20.8 mt vs 
reported 40.9 mt). This assumes no on-orbit cryogenic tanking, which 
DIRECT requires. On-orbit cryogenic refueling is a highly complex and 
operationally risky proposition for this mission class. Even with on-
orbit tanking, DIRECT falls short by more than 25 percent (based on 
adjusted EOR-LOR payload capability and idealized available on-orbit 
propellant). For a LOR-LOR mission, proposed in May by DIRECT, our 
assessment found that the delivered lander mass fell 80 percent below 
the reported value (8.4 mt vs reported 50 mt). This approach cannot 
meet NASA performance requirements.
    Additionally, the DIRECT proposal contains many claims and has no 
substantiated or detailed cost, schedule or reliability data on which 
to make any assessments--hence no comparison can be made. However, 
based on previous experience and study, several conclusions can be 
drawn:

    DIRECT claims that improvements in cost and schedule would be 
achieved by leveraging existing Shuttle Reusable Solid Rocket Motors 
(RSRMs) and RS-68 engines and implies that only modest modifications to 
the STS external tank (ET) would be necessary. No data is presented to 
back up the proposed development cost savings for the DIRECT approach.

    The Jupiter's STS ET-based core stage would require a major 
development effort, which, in turn, would drive cost up and a longer 
schedule when compared with the current Ares approach. DIRECT claims 
requirements to strengthen ET sidewall and inter-stage structures on 
the Jupiter common core are achieved by milling less material during 
manufacture. NASA has extensively examined such approaches over the 
past 20 years and concluded that this effort incurs significant expense 
and development with marginally applicable STS ET heritage: the Jupiter 
common core requires a new main propulsion system, new thrust 
structure, new avionics, new forward LOX tank structure and a new 
payload shroud, substantial intertank/Lox Hydrogen tank redesign and 
aft Y-ring interfacing and a completely new stack integration effort. 
In addition, recurring ET manufacturing is costly and labor intensive 
compared with the lower cost, all friction-stir-welded approach being 
used on the Ares vehicles. The Jupiter core stage engine, the RS-68, 
would be required to be human rated. Though feasible, it would require 
a significant development effort and an extensive engine test program. 
In addition, DIRECT is taking on development of a new, Saturn V S-II 
class Earth Departure Stage (EDS) for lunar capable missions. DIRECT 
proposes to develop low boil-off rate technology and integrate it into 
the EDS tanks. NASA has studied this type of approach extensively in 
the past. This type of development effort will incur significant near-
term technology expenditures before full-scale development can proceed.

    Per flight costs for Orion missions also favor the Ares approach. 
The Ares I vehicle will have less cost per flight compared with the 
Jupiter 120 heavy lift counterpart: one five-segment RSRM versus two 
four-segment boosters and an upper stage with one J-2X versus a core 
stage with two or three RS-68s.

    Such development efforts would require new, dedicated acquisitions 
at the same scale as the current Ares I procurements, which have taken 
2 years to put in place.

    The DIRECT report claims Jupiter launch vehicles provide increased 
safety and performance margin as a primary advantage over Ares launch 
vehicles. DIRECT includes very little data, calculations, or analysis 
to support these safety assertions. Such a probabilistic risk 
assessment requires substantial effort by system and subsystems experts 
to conduct. In reality, safety/reliability for crewed missions favors 
the current approach. The Ares I vehicle has a reduced number of 
propulsion systems required for ascent, which will increase its safety/
reliability over a Jupiter approach: one five-segment RSRM versus two 
four-segment boosters and an upper stage with one J-2X versus a core 
stage with two or three RS-68s plus an EDS powered by a J-2X for lunar 
missions.

    Finally, on July 3, 2008, the Agency provided to Subcommittee 
staff, via web link, the NASA Performance Assessment of DIRECT 2.0 
reflecting additional background information and analysis related to 
the DIRECT proposal.
                   Answers to Post-Hearing Questions
Responses by Cristina T. Chaplain, Director, Acquisition and Sourcing 
        Management, Government Accountability Office

    On April 3, I testified on GAO's work related to the Ares I and 
Orion programs, which comprise NASA's future cargo and crew 
transportation system. Our work has generally found that there are 
considerable unknowns as to whether NASA's plans for thee vehicles can 
be executed within schedule goals as well as what these efforts will 
ultimately cost. This is primarily because NASA is still in the process 
of defining many of the project's performance requirements and some of 
these uncertainties could affect the mass, loads, and weight 
requirements of the vehicles. The following responds to your follow-up 
questions for the record.

Questions submitted by Chairman Mark Udall

Q1.  You indicate that the Orion and Ares I will soon undergo 
preliminary design reviews (PDR).

        a.  Why are these reviews so important? What answers should 
        NASA receive at that time?

        b.  If answers are not received, what are the consequences of 
        NASA proceeding without them?

A1. The Ares and Orion preliminary design reviews occur shortly before 
NASA will be formally making a long-term investment commitment to the 
programs. Therefore, these reviews are critical to demonstrating that 
NASA has the knowledge it needs to proceed, i.e., that it fully 
understands its requirements and the resources (dollars, technology, 
time, expertise, facilities, etc.) needed to meet these requirements. 
For example, NASA should understand technologies and hardware involved 
with the Ares and Orion systems as well as their design enough to know 
how long it will take to complete work and what that work will cost. 
Our work on major system development efforts across the government 
consistently shows that when programs make long-term commitments 
without this knowledge, they invariable experience technical and other 
problems that require more time and money than anticipated to resolve 
and often result in reduced capability.

Q2.  NASA indicates that its current level of reserves in Constellation 
is less than eight percent.

        a.  In your review of space systems acquisitions, what is the 
        percentage level of reserves usually prescribed and built into 
        program budgets at the stage the Constellation program is at?

        b.  Are they usually used up?

A2. In my experience, when reserves are set aside for space programs, 
they are used up quickly. This is because estimates regarding cost, 
time, complexity, etc. were highly optimistic to begin with. Before we 
can recommend a standard reserve level that should be used, agencies 
need to commit to starting programs only when they have demonstrated 
appropriate levels of knowledge about what they are trying to achieve 
and what resources are needed to do so. Once this discipline is in 
place, agencies can use reserves as a technique for mitigating risks, 
and can realistically expect their initial level of reserves to be 
sufficient.

Q3.  You indicated concern about uncertainty and NASA being able to 
execute both the Orion and Ares I programs within schedule and cost 
targets.

        a.  What is the reason behind this uncertainty?

        b.  Are there any other approaches to developing Orion and Ares 
        I that would minimize uncertainty?

        c.  How would this approach impact the projected gap in 
        American access to space?

A3. As our testimony notes, uncertainty about costs and schedule stems 
from significant gaps in knowledge which exist about both the Ares and 
Orion programs. For example, NASA does not know if the Orion vehicle 
will be landing on land or water at this point. Without this knowledge, 
it cannot estimate the cost of the vehicle, since each option presents 
different cost and technical challenges. In addition, NASA is still 
working through uncertainties about the engine it is producing for the 
launch vehicle, vibration issues, engineering challenges related to the 
upper stage of the launch vehicle, and a host of other technical and 
production challenges. Again, until has a better understanding of 
what's involved with addressing these risks, it will not fully know 
what dollars and time are needed to complete the projects. NASA 
recognizes that it needs to close these knowledge gaps before 
completing its preliminary design reviews.

Q4.  Ms. Chaplain, in the past, NASA's projects have experienced 
significant cost growth and schedule delays. Such a pattern, however, 
cannot be repeated as competition for resources will likely continue to 
increase as the amount of discretionary spending decreases. Congress 
has asked GAO to conduct periodic assessments of selected NASA programs 
in order to identify cost, schedule, and risk factors on each program. 
I understand from my staff that you will be modeling your work on major 
NASA systems after an annual assessment the GAO does on DOD weapon 
systems. Please explain what this assessment is and how it will help to 
achieve our goals for bringing more accountability and transparency to 
NASA's spending.

Q4a.  What are some of the challenges GAO faces (e.g., access to 
information, securing accurate life cycle cost data, etc.) in carrying 
out this work?

A4a. Overall, GAO has had good support from NASA's office of Program 
Analysis and Evaluation (PA&E) for completing the review. Undertaking a 
job of this magnitude and introducing a new methodology to NASA has 
been and was anticipated to be quite a challenge. Several issues have 
added to this challenge, including the following:

        <bullet>  GAO has had to spend a large amount of time educating 
        PA&E and NASA's projects on the methodology. We have held 
        numerous meetings with HQ PA&E officials since November trying 
        to explain to them our methodology and why we are asking for 
        some of the data. In addition, large amount of follow up have 
        been required due to the need to educate the projects on the 
        methodology. This process has been very time consuming.

        <bullet>  PA&E has requested that all data be filtered through 
        their office. While this process is good for trying to ensure 
        consistency and a shared understanding of what is required, it 
        has led to additional time delays and GAO not receiving all 
        information requested. In addition, this has led to the 
        unfortunate consequence of projects directing their questions 
        to PA&E instead of GAO. This added layer of communication has 
        led to miscommunication and delays.

        <bullet>  GAO continues to await the receipt of cost and 
        schedule information for projects in formulation. GAO is still 
        in the process of negotiating with PA&E on what will be 
        provided in terms of cost data for projects in formulation. The 
        likely outcome is that GAO will be provided the independent 
        estimate of life cycle cost for each of the projects in 
        formulation. This process has been time consuming.

        <bullet>  Consistent information is not available on all NASA 
        projects given the various requirements that have been modified 
        over the years for NASA's projects (i.e., NPR 7120.5 
        iterations) and cost accounting has changed practically every 
        year.

Q4b.  What types of information should NASA be collecting from its 
projects to monitor their performance? To what extent is this 
information being collected?

A4b. NASA should be collection information on and monitoring their 
projects with the types of indicators that we have found in our best 
practices work, including technology maturity and design stability. In 
addition, NASA should ensure that it questions its projects on their 
estimates for reuse of heritage technology; margins for weights growth; 
strategies for contractor management; strategies for dealing with 
project partners (i.e., other government agencies or other countries); 
and software development plans, in particular the estimated numbers of 
lines of code.

Q4c.  Based on early observations, does NASA seem to be experiencing 
similar problems on each of its development efforts?

A4c. Preliminary indications show that many NASA project are 
experiencing cost and schedule growth due to several common issues. 
Some of these include:

        <bullet>  Proceeding beyond preliminary design without maturing 
        technologies.

        <bullet>  Proceeding beyond critical design with an unstable 
        design.

        <bullet>  Underestimating development activities (i.e., cost 
        and schedule) associated with the use of heritage technology.

        <bullet>  Dealing with contractor performance issues.

        <bullet>  Dealing with partner performance issues.

Questions submitted by Representative Tom Feeney

Q1.  Given that COTS is being privately developed under a Space Act 
Agreement without the contractual controls of a typical NASA 
procurement, what specific criteria should Congress focus on to gain 
insight while COTS is being developed?

A1. Key milestones that should be tracked under the COTS efforts 
include preliminary design reviews, critical design reviews, and 
production reviews. At each of these reviews, the COTS provider should 
be able to demonstrate it has knowledge necessary to proceed forward. 
For example, at critical design review, best practice organizations 
have typically released 90 percent of their design drawings, which 
ensures that the design is stable enough to proceed into complex 
integration activities. It is our understanding that NASA participates 
in these reviews to assess readiness to move forward, and payments to 
the COTS providers are based on successfully completing these reviews. 
Test flights--the results of which are often visible to the public--are 
also important to monitor as they demonstrate whether engines work 
properly and ultimately, whether prototype launch vehicles can 
successfully reach orbit. There are also key indicators that should be 
tracked throughout the development programs, including weight growth 
and software growth--as these are typically underestimated in complex 
space programs. However, we do not know the extent to which this data 
is available to the Congress and oversight entities.

Q2.  What specific criteria and critical decision milestones should 
Congress focus on to gain insight while Ares I is being developed?

A2. The same milestones and data points should be tracked in assessing 
the Ares program, in addition to the results of specific types of 
testing, such as software testing and integration testing. Further, 
Congress should continually monitor NASA's own risk assessment process 
as it helps to identify what the agency deems as the most critical 
risks and challenges facing the project as well as its mitigation 
plans. In addition, earned value management (EVM) analyses should be 
tracked as they can pinpoint where contractors are having trouble and 
what trends are being experienced in terms of cost and schedule growth. 
Lastly, the levels of management reserves should be tracked as the pace 
of deploying those reserves can indicate areas of high risk.
                   Answers to Post-Hearing Questions
Responses by Noel W. Hinners, Independent Consultant

Questions submitted by Chairman Mark Udall

Q1.  You testified that ``one should have a lunar program exit 
strategy. . ..'' What, in your view, would such a strategy look like 
and are there any lessons learned from the Apollo program?

A1. An exit strategy should define the desired goals of the program 
with sufficient clarity and precision that one knows when the program 
may be considered successful and thus ended. This requires that the 
program requirements that flow from the goals be defined and ``flowed 
down'' to the program element designs and mission implementation plans. 
For the lunar program, the goals and related requirements should be 
defined in terms of what information is needed, for example, to provide 
the experience and capability development essential (not simply 
possible) for preparing for exploration beyond the Moon. Those goals 
and related requirements should be guided by an integrated exploration 
architecture that flows requirements backward from what is required for 
eventual Martian exploration and develops capability in the most 
efficient and effective venue (Earth, ISS, Moon and other deep space 
missions, e.g., Lagrange or Near Earth Objects).
    If there is a relevant lesson learned from Apollo it is that there 
was essentially no exit strategy. The end of Apollo was dictated by 
external political and budgetary forces that, for example, resulted in 
the cancellation of Apollo 18, 19 and 20. NASA plans for extended lunar 
exploration totally failed to materialize. I believe that the greatest 
problem was not recognizing, or accepting, that the budget situation 
simply would not support the plans for extensive lunar exploration. At 
the time NASA had other planning underway for an Apollo Applications 
Program, for a Shuttle and a Space Station but did not have 
administration or Congressional approval for any, a vacuum that led to 
inefficient structuring of the subsequent human flight program. 
Explicit approval and acceptance of a post-lunar program (i.e., an 
integrated architecture more specific than the top-level Vision for 
Space Exploration) would help avoid a similar situation today.

Q2.  You testified that various auxiliary equipment and facilities 
required for a lunar outpost are enabling for future exploration of 
Mars and could be provided by international partners, given the funding 
challenges for Ares I and Orion. Are you indicating that our potential 
to go beyond the Moon will depend on the auxiliary equipment that 
international partners choose to contribute to the lunar exploration 
initiative?

A2. No. The equipment referred to is lunar specific. Our potential to 
go beyond the Moon to, say, Lagrange points or Near Earth Objects will 
not require most of the auxiliary equipments developed for the Moon. 
The lunar equipment also will not be directly applicable to eventual 
human exploration of Mars because of the great environmental 
differences although some of the techniques and experience could be 
applicable. I do believe, however, that the experience that can be 
gained by developing a truly collaborative lunar exploration can help 
develop the trust that will be needed for collaboration in a program as 
difficult as Martian exploration. Given the high cost of human 
exploration of Mars it is likely that significant international 
collaboration will be an essential requirement.

Q3.  A committee convened by the NRC found that the lack of knowledge 
about the biological effects of and responses to space radiation is the 
single most important factor limiting prediction of radiation risk 
associated with human space exploration. If this is the case, are we 
proceeding in the design of space hardware without a good understanding 
of the radiation protection requirements needed?

A3. I am not sufficiently knowledgeable in this subject to be able to 
provide an answer.

Questions submitted by Representative Tom Feeney

Q1.  How should Congress ensure that the establishment of a lunar 
outpost does not divert attention and resources away from exploration 
beyond the Moon?

A1. There are several ways to help avoid unwarranted investment in the 
Moon. First, NASA must have a well-defined integrated exploration 
architecture that defines a next step(s) beyond the Moon and which 
clearly spells out what capabilities unambiguously require lunar 
development (as contrasted with on Earth, ISS, Lagrange and/or NEO 
missions). Having a post-lunar or possibly concurrent goal such as, 
e.g., a Lagrange mission, helps prevent a tendency to continue with or 
expand whatever one is doing simply to keep going with something. 
Secondly, have a well-defined lunar exit strategy (see answer to 
Chairman Udall's question #1 which is keyed directly to accomplishing 
specific, well-defined and not open-ended goals. Lastly, the lunar 
program should be limited to only the high priority goals; one must 
resist the temptation to make it a program for all comers as happened 
in the formulation days of both the Shuttle and the ISS.

Q2.  What are the most important objectives to be accomplished in 
returning humans to the Moon? And to what extent are those objectives 
prerequisites for exploration beyond the Moon?

A2. It is my belief that the most important lunar objectives are those 
related to preparing for exploration beyond the Moon. I do not at this 
time see the lunar program as having merit as a long-duration (decades) 
permanent ``occupancy'' or mostly for conducting science.

Q3.  How is NASA ensuring that lunar explorations will be focused on 
achieving high potential scientific returns?

A3. The NASA Science Mission Directorate is using the NRC report The 
Scientific Context for the Exploration of the Moon to provide it with 
guidance on what lunar science to pursue. They are working directly and 
jointly with the Exploration Systems Mission Directorate to plan the 
science activities for the Moon. As noted in my testimony, I believe 
that the quality of the potential science can be improved by following 
the management model used by Apollo to integrate the science into the 
lunar human exploration.
                   Answers to Post-Hearing Questions
Responses by Kathryn C. Thornton, Professor and Associate Dean, School 
        of Engineering and Applied Sciences, University of Virginia

Questions submitted by Chairman Mark Udall

Q1.  Earlier this year you helped organize a workshop entitled 
``Examining the Vision: Balancing Science and Exploration'' held at 
Stanford University. I understand that participants were scientists and 
engineers representing various industry, academic, government, and 
nongovernmental organizations. What, if anything, did participants 
propose be done to counter concerns that the effort to develop a lunar 
infrastructure would bog down space exploration beyond the Moon?

A1. The only output from the workshop was a joint communique\1\ listing 
four consensus statements. Opinions express in this document are my 
own.
---------------------------------------------------------------------------
    \1\ http://www.planetary.org/programs/projects/
advocacy<INF>-</INF>and<INF>-</INF>education/space<INF>-</INF>advocacy/
20080214.html
---------------------------------------------------------------------------
    Workshop participants concluded that ``the purpose of sustained 
human exploration is to go to Mars and beyond,'' but specific 
strategies to keep that goal in the forefront of NASA, Congress and the 
public were not discussed at the workshop.
    Since the Vision was announced in 2004, NASA has necessarily 
directed abrupt changes to ongoing programs in order to accommodate new 
mandates with the expectation of only incremental funding increases. 
Termination of the Space Shuttle program is in work. Science programs 
on ISS that do not support the Vision have been effectively terminated. 
Reduction and possibly elimination of support for ISS operations in the 
next decade is, in my opinion, inevitable as NASA presses forward with 
construction of a lunar-based analog to the ISS.
    If the Moon is a stepping stone to Mars and beyond, as I believe it 
is, exit strategies should be built into the plans from the beginning. 
Start dates, stop dates and objectives to be accomplished in between 
should be part of the lunar strategy. Rather than prohibiting NASA from 
planning for a human exploration program on Mars, Congress should 
require it so that our investment in a lunar program is an investment 
in a comprehensive exploration program.

Q2.  You testified on the consensus statements of the workshop on 
Examining the Vision, one of which states that ``The significance of 
the Moon and other intermediate destinations is to serve as stepping 
stones on the path to that goal.'' What, in your view, is needed from 
the lunar stepping stone to move on to other destinations, and are 
NASA's plans on the right path for meeting those needs?

A2. Until goals for human exploration of Mars and beyond are developed, 
it is not possible to determine precisely how intermediate steps can 
contribute to those goals. However, in very broad terms, human missions 
to the Moon would provide the first opportunity in a generation to 
manage and execute a program of this magnitude. Heavy lift launch 
capabilities and new human transport to LEO would presumably be 
building blocks for missions to other destinations. The Ares I and Ares 
V launchers should, like the Atlas and Delta families, evolve over the 
years to accommodate progressively more demanding requirements for 
missions beyond the Moon.

Q3.  At the Stanford workshop, the inadequacy of NASA's budget to do 
all the things it is expected to do was also raised.

Q3a.  Did participants address whether Vision is still achievable if 
NASA's future budgets remain at current historical levels?

A3a. While there was no consensus on the subject, the feeling among 
several of the workshop participants is that additional funding, on the 
order of a few billions per year, would be required to achieve near-
term goals of the Vision, i.e., Orion, Ares I and Ares V, while 
continuing to fund space science, Earth science and aeronautics.

Q3b.  Were lesser priority activities identified for elimination/
reduction so that Vision activities could continue?

A3b. Elimination and prioritization of NASA activities were not 
addressed at the workshop. A two-day workshop could not take on 
specific budget issues, with the exception of noting budget cuts being 
applied to science and aeronautics programs to compensate for under-
funded exploration mandates, including the Space Shuttle retirement.

Q4.  Your testimony comments on whether we should look at a broad range 
of opportunities for scientific research on the Moon or focus on the 
science that will best enable capabilities for exploration beyond the 
Moon.

Q4a.  What is your perspective on which path NASA should take?

A4a. In an ideal world, we would do both. In the less-than-ideal world 
in which we live, it seems unlikely NASA can afford both options. In 
that case, focusing on the science and technology developments that 
will best enable exploration beyond the Moon opens up a much broader 
array of science opportunities in the solar system that can be enabled 
or enhanced by human activities than just those on the lunar surface.

Q4b.  What, if any, concerns do you have regarding scientific 
exploration of the Moon?

A4b. The Moon is a profoundly interesting destination for human and 
robotic scientific exploration with a wealth of compelling objectives, 
enough to keep us busy for a generation or two. My concern is that 
expectations for a lunar outpost must be realistic, have a finite 
lifetimes and be part of an overall plan for exploration.
    NASA long range budget forecasts have been presented as ``sand 
charts'' to show that the exploration strategy through 2020 is 
affordable assuming inflationary budget growth or slightly higher.\2\ 
Had ``sand charts'' been available in the early 1980's showing ISS 
funding being phased out only seven years after completion, the space 
station we have now might be considerably different. My point is not to 
rehash the 25+ year saga that led to the ISS, but to suggest that we 
not repeat that experience. Similar ``sand charts'' extending to 2040 
or 2050 could serve as visual reminders that resources are finite, and 
lunar program budgets must at some time ramp down to make way for the 
next step in the exploration strategy.
---------------------------------------------------------------------------
    \2\ http://history.nasa.gov/sepbudgetchart.pdf (attached)

---------------------------------------------------------------------------
Questions submitted by Representative Tom Feeney

Q1.  If we stay-the-course with our current plans, do you think the 
exploration architecture as currently envisioned is sufficient to allow 
us to accomplish our goals of establishing a permanent human outpost on 
the Moon and attempt voyages beyond? Please elaborate.

A1. I cannot comment with any authority on the merits of the current 
architecture as compared to other alternatives, except to note that 
second guessing, re-architecting and redirecting are probably not 
productive exercises at this point. A more productive effort, in my 
opinion, would be to direct and fund NASA to begin considering 
requirements for voyages beyond the Moon and how the Constellation 
system can evolve for those purposes.

Q2.  There is general agreement that the Moon is a logical stepping 
stone to further destinations including Mars. Would you comment briefly 
on other potential destinations that are not as far away as Mars that 
could serve as useful interim destinations?

A2. Developing a comprehensive exploration strategy and associated 
technology development roadmaps should be done by experts. I can only 
comment in very general terms.
    Missions to Near Earth Objects of perhaps a year's duration would 
further extend human exploration beyond Earth's gravity well. 
Technology required for the health and safety of human crews in the 
interplanetary environment would be directly applicable to missions to 
Mars.
    Human missions to the Martian moons would be of a similar distance 
and duration as expeditions to the Martian surface, but would not 
require expensive and risky landing and launch systems.
    These intermediate goals and others offer rich science 
opportunities as well as steps along a technology roadmap to Mars.

Q3.  How should Congress ensure that the establishment of a lunar 
outpost does not divert attention and resources away from exploration 
beyond the Moon?

A3. In my opinion, Congress should direct NASA to develop a 
comprehensive exploration strategy and technology roadmap to accomplish 
the goal of the Vision to ``extend human presence across the solar 
system, starting with a human return to the Moon by the year 2020, in 
preparation for human exploration of Mars and other destinations.'' 
``Go as you pay'' may necessitate smaller steps that I would like to 
see, but makes it even more important to ensure that each step 
contributes to the overall goal.

Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
